<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Inouye, Feinstein, Pryor, 
Brown, Hutchison, Murkowski, and Cochran.

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. JOHN BRYSON, SECRETARY

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The Subcommittee on Commerce, Justice, 
Science, and Related Agencies comes together, and today we will 
be taking the testimony of the Secretary of Commerce, John 
Bryson. We expect robust attendance at this hearing, and we 
note that the ranking member of the full Appropriations 
Committee, Senator Cochran, is here. And we also will be having 
votes at 12:30 p.m., so we hope to be able to move this in an 
expeditious way.
    We're meeting today to examine the Commerce Department's 
fiscal year 2013 budget, and we welcome Secretary Bryson. This 
is his first testimony before the subcommittee since becoming 
Secretary in October 2011. He brings valuable skills to his 
position, strong experience in the private sector, and he's 
been a strong voice for American manufacturers. We love the 
slogan, ``Build it here. Sell it everywhere.'' He knows 
firsthand what American business is facing in today's 
challenging economy. We look forward to hearing from him about 
the agency's budget and priorities.
    The Commerce Department is the major economic engine for 
America. The President's request totals $11 billion for the 
Department. This includes $3 billion in patent and trademark 
fees. Today, I want to examine just a few areas of this robust 
agency. Number one, the protection of not only American ideals, 
but America's ideas. It is in the area of intellectual property 
and the United States Patent and Trademark Office that we have 
a keen interest. We believe that if you invent it, we should be 
able to help you protect it. We are concerned about the 
backlog, the expeditious processing of patent claims, and then 
as a member of both this subcommittee and the Intelligence 
Committee, I am obsessed with cyber espionage. And that will be 
another theme that I will ask in my questions, which is the 
role of the Commerce Department in not only the cyber economy, 
but how to make sure we're protecting ourselves against the 
threats in this area, and the important function of the 
National Institute of Standards and Technology (NIST).
    We also are looking at how to protect our citizens, and 
this goes to whether it's protecting our coast from hurricanes, 
tornadoes, and others, and we're tremendously interested in 
what is happening to the National Oceanic and Atmospheric 
Administration (NOAA), and also particularly to NOAA's weather 
service.
    Then, we have to also look out for the taxpayer. The 
inspector general, over the history of this subcommittee, has 
identified persistent problems that need strong oversight. This 
isn't a blip, but there is a persistent problem in NOAA 
satellite procurement, and Census; we're not going to have 
another techno boondoggle like we had last time. And then, of 
course, the issue of the patent backlog.
    I believe the Department of Commerce needs to be cyber-
obsessed, creating ways to protect its own .gov systems and 
protecting those that use our .gov, particularly, again, in the 
area of cyber espionage.
    NIST is doing a fantastic job, and I know it's been capped 
by the President in this area, as well as playing the leading 
role now in saying manufacturing is alive in America, and we're 
going to make sure it's not only alive, but it thrives. So, 
we're going to ask for more details in that area and on 
intellectual property.
    We are concerned about NOAA's satellites, and ships, and 
planes, and that we need to be fit for duty. We owe it to the 
men and women who operate this equipment, and to the scientists 
and forecasters to make sure we are working with them. We're 
concerned that when it comes to NOAA's ships and NOAA's planes, 
they're kind of a little late at the switch to notice what the 
problems are, ending up in tremendous cost.
    We owe it to our people who work at NOAA that they have the 
best equipment and the best support from their government, so 
that they can be out there providing, whether it's for 
mariners, people who live in coastal communities, and so on. 
We're so proud of what they do. I know, as a Maryland Senator, 
we can't live without NOAA and its weather warnings, but when 
you talk with the Senators from Missouri, and now the way the 
tornado warnings have gone, to a Senator from Hawaii, to 
another Senator from Alaska, the tsunami warnings, and others--
so we do need to hear from you.
    The inspector general has identified several major issues, 
particularly controlling the cost of the 2020 census. Once 
more, we're seeing that the census cost has doubled. We can't 
go there again. And I'm just saying that. We really can't go 
there again. And we'll come back to what I'm going to be asking 
from you.
    I've identified some of the problems at NOAA. We're back to 
the Joint Polar Satellite System (JPSS), and to make sure that 
the satellite program is not out of control.

                           PREPARED STATEMENT

    I'm going to ask unanimous consent that my full statement 
be included in the record.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Today, we're meeting to examine the Department of Commerce's fiscal 
year 2013 budget request. We welcome Commerce Secretary John Bryson for 
joining us today for his first testimony before the subcommittee since 
becoming Commerce Secretary in October 2011. Secretary Bryson brings 
valuable skills to his position. He has been a strong voice for 
American manufacturer, saying we need to ``Build it here, sell it 
everywhere.'' He knows firsthand what American businesses are facing in 
today's challenging economy. We look forward to hearing from him about 
his budget and his priorities.
    The Commerce Department is the major economic engine for America. 
The President's request totals $11 billion for the Department, 
including $3 billion in patent and trademark fees.
    Today, I want to examine how these funds will do three things:
  --Protect American ideas by safeguarding our intellectual property 
        with patents and trademarks and enforcement of our trade laws;
  --Protect our citizens by forecasting and warning about severe 
        weather; and
  --Protect taxpayer dollars.
    By that, I mean the Secretary of Commerce is the chief spokesperson 
for American business, but the Secretary is also the chief manager of 
major management challenges at the Department. Persistent problems need 
strong oversight. Issues that the Inspector General has identified 
include:
  --National Oceanic and Atmospheric Administration's (NOAA) satellite 
        procurement;
  --the next Census; and
  --the patent backlog and the stealing of our ideas.
    When it comes to protecting our ideas, the Department of Commerce 
needs to be cyber-obsessed--creating ways to protect its own ``.gov" 
systems while working with the private sector to better protect 
``.com". The National Institute of Standards and Technology (NIST), 
Commerce's outstanding science and research agency, is helping the 
private sector find new ways to solve today's cyber security problems. 
NIST's budget request of $860 million includes $60 million for cyber 
activities. I want to know how these funds will be used to protect 
online consumers and the private sector from cyber-attacks.
    But NIST is not the only agency standing sentry over America's 
intellectual property. The United States Patent and Trademark Office 
(USPTO) protects American ideas and inventions, which are the heart of 
economic prosperity and jobs. The USPTO has made progress in reducing 
the patent backlog, but more than 657,000 patents are waiting for 
approval and it takes 2\1/2\ years to grant a patent. I also want to 
make sure that USPTO's networks are secure American inventors are 
filing applications electronically. We must make sure the filing 
process is secure.
    When it comes to protecting people, every member of this 
subcommittee is pro-weather and pro-science. NOAA's satellites, ships, 
and planes need to be fit for duty. We owe it to the men and women who 
operate this equipment and to the scientists and forecasters who depend 
on the data to do their jobs. And most importantly, we owe it to our 
communities: to the coastal States that depend on accurate hurricane 
forecasts and to the interior States that depend on timely tornado 
warnings. I know the President's Government reform plan calls for 
moving NOAA to the Department of the Interior, but in the meantime, I 
want to know what you are doing now to keep people and communities 
safe.
    The Inspector General has identified several major issues 
persistent management problems for the Department. Serious issues 
continue to challenge the Department, particularly planning and 
management of the next Census and NOAA weather satellite procurement.
    Controlling costs for the 2020 Census is a top oversight concern 
for both the Inspector General and the Government Accountability 
Office. Cost overruns become a major problem during the 2010 Census, 
and already today we see estimates for the 2020 Census ranging from $22 
to $30 billion. That's more than double 2010 Census costs. I want to 
know what is being done to reduce costs now.
    When Secretary Bryson agreed to be the chief spokesman for 
America's businesses, he also knew that 60 percent of the Department's 
budget is for NOAA, which includes fisheries management, coastal 
resource protection, and operations of the National Weather Service. An 
area that I remain very troubled by is NOAA's acquisition of new 
weather satellites. The budget request for NOAA's new polar 
satellites--called Joint Polar Satellite Systems (JPSS)--is nearly $1 
billion. JPSS's life-cycle cost--the costs of development and 
operations--have increased yet again from $11.9 to $12.9 billion. This 
new total cost estimate shows that despite strong warnings from the 
subcommittee, JPSS is going in the wrong direction. Cost growth is 
hurting NOAA's core ocean and weather operations. This leads me to 
question if NOAA should remain responsible for procuring these 
satellites.
    In conclusion, I want to thank all the men and women of the 
Commerce Department. They are the trade experts, statisticians, patent 
and trademark examiners, scientists, engineers, and weather forecasters 
who work hard every day to promote American businesses, protect 
American ideas and resources and keep our economy moving forward.

    Senator Mikulski. And Senator Hutchison, I know Senator 
Inouye and Senator Cochran have joined us. May we defer to 
them, and then come back to you, and in turn, to our Secretary?
    Senator Hutchison. I'd be happy to. I'll be here for the 
duration.
    Senator Mikulski. I know that there are several hearings 
going on.
    Senator Hutchison. Yes.
    Senator Mikulski. Senator Inouye, did you want to make a 
statement?

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Madam Chair, thank you very much for this 
opportunity to say a few words about the President's fiscal 
year 2013 budget relating to the Commerce Department. But, 
before I begin, Madam Chair, I'd like to join the multitude of 
admirers and colleagues in congratulating you on becoming the 
longest-serving woman in our congressional history. I can't 
quite believe it, but----
    Senator Mikulski. I can't believe it either.
    Senator Inouye. You look too young and cute.
    Senator Mikulski. That, I can believe.
    Senator Inouye. But I've been around a little while, and I 
want to thank you for the great work you've done here.
    Madam Chair, I want to say a few words, but before I 
proceed I'd like to commend and thank the Secretary for the 
work he has been doing, and on behalf of my constituents, I 
thank you for your hands-on service to our people.
    I have just one concern, and that concern has been 
expressed by my chair: NOAA. So if I may, Madam Chair, I'd like 
to submit my statement and make sure that it's part of the 
record.
    Senator Mikulski. Absolutely, Senator. With unanimous 
consent, your statement is included in the record.

                           PREPARED STATEMENT

    Senator Mikulski. And then I know you and your staff have 
important questions, that they, too, will be submitted to the 
record, and we'll ask the Secretary to respond within 30 days.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Madam Chairwoman, thank you for the opportunity to say a few words 
with regard to the President's request for the Department of Commerce's 
budget for fiscal year 2013. Before I begin, however, let me also join 
my colleagues and others in congratulating you on making history as the 
longest-serving woman in congressional history. I have been around for 
a few years myself and deeply appreciate the honor and dignity that you 
have brought to both the House and the Senate through your dedicated 
service.
    Mr. Secretary, welcome and thank you for joining us. I have been 
reviewing the President's proposed budget and want to applaud you and 
the President for working to find ways to support our small businesses 
and decrease our trade deficit even in these perilous budget times. I 
know this is no easy task. However, this is not why I wanted to come to 
this hearing today. Rather, I wanted to come in order to make a special 
point about the agency which comprises more than 60 percent of your 
Department's discretionary budget and yet seems to merit less attention 
from year to year. I refer of course to the National Oceanic and 
Atmospheric Administration (NOAA) which, under the President's budget 
would receive a little more than $5.1 billion in fiscal year 2013. To 
be sure, this is an increase, but as we all know this increase is 
dedicated almost entirely to needed satellite programs while core 
agency functions and programs are elsewhere consolidated and cut. In my 
view, these cuts appear to have been made in a somewhat haphazard 
fashion with what seems to be a highly unfortunate emphasis on programs 
that have previously been quite clearly highlighted as congressional 
priorities. I might suggest that explicitly targeting such programs is 
not a constructive way to begin a dialog over what I consider to be an 
agency crucial to our Government's function, our Nation's economic well 
being, and our safety and security. To begin the annual budget 
conversation in such a way inevitably sets up a cycle where the 
Congress and the administration focus on more parochial interests to 
the detriment of any serious thinking that might be required about 
refocusing agency missions and priorities in a shrinking budget 
environment.
    You note in your written testimony that the cuts to NOAA were made 
so that the agency could focus on its ``most essential initiatives'' 
and that reductions were made to programs that were found to be 
redundant and ``of lower value''. This then is the rubric by which we 
must judge such actions as the proposed 20 percent cut to the National 
Tsunami Warning Network and Hazard Mitigation Program. Less than a year 
after one of the most devastating tsunami's the world has ever seen, 
the Department of Commerce decided that NOAA's tsunami warning program 
was, according to standards outlined in your testimony, nonessential, 
redundant, and of low priority. Given that my State suffered 
significant damage, though thankfully no loss of life, from the 
Japanese tsunami, this seems like an incorrect assessment to me. It 
also gives me pause as to the other proposed cuts to NOAA and I hope 
that we may continue to have a dialog as to your reasoning.
    I would like to add one last point with regards to the 
administration's proposal for reorganizing the business and trade 
functions of the executive branch. I sincerely congratulate you and the 
President on your willingness and desire to think creatively about how 
we may make Federal activities more efficient while at the same time 
enhancing the vital services that foster American enterprise. The 
proposal to reorganize and consolidate the business and trade functions 
of the Federal Government into a single Department has some value in 
terms of efficiency, economy, and effectiveness. However, there are 
still many issues yet to be worked out and some questions yet to be 
answered.
    I am especially concerned with the lack of details regarding the 
proposed fate of NOAA.
    I understand that there is a notional idea to move it the 
Department of the Interior with a promise that details will be worked 
out later. I also understand that the likelihood of any of this 
occurring in the near term is small. Nevertheless, I strongly suggest 
to you that, as with the budget, it is always better to start these 
conversations sooner. In this case there is no need to wait for the 
Congress to act on the President's request for reorganization 
authority. I and my staff would enthusiastically welcome a conversation 
with the administration about ways that we may strengthen NOAA while 
increasing Government efficiency.

    Senator Inouye. Thank you very much.
    Senator Mikulski. Senator Cochran, our ranking member, also 
a coastal Senator.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you very much. Thank 
you for your leadership of this subcommittee, and in the 
Senate, as a whole, we appreciate your friendship over the 
years.
    Mr. Secretary, welcome. We're pleased to have you here 
before us today to discuss the budget request for the 
administration and these areas under your jurisdiction.
    One of the disturbing things, and I noticed right away, is 
the lack of emphasis on the Gulf of Mexico. And I don't know of 
anything that's happened in our country in terms of water 
resources, ecological interests, and importance than the 
problems in the Gulf of Mexico, and to see NOAA sitting back 
and waiting for others, I guess, to identify the priorities--we 
need leadership at this time more than ever. And I will be 
curious to know what your recommendations and observations are 
about that issue.
    But beyond that, we're glad to have the opportunity to 
review the budget request of the administration, and we're 
hoping to work in a positive and constructive way to harness 
the resources that are needed to deal with the challenges we 
face under your jurisdiction, in spite of the disappointment 
that the budget presents to us at the outset.
    Senator Mikulski. Thank you, Senator Cochran. And your 
questions, too, will be in the record.
    Senator Mikulski. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, thank you, Madam Chairman, and I 
will echo what Senator Inouye said, and say that you've had a 
fabulous week. And I'm so happy that Women's History Month, 
which you couldn't have predicted 30-some years ago, would 
happen on your anniversary. But it's a wonderful thing that we 
are celebrating your service as the longest-serving woman in 
the history of our the Congress and our country. So, I loved 
being a part of all your festivities, and it probably won't be 
matched for a long time. In fact, you may break your own 
record.
    Senator Mikulski. Thank you.
    Senator Hutchison. Let me say that I think you're hearing 
what the concerns are already. NOAA is a big one. Gulf of 
Mexico. I mean just last week, we had tornadoes, and horrendous 
weather that kept our Republican Minority leader, Senator 
McConnell, from being able to be here on Tuesday, because he 
was not able to get out of DFW airport for about 8 hours. And 
it's just always there.
    The Gulf of Mexico is the site of so many of our 
hurricanes, and tornadoes, and horrible weather, and yet, we 
see failures in NOAA. We see the satellite system, which 
doesn't function right. It's a big part of your budget. But, 
the people who are concerned with the wet side of Commerce, 
with fisheries and ocean monitoring, are also very concerned. 
So, I will want to know what you're doing to address these 
issues, and what you would do with the increase in spending in 
that area.
    The reorganizing that has been announced to possibly put 
NOAA in the Department of the Interior, I would like to know 
your opinion about that, if it goes better there, and what can 
we see that would be an improvement if it did move, or if not, 
why not. And the computer hacking is another issue that really 
has come to the forefront, and protecting the Department's 
information technology infrastructure certainly has to be a 
priority. And I guess in the hacking that happened this year, 
you're still, I'm told, trying to sort out if any information 
about the companies that are in your system had compromised 
information.
    The National Network for Manufacturing Innovation is part 
of the budget. Certainly, we are focused on manufacturing, and 
innovation and manufacturing should be a priority, and I want 
to hear more about that. And just the last thing I would 
mention is the International Trade Administration (ITA). The 
President made an Executive order that I think was premature, 
because we haven't had a chance to see what a new ITA would do 
that the U.S. Trade Representative (USTR) isn't already doing, 
or should be doing, and do we need another reformed agency to 
do the work on unfair trade practices, when we do have a setup, 
I think, at the USTR office.
    So, I'd like to, you know, pursue these things, and get 
your answers, and I guess after we have our opening statements, 
we'll get a chance to hear what your priorities are.
    Thank you.
    Senator Mikulski. Mr. Secretary.
    Secretary Bryson. Well, thank you.
    Senator Mikulski. Thank you, I think. We've got a lot of 
challenges.

                    SUMMARY STATEMENT OF JOHN BRYSON

    Secretary Bryson. Chairwoman Mikulski, Ranking Member 
Hutchison, and members of the subcommittee, I am pleased to 
offer a written statement for the record, and to discuss 
President Obama's 2013 budget request for the Commerce 
Department.
    I feel the need and really want to join the others in 
saying that it is a special honor today to testify before the 
longest-serving female Member in the history of the Congress, 
and maybe as a father of four daughters, I would say I deeply 
admire your service to the people of Maryland and our Nation 
since being elected to the Congress in 1976. So, I join all the 
others in saying thank you, and congratulations Chairman 
Mikulski on making history once again.
    So, in my first 5 months as Secretary, I've seen many 
examples of how the Commerce Department supports American 
business. Just last Friday, I visited Pavilion Furniture. That 
is a very small manufacturer in Miami who we are helping to 
start exporting both to the Caribbean and to Asia. The owner, 
Mike Buzzella, said, ``The introductions that the Commerce 
Department just made for us in Panama and the Pacific Rim are 
helping to find new ways to grow in a global economy.''
    This budget, the budget we have before you now, reflects 
the commitment to helping businesses like Mike's continue to 
drive competitiveness, innovation, and job creation. It 
includes $8 billion in discretionary funding and $2.3 billion 
in mandatory funding. Throughout the budget, we have made smart 
and tough choices that cut costs, while building only on 
programs that truly do work. Key priorities are in areas where 
we see growth and promise, such as advanced manufacturing, 
exporting, and attracting foreign direct investment.
    For example, the budget includes $135 million for R&D in 
areas like advanced materials and advanced manufacturing 
processes. These are critical areas where the United States 
must stay competitive.
    We will also continue to support the foundational building 
blocks of our economy, such as research and science, 
environmental sustainability, and the public safety. For 
example, NOAA's budget includes $1.85 billion for satellites, 
which provide 93 percent of the input to our Nation's weather 
prediction models. This directly impacts the daily flow of 
commerce and the ability of businesses and communities to 
prepare for disaster.
    Also, we have invested in stock assessments, because our 
fishermen and our fisheries are culturally and economically 
important to our country and to our competitiveness.
    At the same time, we are committed to serving as 
responsible stewards of taxpayer dollars. We propose 
eliminating 18 programs, reducing funding for many others, and 
achieving administrative savings. Altogether, this will save 
taxpayers more than $400 million.

                           PREPARED STATEMENT

    Let me just close by saying that as a CEO for nearly 2 
decades, I strongly believe that any organization is most 
effective when it operates with a common vision. Our 12 bureaus 
are committed to functioning as what we call ``One Commerce''. 
Collectively and collaboratively, we will continue to empower 
American businesses to drive our economy and to build on the 
nearly 4 million jobs that have been created over just the past 
2 years.
    Thank you all for your continued support of the Commerce 
Department. I look forward to your comments, and I'm pleased to 
answer any questions.
    [The statement follows:]

                   Prepared Statement of John Bryson

                              INTRODUCTION

    Chairman Mikulski, Ranking Member Hutchison, and distinguished 
members of the subcommittee, I am pleased to join you today to talk 
about President Obama's budget request for the Department of Commerce 
for fiscal year 2013. While this is my first testimony before you, I 
want to start by thanking you for the subcommittee's members' deep 
appreciation of the talented women and men who work at the Department 
of Commerce, and for your support of our relentless focus on helping 
American companies be more innovative at home and competitive around 
the world.
    I must say, it is humbling that my first time testifying in the 
Senate as the Secretary of Commerce is before the longest-serving 
female Member in the history of the United States Congress. As the 
father of four daughters, I thank you. As the newest member of the 
Cabinet, I humbly recognize what an impressive feat this is and deeply 
admire your many years of service. Since being elected to Congress in 
1976, you have always been an admirable representative of the great 
State of Maryland and our country. Thank you and congratulations on 
making history once again, Chairwoman Mikulski.
    In today's challenging budget climate, the Commerce Department is 
committed to responsible stewardship of taxpayer dollars. We've done 
this by making smart and tough choices to cut costs, while ensuring 
that we build only on programs that truly work. Thus, the fiscal year 
2013 budget request for Commerce is fiscally responsible while 
promoting entrepreneurship, innovation fueled by investments in 
science, global competitiveness, and research and development. 
President Obama's fiscal year 2013 budget for Commerce includes $8 
billion in discretionary funding, which is a 5-percent increase from 
the fiscal year 2012 enacted level. The budget also requests $2.3 
billion in mandatory funding for new programs.
    This budget invests in efforts to help businesses build their 
products here and sell their products and services everywhere, putting 
Americans back to work. To do so, we are requesting funding 
specifically to promote high-priority activities to support advanced 
manufacturing, exports and foreign direct investment. With these 
investments, we will build a 21st century infrastructure; encourage the 
sustainability of our environment; strengthen science and information; 
and support national security and public safety. To make that possible, 
this budget request balances the investments and priorities outlined 
here with difficult choices--including eliminating 18 programs, 
resulting in more than $50 million in savings; reducing other programs 
by an additional $336 million; and achieving $176 million in 
administrative savings.
    As a CEO for nearly two decades, I learned that a company is most 
effective at delivering services when it operates with one vision and 
the entire workforce, from the boardroom to the shop floor, are focused 
on a clearly defined collective goal. I believe the same thing at the 
Commerce Department. We are the strongest advocates for American 
businesses when we are more than the sum of our parts--when we are 
``One Commerce''.
    The common thread through all of our work across the bureaus is 
helping American businesses create jobs. This is as true for National 
Oceanic and Atmospheric Administration (NOAA) as it is for the 
International Trade Administration (ITA). As One Commerce, we are 
working relentlessly to support businesses and communities and to 
advance the frontiers of innovation, as I detail below.

                   BUILD IT HERE--SELL IT EVERYWHERE

    As you all know, the challenges and opportunities that American 
businesses face today are global in nature. Since my confirmation in 
October, I have focused the Commerce Department on becoming more 
nimble, responsive, and effective for American businesses. As my friend 
Fred Hochberg and I like to say, ``We want government at the speed of 
business.'' To reach this goal, the Department will focus on a simple 
imperative: In order to create good-paying jobs here at home, we need 
to help more businesses build their products here and sell them 
everywhere. To achieve this, we are focusing on:
  --Supporting advanced manufacturing;
  --Increasing U.S. exports; and
  --Attracting more investment in America from all over the world.

Advanced Manufacturing
    The President's fiscal year 2013 budget request for the Department 
of Commerce recognizes that we must build momentum in our manufacturing 
sector, particularly advanced manufacturing. By itself, the U.S. 
manufacturing sector would be the ninth-largest economy in the world. 
Manufacturing employs 12 million Americans and is a major source of 
innovation in our economy, with manufacturing companies accounting for 
72 percent of all private-sector research and development (R&D) 
spending. This is why the President's proposed budget would invest 
heavily in the manufacturing expertise at our National Institute for 
Standards and Technology (NIST).
    In support of the President's priority to strengthen advanced 
manufacturing, the President's fiscal year 2013 budget for NIST 
contains:
  --$135 million for advanced manufacturing R&D to target high-
        potential technologies such as the manufacture of advanced 
        materials and smart manufacturing processes, which will make 
        U.S. manufacturers more competitive; and
  --$21 million for the Advanced Manufacturing Technology Consortia 
        Initiative that will bring together industry, universities, and 
        the Federal Government to invest in highly promising R&D and 
        accelerate the transfer of innovative technologies and products 
        into the hands of American manufacturers.
    In addition, the Hollings Manufacturing Extension Partnership 
within NIST is funded at $128 million to help businesses save time and 
money and thereby improve the competitiveness of small- and medium-
sized firms in manufacturing.
    Partnerships can also strengthen our competitiveness in 
manufacturing. Gene Sperling, Director of the National Economic Council 
and Assistant to the President for Economic Policy, and I are co-
leading the new White House Office of Manufacturing Policy. We are 
focused on high-impact ideas, such as the creation of a new National 
Network for Manufacturing Innovation. The administration proposes to 
make a one-time $1 billion mandatory spending investment to catalyze 
the creation of a network of up to 15 regional institutes to foster 
innovation and accelerate technological advancements in manufacturing. 
These regional institutes will allow researchers, companies, and 
entrepreneurs to solve problems in pre-commercial technologies that 
will lead to U.S. leadership in tomorrow's manufactured goods.
    Our ``One Commerce'' approach brings significant resources to bear 
for the benefit of American manufacturing companies. The Commerce 
Department's bureaus--including NIST, ITA, Economic Development 
Administration (EDA), and U.S. Patent and Trademark Office (USPTO)--are 
collectively focused on supporting the commercialization of 
manufacturing technology, bridging the gap between the laboratory and 
the market, and maximizing the unique strengths that already exist in 
particular regions and manufacturing hubs around the United States. 
This will help us ensure that the next generation of groundbreaking 
products is not just invented here in America, but is also built here.

Increasing U.S. Exports
    We also want to help American companies sell their products and 
services to the 95 percent of the world's consumers who live beyond our 
borders. U.S. businesses are not exporting nearly as much as they 
could. Only about 1 percent of U.S. businesses export, and most only to 
one country. Many American companies would like to export but are 
unsure how to start. Small businesses in particular often face big 
challenges when it comes to getting export financing, building 
relationships with foreign suppliers, and dealing with unfamiliar 
foreign rules and regulations. President Obama's National Export 
Initiative (NEI), led by our Department, is designed to help businesses 
overcome these hurdles. And, in fact, U.S. companies increased their 
exports by 17 percent in 2010 and by an additional 14 percent in 2011, 
putting us substantially on track to meet the challenging goal to 
double American exports by the end of 2014.
    We have leveraged existing resources and enhanced the way we work 
to help American companies expand their global market share. In 2010 
and 2011, the Commerce Department coordinated 77 trade missions to 38 
countries with more than 1,000 U.S. companies. We have identified and 
prioritized work in markets and sectors where American businesses are 
the most competitive. In addition, we have expanded opportunities in 
new markets thanks to congressional implementation of the trade 
agreements with Colombia, Panama, and Korea.
    The fiscal year 2013 budget requests a total of $517 million for 
our ITA. As with other Commerce Department bureaus, ITA is closely 
examining its organization to speed up operations in order to focus on 
higher productivity results for American businesses. This budget 
request proposes a consolidation of ITA's four business units to three, 
organizing them by core function to provide more effective and 
efficient services to U.S. companies and to better focus on priority 
export markets, trade enforcement, and strategic partnerships while 
saving $8 million annually.
    ITA's budget also requests an additional $30 million to strengthen 
trade promotion by placing Foreign Commercial Service Officers and the 
equivalent of 90 locally engaged staff in high-growth markets such as 
China, India, and Brazil. An expansion of these priority markets will 
enable identification of more export opportunities for U.S. companies, 
more rapid and timely business counseling, and enhanced commercial 
diplomacy and advocacy support.

Attracting More Investment
    We also must promote investment into the United States. That 
includes U.S. companies expanding their operations domestically or 
bringing jobs back to the United States. It also means foreign 
companies investing here. This administration maintains a deep 
commitment to ensuring that the United States remains the most open 
economy in the world. America is already the number-one destination 
around the world for foreign direct investment, and foreign companies 
support more than 5 million jobs across the United States. Until the 
recent launch of SelectUSA, however, there has not been coordinated 
Federal effort to help either U.S. or non-U.S. businesses navigate the 
Federal and various State economic environments in order for the 
private sector to more rapidly and easily make these types of 
investments in America. The fiscal year 2013 President's budget 
proposes $13 million for SelectUSA to aggressively pursue and win new 
business investment in the United States.
    In order to spur job creation, the United States must encourage 
business investment from all sources, including encouraging companies 
that have moved jobs offshore to come back to the United States. To 
support this effort, we have launched a task force dedicated to 
investment and the in-sourcing of jobs. This task force is leveraging 
our existing resources to make promoting and facilitating business 
investment in the United States. a natural part of what the Department 
does, akin to export promotion and facilitation. Further, we are 
working to create an online calculator that will help companies 
determine the hidden costs of moving business out of the United States.
    Additionally, EDA will play a critical role through strategic 
grants that build assets in communities to support investment. 
Moreover, EDA is updating its investment priorities to include the in-
sourcing of jobs back to the United States; projects to facilitate in-
sourcing will be prioritized for funding within all EDA grant programs. 
In fiscal year 2012, EDA will offer support to grant applicants who are 
interested in bringing jobs back to the United States through its next 
round of Jobs and Innovation Accelerator Challenges--economic 
development grants that will focus on America's rural communities and 
strengthening advanced manufacturing. Those interested in accelerating 
job creation through in-sourcing will be encouraged to apply.

               SUPPORTING U.S. BUSINESSES AND COMMUNITIES

    The fiscal year 2013 budget for the Department of Commerce supports 
American businesses and communities--whether it's working directly with 
manufacturers to enhance their economic competitiveness or supporting 
communities through economic development and the delivery of daily 
weather forecasts and severe storm warnings.
    The Department works to strengthen communities, especially in 
disadvantaged or distressed areas, through private sector job creation. 
The President's budget provides $182 million for the EDA's Economic 
Development Assistance programs to drive 21st century innovation and 
economic development that leverage regional assets to foster economic 
growth.
    The budget provides $29 million for the Minority Business 
Development Agency (MBDA), which, through a network of 39 affiliated 
Minority Business Centers, supports the ability of minority businesses 
to grow and thrive in the global economy. We are investing in these 
centers because they are on the front lines of providing direct 
services to minority-owned businesses. This approach has worked. Over 
the last 3 years, our network of MBDA Business Centers has helped 
minority businesses obtain $10 billion in contracts and capital while 
helping to create and save nearly 20,000 jobs. And last year, MBDA 
registered the best annual performance in its 41-year history.
    The Bureau of Industry and Security (BIS) advances U.S. national 
security, foreign policy, and economic objectives through ensuring an 
effective export control and treaty compliance system and by promoting 
continued U.S. strategic technology leadership. The President's fiscal 
year 2013 budget recognizes, with a request of $102 million, the 
important role of BIS to ensure sensitive technologies are not exported 
to regimes unable to safeguard the technologies from bad actors, 
weapons proliferators, and terrorists. Within this request, $6 million 
is provided to hire 24 additional personnel at Commerce to handle the 
new workload under the administration's export control reform 
initiative to advance national security and overall economic 
competitiveness.
    Robust monitoring and enforcement of U.S. rights under 
international trade agreements, as well as enforcement of domestic 
trade laws, are crucial components of the administration's strategy to 
expand exports, ensure fair competition with our foreign trading 
partners, and grow the economy. ITA is a key partner supporting the new 
Interagency Trade Enforcement Center (ITEC), which will represent a 
more aggressive ``whole-of-government'' approach to addressing unfair 
trade practices, and will serve as the primary forum within the Federal 
Government for executive departments and agencies to coordinate 
enforcement of international and domestic trade rules. This budget 
requests an increase of $24 million to the Commerce Department that 
will support the ITEC and will significantly enhance the 
administration's capabilities to aggressively challenge unfair trade 
practices around the world.
    The Commerce Department also focuses on generating and providing 
timely data and analysis for public and private sector decisionmaking. 
The fiscal year 2013 President's budget requests $100 million for the 
Economics and Statistics Administration (including the Bureau of 
Economic Analysis [BEA]) and $970 million for the Census Bureau. BEA, 
which sits within the Economics and Statistics Administration (ESA), 
provides the tools to identify the drivers of economic growth and 
fluctuation, as well as measure the long-term health and sustainability 
of U.S. economic activity. This budget will strengthen BEA's ability to 
identify industry-specific trends within its GDP statistics.
    The fiscal year 2013 budget for Census sustains critical business 
and household data collection activities, such as the 2012 Economic 
Census that provides an every-5-year comprehensive view of American 
businesses and that forms the foundation for all our industry and 
business statistics. Similarly, the American Community Survey (ACS) is 
the only source for geographically detailed socio-economic information 
on a yearly basis. Businesses use ACS information in many ways, such as 
site selection and market intelligence, which promotes job creation and 
economic recovery. State and local governments use ACS information to 
support decisionmaking for key programs and services, such as schools, 
transportation, and emergency services. The Census Bureau request also 
invests $131 million in research and testing for the 2020 Decennial 
Census. This is a critical investment that is essential to saving money 
in future years. By devoting sufficient resources to this early state 
of the lifecycle, the Census Bureau will be able to develop the new 
approaches required to break the trend of doubling the cost of the 
decennial census each decade.
    This budget also supports U.S. businesses and communities by 
investing $5.1 billion, an increase of $153.9 million or 3.1 percent 
more than the fiscal year 2012 enacted level, for NOAA's vital work on 
weather forecasting, fisheries management, and coastal stewardship.
    NOAA's critical satellite operations will provide businesses and 
individuals with the data and information needed to plan for changing 
weather conditions. These satellites also provide advanced warning of 
severe storms so that actions can be taken to protect lives and 
property. The fiscal year 2013 budget invests $1.8 billion in NOAA 
satellites, including $916 million for the NOAA Joint Polar Satellite 
System (JPSS), and $802 million for the next generation geostationary 
satellite, GOES-R. Weather satellites, including JPSS and GOES-R, are 
critical to our Nation's infrastructure and economy and provide 93 
percent of the input to the Nation's weather prediction models. Severe 
storms in the past year, both tornados and hurricanes, have 
demonstrated the importance of our weather satellite system to provide 
advance warning of these disasters. fiscal year 2013 funding will 
ensure that GOES-R remains on its current schedule to replace the GOES-
N series of satellites currently in operation. Full funding is required 
to avoid any additional schedule slip to JPSS and to minimize the gap 
in polar satellite coverage between JPSS and the Suomi National Polar-
Orbiting Partnership (Suomi-NPP). NOAA and NASA successfully launched 
the Suomi-NPP in October 2011. JPSS is scheduled to launch in the 
second quarter of 2017.
    NOAA's environmental data and services support commerce throughout 
the country. NOAA provides weather information that allows for safe and 
efficient transportation; drought and water data that inform 
agricultural decisions; space weather warnings needed to protect the 
national energy grid and worldwide communications from solar storms; 
and climate information that supports adaptation decisions for business 
and communities. Nearly 80 percent of U.S. import and export freight is 
transported through seaports, and by 2020, the value of all freight 
coming through U.S. ports is projected to increase by more than 40 
percent. The fiscal year 2013 President's budget requests $150 million 
to support navigational services nationwide, including mapping and 
charting and real-time observations and forecasts of water levels, 
tides, and currents. The budget also provides $972 million for weather, 
drought, and flood forecasting.
    The fiscal year 2013 President's budget for NOAA also provides an 
increase of $29.7 million to improve our understanding of climate, with 
a specific focus on research that underpins our understanding of 
climate processes. This includes an $8 million investment in the 
continued development and use of state-of-the-art Earth system models, 
which help businesses and communities address climate related issues, 
including sea level rise and Arctic climate change and $4.6 million to 
make progress in critical ocean observations and analysis.
    Healthy coastal economies rely on a healthy ocean ecosystem. NOAA's 
fiscal year 2013 budget will continue to ensure that critical 
information and tools are available to users and decisionmakers to 
support the management of our ocean and coastal resources to make 
certain future generations also have the ability to enjoy and benefit 
from these resources. Rebuilding our Nation's fisheries is essential to 
preserving the livelihood of fishermen, the economies of our coastal 
communities, and a sustainable supply of healthy seafood. The fiscal 
year 2013 President's budget requests $880 million for the National 
Marine Fisheries Service, funding science, management, and conservation 
of fisheries and protected resources. This includes a requested 
increase of $4.3 million to expand stock assessments and $2.3 million 
for survey and monitoring projects, which will be targeted at high-
priority commercially and recreationally viable fish stocks.

                 ADVANCING THE FRONTIERS OF INNOVATION

    The fiscal year 2013 budget supports key initiatives to help 
advance our scientific and technological frontiers and build the 
foundations for a secure future. Innovation is critical to our economy; 
it generates American jobs today and will drive the jobs of the future. 
Along with major research universities, businesses are the primary 
source of new ideas, from concept to commercialization, and the 
Department of Commerce is leveraging our resources to provide the 
tools, policies, and technologies that enable U.S. businesses to gain 
and maintain an advantage in world markets.
    Together, NIST and NOAA will invest an additional $1.3 billion in 
research and development efforts.
    As I mentioned earlier in my testimony, a focal point for the NIST 
budget request is on investments to support advanced manufacturing. 
Overall, the fiscal year 2013 President's budget requests $857 million 
in discretionary spending for NIST that addresses challenges to U.S. 
industry in a number of areas including advanced communications and 
cybersecurity.
    Specifically, we request $10 million to support research in 
advanced communications networks to build collaboration with the 
telecommunications industry to help lay the groundwork for an 
interoperable public safety communications network that seamlessly 
delivers voice, data, and video to first responders and other emergency 
personnel. In addition, cybersecurity remains a priority at NIST with 
the request of an additional $8 million for the administration's 
National Strategy for Trusted Identities in Cyberspace (NSTIC) program. 
This program supports the development of an online environment--the 
``Identity Ecosystem''--that improves on the use of passwords and 
usernames, and allows individuals and organizations to better trust one 
another, with minimized disclosure of personal information. This work 
is intended to have broad benefits for applications ranging from 
consumer financial transactions, to industrial supply chains, to health 
records, for which it is essential to have information security.
    The President's fiscal year 2013 budget requests $651 million for 
NOAA research and development. This includes NOAA's atmospheric and 
ocean, coastal, and Great Lakes research and applied science which are 
at the forefront of discovery and a key component of advancing the 
mandates of the America COMPETES Reauthorization Act of 2010. NOAA 
research is improving the forecasts of severe weather such as winter 
storms and flash floods, developing next-generation radars with the 
potential to extend lead times for detecting tornadoes, and 
operationalizing new marine sensor technologies with economic benefits.
    USPTO facilitates the generation of innovative and commercially 
viable processes and products, while protecting the intellectual 
property rights of inventors. The Congress helped tremendously in this 
effort last year with the passage of the America Invents Act, and the 
fiscal year 2013 budget supports USPTO's authority to spend all of the 
fees collected to accelerate patent processing and improve patent 
quality, as established in that law. The request supports continued 
reductions to pendency and backlogs, with goals of cutting the backlog 
in half to 329,500 by fiscal year 2015 and total pendency to 18.3 
months by fiscal year 2016. This would be a dramatic turn-around from 
where we were just 3 years ago. In fiscal year 2009, the backlog was 
nearly 800,000 and pendency was 34.6 months. In fiscal year 2013, USPTO 
expects to hire an additional 1,500 examiners to support this effort.
    EDA will dedicate $182 million in grants to foster innovation 
through innovation hubs across the United States, particularly in 
distressed communities. We know this new model of economic development 
works. The Jobs Innovation and Accelerator Program launched by EDA last 
year is estimated to create approximately 4,800 jobs and 300 new 
businesses, retain 2,400 jobs and train 4,000 people for careers in 
high-growth industries.
    The need to ensure our Nation has state-of-the-art digital 
infrastructure--to drive economic growth, create jobs, promote 
innovation, support Federal agencies' missions, and improve public 
safety--cannot be overstated. This is a core value of President Obama, 
and one that is reflected in several major initiatives undertaken by 
the administration and enacted by the Congress. The Department's 
National Telecommunications and Information Administration (NTIA) has 
been called upon to make some of the most complex and consequential 
technology and innovation programs a reality. Most recently, under the 
Middle Class Tax Relief and Job Creation Act, NTIA will establish 
``FirstNet'', an independent entity that will oversee the creation of a 
long-needed nationwide, interoperable public safety broadband network. 
Funded through proceeds of future spectrum auctions, this broadband 
network represents delivery on a promise made by this administration to 
America's first responders and the key challenge of network operability 
noted by the 9/11 Commission.
    In all, the President's fiscal year 2013 budget provides $47 
million to NTIA. These funds are needed for NTIA to continue its work 
in several areas critical to creating jobs, promoting innovation and 
growing our economy. This includes implementing the President's 
directive to double the amount of spectrum available for commercial 
wireless broadband service. It also includes managing and overseeing 
nearly $4 billion in Broadband Technology Opportunities Program 
projects, which are helping to expand broadband access and adoption 
across the country. These projects are allowing hospitals, libraries 
and universities, as well as individual citizens, entrepreneurs and 
small businesses, to succeed and thrive in the digital economy. The 
fiscal year 2013 President's budget request includes $27 million for 
NTIA to continue to oversee these projects to protect against waste, 
fraud and abuse, and ensure they deliver on their promised benefits--
including more than 70,000 miles of broadband networks by the end of 
fiscal year 2013--on time and on budget. Almost all projects are slated 
to be completed by the end of fiscal year 2013.
    The Department of Commerce is also active on the domestic and 
international fronts to preserve an open, interconnected global 
Internet that supports continued innovation and U.S. economic growth. 
Privacy is a key component of consumer trust in the Internet and of the 
online retail marketplace that accounts for around $200 billion in 
annual economic activity. The President's budget requests approximately 
$1 million for NTIA's work on promoting Internet innovation, in 
particular, by leading the administration's efforts to provide 
consumers with stronger privacy protections while maintaining the 
flexibility that companies need to innovate, here and around the globe.

                    STEWARDSHIP OF TAXPAYER DOLLARS

    Just as businesses across the United States. must find efficiencies 
and focus on results, the Federal Government has a responsibility to 
maximize results and be responsible stewards of taxpayer dollars, 
especially in difficult economic times. As I stated before, there were 
many difficult choices made in this budget, cutting programs across the 
Department. In fact, EDA, MBDA, and departmental management are 
decreased below their fiscal year 2012 enacted levels. In other 
bureaus, such as NOAA, sharp cuts were taken to specific programs to 
focus on the most essential initiatives. Programs were reviewed across 
the Department, and reductions were focused on specific programs or 
projects that, while performing important work and generating value, 
are lower priority because they are either similar to programs in other 
agencies or not central to the Department's mission.
    The Commerce Department is committed to reducing our administrative 
costs through savings and efficiencies. In doing so, we are not only 
being financially sound, but we are ensuring we can invest in the 
important initiatives that help American businesses compete and win.
    The fiscal year 2013 President's budget invests in key areas to 
improve administrative functions throughout the Department. These 
investments include an increase of $0.4 million for cybersecurity; $3.9 
million to upgrade the financial management, acquisition, and other 
administrative systems within the Department; and $2.2 million to 
continue to automate our manual human resource processes. Making these 
investments is key to future savings.
    To fund these investments, the Commerce Department has moved 
aggressively in the past year to reduce our administrative costs. We 
will meet our goal of saving $143 million by the end of fiscal year 
2012, in areas such as acquisition, fleet operations, human resources, 
and information technology. This builds upon our fiscal year 2011 
savings of approximately $50 million in administrative costs. Part of 
those savings resulted from Commerce shutting down approximately 3,000 
unused cell phone lines and optimizing rate plans, for an annual 
savings of $1.8 million, and issuing a printing policy that calls for 
less and smarter printing, which will save approximately $4.2 million 
annually.
    Next year we will achieve substantial additional savings. The 
fiscal year 2013 President's budget calls on the Department to achieve 
a total of $176 million in administrative cost savings, which is 
already underway by placing additional focus on reducing travel costs, 
employee IT devices, printing, fleet operations, management contracts, 
and extraneous promotional items. In addition, the Department has 
proposed administrative savings in NOAA by merging a small number of 
programs and reducing its footprint of facilities so that funding can 
be targeted at the agency's highest priorities.
    The Department of Commerce also continues to support the 
President's BusinessUSA Initiative--a comprehensive customer service 
plan to better meet the needs of businesses. Furthering the Commerce 
Connect initiative launched in late 2010, BusinessUSA ensures that 
businesses looking for assistance from the Federal Government can 
quickly connect to the services and information relevant to them, 
regardless of which agency's Web site, call center, or office they go 
to for help. BusinessUSA would link American businesses and 
entrepreneurs with Commerce Department and other Federal, State, and 
local partner resources. These services are provided faster and more 
comprehensively through a one-stop shop, beginning with a web portal 
and enhanced call center coordination. This is a key step in a new way 
for the Federal Government to be an asset to America's businesses--
applying information and customer service standards, technology, call 
centers, and field offices in a manner that provides the most useful, 
accurate, and timely services and information to businesses.

                               CONCLUSION

    The President's fiscal year 2013 budget request reflects the 
crucial role that the entire Department of Commerce plays in 
accelerating job growth, strengthening the economic recovery, and 
supporting American businesses all across our country. At the same 
time, the President's request recognizes the challenging budget climate 
in which we find ourselves and includes many difficult choices that 
meet the need for responsible reductions.
    By combining crucial investments with fiscal responsibility, the 
budget sets forth a meaningful plan to stimulate private sector job 
creation and promote American competitiveness for years to come. With 
each of our 12 bureaus working together with a focus on helping 
companies sell their goods and services around the globe, supporting 
businesses and communities, and advancing the frontiers of innovation, 
I am confident in our ability to deliver on that commitment.

                         INTELLECTUAL PROPERTY

    Senator Mikulski. Mr. Secretary, we're going to go by the 
5-minute rule, and I will then, I know, at the end, probably 
have a couple of wrap-up questions related to management and 
cost overruns.
    The Commerce Department's job is to work with the 
President, the Congress, and the private sector to really 
create jobs. And it has been the tradition of the Secretary of 
Commerce to really be like the President's ambassador to our 
domestic business community. We have the ambassadors to 
countries, but here we're one of the most vital private sectors 
in the world. So, we know that's a big job. And one thing we 
are concerned about on this subcommittee is certainly creating 
jobs.
    This is now going to take me to the whole issue of the role 
of the Commerce Department in cyber, and also with our 
intellectual property. Everybody likes to talk today about 
American exceptionalism. It really is our intellectual ideas. 
So, one, the whole idea that we don't want a valley of death, 
where people do research--how do they get their ideas 
patented?--because that is the major tool for protecting their 
intellectual property. It puts the fence up and protects them.
    The second issue we hear in both this subcommittee and in 
the Intelligence Committee that Senator Feinstein chairs is 
about cyber espionage, where there are those nation states that 
are out there cruising, and even in the private sector, that 
are stealing our ideas. Why invent the cure for cancer? Why 
invent something new that will be Internet-driven, when you can 
just steal it?
    So, my question to you is: What is the role of the Commerce 
Department in protecting America's intellectual property and 
making sure we end the backlog and deal with the cyber 
espionage problem?
    Secretary Bryson. Thank you, Chairman Mikulski. The 
Commerce Department has a significant role, a very significant 
role in dealing with the very considerable threats and costs of 
not having complete and fully protected cybersecurity.
    Chairman Mikulski, I want to say how much our people at 
NIST have valued your support. You've followed this. You've 
addressed it for a long period of time. And you're coming 
recently to the recognition----

                       PATENT APPLICATION BACKLOG

    Senator Mikulski. I appreciate the nice words. Tell me what 
you're doing on the backlog problem.
    Secretary Bryson. The backlog problem----
    Senator Mikulski. The backlog problem at the USPTO.
    Secretary Bryson. Yes. What we're doing is, we've set a 
standard now. A lot of work is under way. We will reduce the 
backlogs by 2015 by one-half.
    Senator Mikulski. And how are you going to do that, and 
what resources do you need?
    Secretary Bryson. A series of steps, but the most important 
is in the budget before you now, and that is the funding that 
would allow us to bring immediately, in the 2013 timeframe, 
1,500 new patent examiners to carry that backlog down, and 
reduce that considerable backlog.
    Senator Mikulski. But, we've heard that before. How is this 
going to be different than in the past? Oh, let's bring in 
more, but then so what. I've now been with several secretaries 
of Commerce. With all due respect, Sir, they tell me the same 
thing. We're going to hire more people and hooah, hooah, and it 
just doesn't make a difference. Either you're not hiring, 
either you're not keeping, you don't----
    Secretary Bryson. Dave Kappos, in my judgment, as the 
Director of the USPTO, is doing an outstanding job, 
extraordinary leadership. The America Invents Act gives us an 
additional set of tools. But, the hiring of 1,500 additional 
patent examiners has never taken place before. That is a big 
addition. They will be highly, highly capable people. Already, 
people are lining up to have those jobs, and it's an attractive 
place to work.
    Senator Mikulski. Well, I think what the subcommittee would 
like is a detailed management plan including not only the 
hiring, but how are you going to train them, how are you going 
to recruit them, what happened to the fast-track idea?
    [The information follows:]

    Patent Examiner Recruitment, Hiring, Training, and Prioritized 
                          Examination Process

    The Department of Commerce wishes to supplement the response to the 
question by Chairperson Mikulski regarding actions taken to address 
United States Patent and Trademark Office (USPTO) patent examiner 
recruitment, hiring, and training as well as the prioritized 
examination process

           PATENT EXAMINER RECRUITMENT, HIRING, AND TRAINING

    USPTO has conducted a significant amount of planning associated 
with bringing a large new cadre of patent examiners on board and the 
execution of this effort is in full swing. USPTO has undertaken a 
diverse approach to inform the public about patent examiner job 
opportunities, successfully attracting thousands of qualified 
candidates through extensive recruitment efforts. Recruitment 
strategies are being expanded in areas such as career fairs; aggressive 
outreach to veterans and transitioning servicemembers through 
networking with other Federal agencies and veterans groups; targeted 
advertising and email blasts to universities, professional 
organizations and associations; nationwide advertisements and outreach 
efforts via social media; and, internal agency-wide communications.
    USPTO expects the majority of hiring for fiscal year 2012 to occur 
in the latter half of this fiscal year. In addition, the hiring 
processes for patent examiners have been streamlined to minimize the 
time between application, candidate selection, and orientation. 
Accordingly, USPTO is on track to meet its hiring goal of 1,500 
examiners for fiscal year 2012, and will be working aggressively to 
hire up to an additional 1,500 examiners for fiscal year 2013.
    While hiring efforts have been offset in some earlier years by high 
attrition, Director Kappos and his team have strengthened recruitment, 
hiring, training, and retention efforts. Patent examiners are now 
staying at the agency longer and are more productive in working down 
the patents backlog. Over the last 12 months, the USPTO patent examiner 
attrition level was just 3.3 percent compared to more than 8 percent 
during 2005 through 2007.
    Once on board, the USPTO training program emphasizes heavy up front 
knowledge and skills training as well as ongoing development to produce 
a highly effective workforce. Through the Patent Training Academy, 
comprehensive programs are in place for new examiners utilizing a well-
established, certified curriculum that includes legal training, systems 
and software training, and in-depth training on examination practice 
and procedure. Each new examiner also creates an Individual Development 
Plan to address training and development needs through the first 2 
years of employment.
    The Academy was designed to provide the agency the capacity and 
flexibility necessary to effectively train large numbers of new hires. 
For instance, entry-level examiners are typically hired into classes of 
approximately 128 employees. To ensure an individualized training 
approach, classes are further divided into labs comprised of up to 16 
examiners where they are paired with a trainer and a lab assistant.
    Careful consideration and review of qualifications is given for 
each new examiner brought on board. For new examiners without 
Intellectual Property experience, the USPTO employs a phased training 
program covering the first 12 months of employment that includes an 
initial 4 months at the Academy. Examiners hired with experience in 
intellectual property, spend an initial 20 days at the Academy, but 
also continue training over their first 12 months of employment that 
includes an overview of U.S. statutes, rules, procedures, and practices 
as well as refresher training to strengthen employee-identified areas 
for further development.

                    PRIORITIZED EXAMINATION PROCESS

    With respect to implementation of process for faster processing of 
patent applications, the USPTO implemented a Prioritized Examination 
process (i.e., ``Track One'') in September, 2011 consistent with new 
authority provided under the America Invents Act. For utility and plant 
applications which are accorded prioritized examination after an 
additional fee is paid, the operational goal of the USPTO is to provide 
final disposition within 12 months, on average. Track One provides 
applicants with greater control over when their applications are 
examined and promotes examination process efficiency. Since inception, 
USPTO has received more than 3,500 Track One applications; the average 
time from acceptance to first office action has been 43 days.

    Senator Mikulski. Could we also now talk about cyber 
espionage?
    Secretary Bryson. Yes.

                            CYBER ESPIONAGE

    Senator Mikulski. Is that a threat, and how are you dealing 
with it?
    Secretary Bryson. Cyber espionage is a very considerable 
threat. We're not fully prepared, as a country, to address 
that.
    With regard to the Commerce Department's role, that is 
NIST, the extraordinary and extraordinarily important work of 
Pat Gallagher and that team. So, the role there is setting the 
standards that will apply across not just the Federal 
Government, not just across the United States, but likely 
around the world, and that work is under way with an excellent 
team, and you know that team, you've supported that team. We 
thank you for that. We believe in it deeply.
    Senator Mikulski. So, NIST is creating the standards to do 
what?
    Secretary Bryson. The standards to set what would then be--
the standards are the standards that are a level of attainment 
we have to have for protections. And one of the important 
things with NIST, as you know, is that then reaches out to the 
private sector, and we work with the private sector to reach 
agreement----
    Senator Mikulski. The standards for technology? Standards 
for management? What----
    Secretary Bryson. Standards for technology is the driver 
here.
    Senator Mikulski. So, in other words, we would build in 
standards to the technology, where it would only be self-
enforcing and self-policing. Is that right?
    Secretary Bryson. Yes. And it would grow into performance 
standards, with the agreement of the private sector. So, that's 
the dynamic, as you know, at NIST that is taking place--for 
years.
    Senator Mikulski. Right.
    Secretary Bryson. And we would then have performance 
standards against which we and others around the world would 
have to operate.
    Senator Mikulski. Thank you. Senator Hutchison.

                        GAPS IN WEATHER COVERAGE

    Senator Hutchison. Well, thank you, Madam Chairman.
    There is a growing concern about the management of the NOAA 
satellites. I think everyone is concerned about this. And the 
fact that we're having to pour so much money into them and 
they're not working as well as they should also has hurt the 
funding of other programs in NOAA, such as the fisheries, ocean 
monitoring, research, and education. And I'm very concerned 
about the P-3 hurricane hunters that are also proposed to be 
eliminated. So, I want to ask a couple of questions.
    First of all, the gap in weather coverage that is proposed 
to occur around 2017 for 24 months, is that something that's 
being addressed? And what would that kind of gap mean in our 
weather coverage and capabilities?
    Secretary Bryson. Thank you, Senator. We are putting our 
highest priority in this budget in the satellites. So, the way 
to think about this budget is, we are putting all the resources 
we have to put in to be assured that we put up these 
satellites, the JPSS satellites, those on the Geostationary 
Operational Environmental Satellites (GOES). We have put an 
entirely new management team in place. We have reports at all 
levels of the Commerce Department, including to me, on 
performance against goals. On the 2017 target, there is a gap. 
Our focus is on minimizing that gap. We believe we can succeed 
in doing that.

                           SATELLITE PROGRAM

    Senator Hutchison. Mr. Secretary, with the White House's 
interest in consolidations, has there been any talk of the 
satellite program either being moved to the National 
Aeronautics and Space Administration (NASA) or some kind of 
collaboration required between Commerce and NASA, so that you 
have their capabilities to work on this issue?
    Secretary Bryson. There has not been. Senator, we are 
confident the team, the experience, the preparation done by 
NOAA and in the Commerce Department puts us in a position to 
succeed very well in putting these satellites in operation and 
minimizing the 2017 gap, and taking further the truly excellent 
GOES program that is in place today.
    Senator Hutchison. Would you be open to working with NASA 
and seeing if the expertise that they have would expedite that?
    Secretary Bryson. NASA is a good program. We are 
sufficiently confident that we are going ahead with what we 
have with an excellent team of people, broad experience. We 
know how to do this, and what we are not eager to do is 
interrupt the program and work we're on now by turning to NASA 
now.
    [The information follows:]

 National Oceanic and Atmospheric Administration/National Aeronautics 
                 and Space Administration Relationship

    The existing National Oceanic and Atmospheric Administration 
(NOAA)/National Aeronautics and Space Administration (NASA) partnership 
is successful, and has been successful for more than 40 years. Both 
NOAA and NASA have worked closely together and have collaborated by 
leveraging the strengths of each agency to develop NOAA's polar and 
geostationary satellite series. NASA's contribution resides in space 
systems acquisition and, in turn, NOAA's contributions are in ground 
system development, satellite operations, and the development of 
weather, climate, oceans, and coastal products and services to meet the 
needs of the operational communities it serves. This positive 
collaboration and nonduplication of effort was confirmed in October 
2009 by an in-depth Government Accountability Office (GAO) review of 
NASA's Earth science projects, which found no duplication of effort 
between these climate and weather research missions and other Federal 
agencies (GAO-10-87R).
    Today, under the U.S. civil space program construct, recently 
reinforced by the National Space Policy, NOAA and NASA have developed 
and implemented a successful partnership that has delivered technology 
advances in Earth observation capabilities, whereby NASA conducts 
leading-edge research in Earth system science, including new 
technologies to monitor the environment while NOAA responds to demands 
for easily accessible and timely data and information about Earth and 
space observations. These technology advances have been transitioned 
for use operationally to improve weather forecasting, severe storm/
hurricane prediction and climate observations.

    Senator Hutchison. I'll take that as a ``No.''

                           HURRICANE HUNTERS

    Let me ask you about the hurricane hunters. That has really 
been a very valuable tool in the gulf coast, well, actually, 
the Atlantic as well, where they've been able to fly in and get 
good intelligence on how ferocious the center is, and how wide 
it is, and all that.
    Why are you supporting the elimination of that program, the 
three hunters?
    Secretary Bryson. Senator, we do not support the 
elimination of that program. Well, let me take it a little 
further. In this budget, we are confident that the so-called 
hurricane hunters, the three of them, with the very important 
support that we provide them in maintenance will serve this 
year very, very well, the fiscal 2013 year.
    What we're doing also at the same time is looking, for the 
fiscal year 2014 budget, at a series of possible steps we might 
take, and that's in the works now, looking at conceivable 
alternatives to the P-3 planes we have. We believe we're in a 
good position to be well protected for this year, but 
technology improves and advances, and there are conceivable 
alternatives, and we'll bring to this subcommittee the 
judgments we reach with respect to that, and the possibility 
that we will bring forth in fiscal year 2014 an alternative 
program.
    Senator Hutchison. Meaning other airplanes?
    Secretary Bryson. Conceivably, yes.
    Senator Hutchison. Okay. Because my information says that 
you've really only got one that's operational right now. Is 
that not correct?
    Secretary Bryson. That's not correct. We have three. They 
have their periods of maintenance each year. They've worked 
very well in the past, as you suggested. We are confident they 
will work well through 2013.
    Senator Hutchison. Okay. I really hope that we can see when 
hurricane season comes that those three are operational, 
because there's a conflict of our information, and that's very 
important when we get into the really bad hurricanes.
    Thank you.
    Senator Mikulski. I want to join with the Senator here, 
because there is confusion, and we are deeply concerned, and we 
know, particularly our gulf Senators, but all of us rely on 
those hurricane hunters. You have three planes. Three Orion 
planes. All planes need to be refurbished by 2016 to make them 
fly. Is that correct?
    Secretary Bryson. That may be. I can't confirm that, but it 
sounds like a reasonable estimate.
    [The information follows:]
   Status of the Hurricane Surveillance Aircraft (Hurricane Hunters)
    National Oceanic and Atmospheric Administration (NOAA) typically 
schedules maintenance to ensure aircraft are available for hurricane 
season, but the Service Life Assessment Program by Lockheed Martin, 
completed in June 2011, recommended new short-term maintenance and 
inspections for NOAA's P-3s that required NOAA to induct one aircraft 
into Special Structural Inspection during the 2012 hurricane season in 
order to remain airworthy.
    This means that during fiscal year 2012, only 1 of the 2 P-3s (N42 
and N43) currently used for hurricane surveillance will be operational 
at any specific time during the year due to scheduled maintenance. If 
unscheduled maintenance is required, that may leave no available P-3s, 
which would impact hurricane research, but would not significantly 
impact the current operational hurricane forecasting capabilities of 
the National Hurricane Center.
    Doppler data from the P-3s support the National Weather Service/
National Centers for Environmental Prediction Environmental Modeling 
Center's (EMC) development of the Hurricane Weather Research and 
Forecast System (HWRF), the first operational model designed to make 
use of high-density inner core observations. Use of inner-core 
observations has the potential to improve the prediction of hurricane 
track and intensity forecasting. In order to utilize the airborne 
Doppler data for the HWRF model initialization, EMC requires sustained 
sampling of the hurricane core at 12-hour intervals over a period of at 
least 36 hours (three back-to-back-to-back missions, 12-hours apart) 
when tropical cyclones threaten the United States (e.g., Hurricane 
Irene's extended threat to the eastern seaboard).
    Due to the availability of only one P-3 to support collection of 
airborne Doppler radar data during the fiscal year 2012 hurricane 
season, a mitigation strategy has been developed that will use two 
flight crews for the single P-3. This will minimize the impact on the 
research plan for at least three back-to-back-to-back 12-hour missions. 
While this mitigation strategy will meet the EMC's requirement, the 
primary risk is if the single P-3 cannot fly, due to equipment failure 
or unscheduled maintenance or if one or more of the three back-to-back-
to-back 12-hour missions is cancelled there will be a loss of the data 
collected.

                        BACKGROUND ON NOAA P-3S

    NOAA hurricane hunter planes are used for both hurricane research 
and operational hurricane forecasting. Two of NOAA's P-3 planes are 
used primarily for hurricane research. The Gulfstream jet (G-IV) is 
used for operational hurricane forecasting. In addition, per the 
National Hurricane Operations Plan, the Air Force maintains 10 WC-130 
planes to support NOAA hurricane reconnaissance requirements, providing 
approximately 800 flight hours per year in this capacity.
    N42 completed Special Structural Inspection in May 2012 and is 
currently available for day-to-day operations.
    N43 will undergo Special Structural Inspection and Phased Depot 
Maintenance from May 2012 through February 2013, after which it will be 
available for day-to-day operations.
    N44, which has not previously been used for hurricane research or 
operational forecasting, has reached End of Service Life and is 
currently not operational.
    The G-IV (N49) is currently operational and will be inducted into a 
Service Life Extension, engine overhaul, in October 2012 for 
approximately 5 months.
    The NOAA fiscal year 2012 Aircraft Allocation Plan is available 
here: http://www.omao.noaa.gov/12_airservices_allocation.html
    In fiscal year 2013, two P-3s (N42, N43) and the G-IV (N49) will be 
operational during hurricane season. Office of Marine and Aviation 
Operations will be able to meet current hurricane research and 
reconnaissance requirements at the requested funding level.

    Senator Mikulski. But, you need to know this.
    Secretary Bryson. Well, the reason we're focused on 2014 is 
to be in a position where we're entirely ready to make 
replacements in advance of that 2016----
    Senator Mikulski. Well, let me keep going here. The cost to 
refurbish each plane is $20 million, because, essentially, it's 
not like new carburetors, or, you know, let's clean up the 
leather seats here. These are planes that have to fly into a 
hurricane. So, what they need is new wings. This is big, and it 
is serious.
    Now, as I understand it, NOAA did not tell the Congress 
that all of the planes need extensive work, and that a second 
P-13 plane is due for scheduled maintenance this spring, and 
that there's concern that you're just going to have one plane 
fit for duty to fly into a hurricane. And, you know, this 
subcommittee is obsessed with the safety of people we ask to go 
into harms way, and whether it's our astronauts in space or our 
pilots into a hurricane. So, do you understand Senator 
Hutchison's question?
    Secretary Bryson. I do. Yes.
    Senator Mikulski. So, Sir, we really ask you to go back to 
the drawing board and come back to the subcommittee. We need to 
know what planes, what sequencing, and what money. Am I 
correct? Is that the thrust of it? Is that the trepidation that 
you feel, Senator Hutchison?
    Senator Hutchison. The information that I have is what you 
have, that one is completely out of commission while it is 
getting new wings, and one hasn't had the annual maintenance, 
and it's not reliable, leaving just one that is. And if we've 
got two hurricanes going or in different places, this could be 
a very necessary function, and maybe I think what the chairman 
and I are saying is that it doesn't appear to be the priority 
in the Department of Commerce that we think it should be.
    Secretary Bryson. Thank you, Senator. Let me say that we do 
not and would not take lightly the safety of people with 
respect to these planes. We are highly confident that we will 
come back to you, absolutely. We're highly confident, for 
example, that these planes will work satisfactorily entirely 
through this upcoming hurricane season.
    Senator Mikulski. But that's not what we're worried about. 
What we're concerned about is what planes need to be fixed 
when. We need a sequencing plan. We need a money plan to match 
what needs to be done. We need to have the sequences, the 
timing, and we need to know what's available when.
    Secretary Bryson. And we will do just that. And we will 
bring to you our planning with respect to 2014.
    Senator Mikulski. Before the hurricane season.
    Secretary Bryson. For example, the C30 looks like a 
conceivable candidate, but we're doing this in a very, very 
disciplined way. But, if you would like us to have the people 
at NOAA that are working on this now come to see you, the 
sooner we can work this through, we can do that as well.
    Senator Mikulski. I'm going to turn now to Senator Pryor.
    Senator Pryor. Thank you, Madam Chair. And thank you, Mr. 
Secretary, for being here. I see that you have Jim Stowers 
there, looking over your right shoulder. He's helped me in many 
capacities over the years. Jim, it's good to see you.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Let me start with science parks and regional innovation 
centers. I know that the fiscal year 2013 budget requests money 
for that. Has the Economic Development Administration (EDA) 
made any science park planning grants, or provided any science 
park construction loan guarantees?
    Secretary Bryson. Yes. EDA has done that. We know that 
you've been a strong, strong supporter of science parks. We 
really believe in these science parks. EDA has made grants: for 
example, a $95,000 planning grant to the Missouri Innovation 
Park; funding for infrastructure improvements at the Sandia 
Science Park Laboratory, in Albuquerque, New Mexico. So, we're 
believers in these science parks, and EDA, I think, is a leader 
in going out around the country to do just what you underscore 
here, and more should be done.
    Senator Pryor. Yes. I appreciate that. And I do think that 
they're key to our economic future. But, I also noticed that 
the subsidy rate this year is higher than last year. In effect, 
it works like an interest rate. Do you have an explanation for 
that? I believe this year it's 18.06 percent. Last year, it was 
15.5 percent.
    Secretary Bryson. Here's what I understand, and that is 
that at the recommendation of the Office of Management and 
Budget, there is no pre-established subsidy rate for science 
park loan guarantees. So our preliminary analysis indicates a 
low volume of potential applications in this area, and this is 
because science parks are affiliated with research institutions 
that can access credit at income tax rates, and loan guarantees 
by the Federal Government are taxable. So, what the Federal 
Government can do, it's somewhat affected by alternatives for 
the science parks. We're eager to be supportive in any way we 
reasonably can. It's going to be a fixed subsidy rate.
    Senator Pryor. All right. I think the way the law works 
requires the science parks to put up 20 percent of the money, 
and it seems like that would be a pretty good safe investment. 
So, I would think the interest rate would be lower than that. 
But, we can talk about that in a different context.
    Senator Blunt and I have filed the Export Promotion Act of 
2012. I don't know if you're familiar with it, but I would 
encourage you to take a look at it, and hopefully help generate 
some support for it. What we're trying to do, quite frankly, is 
what the President wants us to do which is continue to focus on 
exports and help the U.S. economy. We think that our approach 
is fairly common sense, and it doesn't cost much money.
    Let me ask about something else that the President 
mentioned. In his State of the Union Address, he talked about 
community colleges, and connecting the training for jobs with 
available jobs and sales. We've had a lot of success with that 
in Arkansas, using our 2-year colleges mostly, and some 4-year 
institutions, but mostly our 2-year colleges, to connect very 
closely with economic development, and manufacturers, and other 
employers in various areas around the State. It's worked very, 
very well. It's a classic public-private partnership. And if 
you haven't already, I'd hope that you would look at that 
model.
    Senator Wicker and I, as a result, introduced the Win Jobs 
Act that follows that Arkansas model. I think it's consistent 
with what the White House is talking about in this area. Maybe 
a little different approach, but I think the goals are 
certainly the same. So, I'd hope you'll take a look at that.

                             SEQUESTRATION

    I'm almost out of time here, but I do have a question that 
you probably don't really want to focus on too much, but I 
think it's important that the subcommittee have an answer on 
this. Have you made any contingency plans for a possible 
sequestration? If sequestration does, in fact, happen, how will 
that impact your day-to-day operations, how would that impact 
your budget, and what plans are you making in the event this 
happens?
    Secretary Bryson. Senator, do I have time to respond to 
you?
    Senator Pryor. Yes.
    Secretary Bryson. So, I'll take the sequestration first, 
then, if we have time, something quickly on--let me simply say 
I'd like to learn more of your proposal, so maybe we'll put 
that aside. But, I'd like to follow-up on that.
    With regard to sequestration, the President has taken a 
view that I share strongly, and that is sequestration would 
simply be a very bad thing for our country. And the cost of 
having sequestration go forward, rather than having you, as 
Members of Congress, move to a sounder way of going forward, is 
what we stand on. We believe in that, and we have invested no 
time at the Commerce Department trying to think through what 
would we do in the event sequestration went forward.
    We think it's such a bad thing for the country to just have 
sequestration roll out that we believe that it's probable, and 
we would, of course, do anything we can, but this is so much in 
your hands, to have a better approach to dealing with our 
Nation's budget.
    Senator Pryor. Thank you.
    Senator Mikulski. Thinking that it's a bad idea doesn't 
give a plan for a contingency. We all think it's a bad idea. 
So, we've agreed on that. But, I think the point that Senator 
Pryor raises at all of the CJS hearings, and it's a very 
valuable question, is: Have you thought about a contingency 
plan, and what the impact that would be on the agency?
    Wasn't that your question? Do you have a contingency plan?
    Secretary Bryson. We do not have a contingency plan. We've 
looked very roughly at what the numbers look like, and they 
would be severe cuts.
    Senator Mikulski. And do you have an idea of what the 
impact would be because of sequester?
    Secretary Bryson. We would go to doing what we've done in 
this budget and try ruthlessly to keep the most important 
programs and to cut everything else we had to cut. It would be 
a very bad result. We do not have a full plan.
    Senator Mikulski. On behalf of Senator Pryor, and myself, 
and really Senator Hutchison, and all of us, we need to know 
the consequences. So, if we could have kind of a snapshot of 
what you think they would be, and what areas cuts would be most 
likely to occur, and the impact.
    Senator Cochran, as our ranking guru on the Appropriations 
Committee.
    Senator Cochran. Thank you, Madam Chairman.

                        GULF OF MEXICO FISHERIES

    Mr. Secretary, I'm interested in knowing your 
recommendations for funding research to try to determine what 
steps needs to be taken by the private sector or government 
agencies to help restore good health in the Gulf of Mexico, 
following the disastrous weather challenges that we faced in 
the last year or two.
    Secretary Bryson. Well, the important thing in protecting 
public safety is the work that NOAA does in identification of 
warning systems. So, we have warning systems. Across the board 
you will see that we have cut programs, other than satellite 
program, so what we've done is eliminated from the programs 
things that weren't essential to preserve, for example, in this 
case, the key warning systems that make everyone aware of, for 
example, tornadoes, and other tsunamis, the things that would 
really affect people intensely. So, we go forth with that, even 
under circumstances of tough times, tough choices. We are 
committed to doing our part to reduce taxpayer dollars to the 
extent we possibly can in all the programs of the Commerce 
Department.
    Senator Cochran. There's been a lot of public concern 
expressed about the effects on the Gulf of Mexico from the BP 
Oil spill that occurred in the Gulf of Mexico. To what extent 
has the Department reached any conclusions about what the 
threats are to the continued vitality to fisheries and to the 
general environment in the Gulf of Mexico as a result of that 
oil spill?
    Secretary Bryson. Yes. NOAA has been deeply engaged in 
that. I've been fairly meaningfully engaged in it myself , in 
part, because, I think to the credit of British Petroleum, they 
would like to achieve a resolution of the outstanding claims 
and litigations here, and that's where I've worked with them on 
it. And what we hope to do is have a resolution that will be in 
agreement, that will encompass the impacted States there, and 
put these resources to work in moving rapidly to the protection 
of the ecosystem of the gulf there.
    Senator Cochran. You hear a lot of things that are said in 
a negative way about earmarks. Are there any earmarks in this 
proposal from the administration that we need to know about?
    Secretary Bryson. No. No. This is a matter of----
    Senator Cochran. What about your salary? Isn't that an 
earmark?
    Secretary Bryson. I don't know if I've thought of my salary 
as an earmark.
    Senator Cochran. Why not?
    Secretary Bryson. But I will tell you the----
    Senator Cochran. What's the difference in your salary and 
grants to grantees who are conducting research on the effects 
of the oil spill and other concerns that our Nation has in the 
Gulf of Mexico? Should it not be subjected to the same kind of 
scrutiny and questioning as something that is submitted for 
consideration in the budget by a Member of Congress?
    Secretary Bryson. So, we still do make grants in the gulf 
now. We have to have tough choices when we do that, but we'll 
go forward with that. There's no question about that. But, I'm 
not sure I'm answering your question very well, Senator. Maybe 
if you put it to me again, because I may be missing something 
here.
    Senator Cochran. Well, thank you very much. We'll revisit 
that later. I'll let others ask questions and we will come back 
to that later in the hearing.
    Senator Hutchison. I think you're defending the 
appropriations process.
    Senator Mikulski. We kind of liked that line of 
questioning, actually.
    Senator Brown.

                   STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Madam Chair. Secretary, welcome. 
Thank you for your candor. Folks, on that last question, I 
don't know what the right answer was either, but I appreciate 
Senator Cochran phrasing it the way that he did.
    Senator Mikulski. It wasn't personal, Mr. Secretary.
    Senator Pryor. It certainly wasn't.
    Secretary Bryson. Thank you.
    Senator Brown. We only have one time for one question. I 
have one comment and question. I have to preside at 11 o'clock.

                           TRADE ENFORCEMENT

    I want to talk to you about manufacturing. For 12 years, 
from 1997 to 2009, we had a decline every year in my State and 
nationally in manufacturing jobs, and the number of 
manufacturing plants around the country. You know that we have, 
almost every month since more or less the middle of 2010, 
seen--earlier than that, actually--an increase in manufacturing 
jobs, not to the level we want to be at, not even close. 
Workers, especially in my State, have faced firsthand the 
problem with our trade laws that require enormous injury from 
unfairly traded foreign products before any response by our 
Government. And the slowness of that and the arduousness of the 
process has made fighting back on behalf of our manufacturers 
and their workers especially difficult.
    For example, a coated paper case was filed. Relief was 
originally rejected, because the injury was existent, but not 
deep enough. Three years later, the industry and union re-
filed. Because thousands of jobs were lost, because of unfair 
trade practices, relief was granted, but it really was too late 
to help this industry. And that's been sort of emblematic of 
what we've seen.
    The Department has brought authority to initiate trade 
enforcement cases. Last week, I helped lead an effort supported 
by more than 180 House and Senate Members, calling for a full 
examination of China's policies and practices in the auto parts 
sector that have flooded our Nation. At the time of permanent 
normal trade relations (PNTR), well, after PNTR, a decade ago, 
we had about a $1 billion bilateral trade deficit with China in 
auto parts. Today, it's grown 800 percent. It's around $10 
billion. I'm glad you are working on the Interagency Trade 
Enforcement Center (ITEC). That's especially important.
    My question is this. In face of the reluctance, sometimes, 
of industries to bring trade cases, the union less reluctant, 
the industry more reluctant, because of potential and very real 
Chinese retaliation, from retaliation from their government, 
when can we expect an answer on whether you will and how you 
will take up the auto parts question? What other key sectors, 
in addition to auto parts, do you think we should be moving on 
when it comes to trade enforcement? What do we do to make our 
trade laws more responsive to the numerous issues with China's 
export subsidies?
    Thank you, Madam Chairman.
    Secretary Bryson. So, first, with respect to the auto 
parts, the question we have with regard to the auto parts is--
the laws are such that we, the Commerce Department, can 
ourselves initiate a case. The problem with that is the success 
of those cases has been relatively minor, because we have to 
have the data from the industry that allows the case to be 
made. So, on the auto parts, to my knowledge, none of the 
companies have come forth, and you're suggesting----
    Senator Brown. If I can interrupt, and I apologize, Madam 
Chair. Correct. But that's why a strong encouraging statement 
from you, public or private, to them, that you're serious, 
would go a long way. And these companies, it's a little bit of 
a cat and mouse game. The companies don't step forward, they're 
afraid of retaliation. Their history with Commerce, especially 
in the Bush years, but even in the Obama years and the Clinton 
years, frankly, maybe equally--they've not been encouraged, and 
we need you to step up and let them know that yes, you want to 
work with them. And I don't know if that message is clear yet. 
Perhaps it is, and I don't know it.
    Secretary Bryson. I think it is pretty clear that what has 
been done at the Commerce Department is extraordinarily 
different than what has been done in the preceding periods of 
time. So, take last year alone, 2011, with respect to China we 
increased by 50 percent the number of initiations of 
investigations over the prior year. So, over the 3 years, we've 
moved substantially ahead of what had previously been done.
    What we've done in the last few days, as perhaps you've 
seen, is a series of additional steps. This is a very, very 
intense, very demanding undertaking, and we are focused, 
absolutely, on serving our Nation with enforcement of the trade 
laws.
    Now we have the complementary White House office called 
ITEC, with which we cooperated. In fact, our budget includes 
significant resources. The budget before you now, it will 
enable us, among other things, to detail a number of people to 
ITEC, and the advantage of ITEC is more effectively bringing 
the entire Federal Government behind these exercises. So, this 
is incredibly, acutely important, and we will do everything we 
can in that respect to move these enforcement cases forward and 
to conclusions.
    And finally, I'll just say I want to especially thank you 
and the Congress on the GPX (GPX International Tire Corporation 
v. United States) decision, because on that we had 24 key cases 
that we had acted to final conclusions on, with countervailing 
duties, and an enormous amount at stake, 33 of the States in 
the country affected, tens of thousands of workers affected, 
and the court took that away from us. You put it back in place 
forever. It makes a great deal of difference for us.
    Senator Brown. Thank you. And Madam Chair, I would add, 
hopefully, 20 seconds. The GPX case, I think, shows the 
Commerce Department, and the President, and the country that 
the Congress will move quickly and bipartisanally on 
enforcement of trade laws. We know that was the right way to 
go. There was little or no opposition here. We moved it 
quickly. The President signed it. We're grateful for that.
    Thank you.
    Senator Mikulski. Thank you.
    Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Madam Chair. Mr. Secretary, 
welcome. It's going to be no surprise to you this morning, I'm 
going to talk about fish. When we talked prior to your 
nomination, I told you that this was my priority within the 
Commerce Department, and I wanted to make it your priority.
    Secretary Bryson. Yes.

                           FISHERY MANAGEMENT

    Senator Murkowski. And I will tell you, I'm a little bit 
disappointed, as I've looked through your statement that you 
have provided the subcommittee here today, out of 12 pages, 
pretty much single-spaced, we've got one paragraph here on 
fish. So, I want to give you an opportunity to elaborate, if I 
may.
    The effort to develop new catch-share programs within NOAA 
is moving forward. There's been some, I think, substantial 
amount of funding that is dedicated to that, and I understand 
that part of what NOAA's attempting to do is to really do the 
outreach, engage in an educational effort. I think that that's 
important. Our experience in Alaska, where we've been living 
with it, and been successful with it, is that the outreach is 
important. We also recognize that it's important that all the 
fishery management decisions are well thought out, affected by 
the public process, and that the Regional Fisheries Management 
Councils are very critical to this education effort, to this 
outreach effort.
    So, I'm a little bit concerned about how you will be able, 
successfully, to do what you're hoping to do with the outreach 
efforts to develop a new catch-share program, when you are 
decreasing pretty dramatically, a 14-percent cut to the 
Regional Fishery Management Councils. So, I'd like you to 
address that aspect of the NOAA budget and the fisheries, and 
also to provide for me some understanding here. It is critical 
that we make sure that we've got adequate funding for our stock 
assessments. I know that the chairman is concerned about this 
as well. We need to have that science. We need to know that 
it's science that is guiding these management decisions for us. 
And we, again, have been doing, I think, a pretty good job up 
north in making sure that we're operating off science based in 
good solid data.
    The request within the budget does include an increase for 
overall stock assessment, where much of those funds, I 
understand, are going to be used to develop new fisheries 
assessments. And I know in your written statement you say that 
the expanded stock assessments will be targeted at high-
priority commercially and recreational viable fish stocks. I'm 
not entirely certain what that means.
    What I need to convey to you is the concern that I'm 
hearing from folks up north that the surveys and the stock 
assessments that have been under way in the Bering Sea or the 
Gulf of Alaska are going to be reduced or impacted negatively 
as you focus your efforts in other areas, where perhaps you 
have less adequate or less rigorous data. If we don't have 
stock assessments conducted frequently and with reliability, 
then what happens is the total allowable catch levels will 
necessarily need to be reduced, because you've got to adjust 
for increased uncertainty. That then costs millions in revenues 
to harvesters, processors, and communities that really rely on 
this.
    So, it's kind of a two-pronged question here. Focus a 
little bit on the Regional Fishery Management Council and the 
role in the education and outreach that you're trying to do 
with the catch-share programs. And can you give me some level 
of assurance that the current level of stock assessment surveys 
that is under way is not going to be downgraded or reduced 
under this proposed budget.
    Secretary Bryson. Yes. I can give you that assurance. We 
are very focused on the role the Regional Fishery Management 
Councils play. We have cut some costs there, but in ways that 
we do not believe undermine their work at all, and with respect 
to the concern that there might be a reallocation of dollars 
away, for example, from Alaska to other regions in the country, 
no, under the law we can't, and, of course, wouldn't do that. 
So, the proportional effect of having less money in the 
aggregate going into fishery management councils, it's just pro 
rata across the United States.
    The key emphasis beyond that is that we have, for example, 
in Alaska, a really excellent Fishery Management Council. We 
are continuing to provide the funding for the science on how to 
take this further. So, funding, and you've touched on this, for 
the national catch-share program, will support use of this key 
fishery management tool, definitely including in Alaska, and 
you've touched on the impacts on the reduced stock assessment 
surveys. I understand the importance of science in managing 
these things in Alaska and elsewhere, and across the United 
States we're investing increases of $4.3 million to increase 
stock assessments; $2.3 million for surveys and monitoring; and 
$2.9 million for observers.
    So, again, the fundamental situation that we have here is, 
these are tough times, we're making tough choices, we're 
seeking to protect the taxpayer dollar and use it to the 
greatest benefit, and so we're building on the science. We're 
cutting back, but we're going forward with what we think 
carries forth the work of a long period of time of getting to a 
stronger position dealing with the fisheries.
    Senator Murkowski. Well, I appreciate your statement and 
the reassurance that we're not going to see a downgrade in 
these very important stock assessments, and the survey, and the 
data collection. I think you can understand my concern.
    As I look at a budget where very difficult decisions had to 
be made, I appreciate that, but where you see new programs then 
coming forward with a national ocean policy--we were successful 
last budget cycle in making sure that funding did not move 
forward for the Coastal Marine Spatial Planning Initiative. Now 
is not the time to be putting new programs onto the books, when 
we're effectively shortchanging the very, very important 
efforts that must be made when it comes to understanding and 
managing our very important fisheries and the fish stocks. And 
I know that the chairman works with me on this to help make 
sure we're doing the right thing.
    Thank you.
    Secretary Bryson. Thank you, Senator.
    Senator Mikulski. We face the same issues, whether it's our 
rockfish population or crabs. We do need accurate assessments. 
And unless the regulatory environment kicks in, it always has 
an impact on your fishermen, my watermen. Nobody's very happy 
at the answers, but we have to know that we're on solid water.
    Thank you.
    This concludes the first round of questions. I'm going to 
ask Senator Cochran if he has any additional questions or would 
like to submit them for the record.

                        GULF OF MEXICO FISHERIES

    Senator Cochran. Madam Chairman, thank you. I would like to 
ask another question relating to the Gulf of Mexico.
    I think we need to identify, if we can, in cooperation with 
the Department, the research priorities that affect the Gulf of 
Mexico. The impression that I've gotten in reviewing this 
budget request is that it's a very low priority, in view of the 
Department, and that concerns me. It is a vital and important 
fisheries resource for not just the Gulf States, but for the 
United States, generally speaking. It is a very important area 
ecologically, just as important as any other body of water that 
is adjacent to or a part of the United States' primary interest 
for fisheries and related activities.
    In that connection, the research programs that we have 
funded in the past are designed to help keep up with challenges 
to the ecological integrity of the Gulf of Mexico. And it just 
seems to me that it's taken a backseat to a lot of other 
programs by the administration. That's a concern that I'm 
raising, and I hope that you will be able to take another look 
at some of the priorities of the Department, and see if there 
can be a more equitable balance between our interests in the 
gulf and elsewhere along our ocean borders.
    Secretary Bryson. Senator, we really are committed to 
distribution of our funding, our science, our capabilities 
across the entire coastal regions of the United States, and we 
do care deeply about the gulf.
    Senator Cochran. Well, we want to see you put your money 
where your mouth is. That's kind of the old way they'd say that 
at home.
    Secretary Bryson. And I understand that, and we will do 
that. And I would just--we are in this situation that we 
believe we're doing what is necessary, by reducing anything we 
can reduce that isn't absolutely essential in our core 
programs, and going forth with our key fisheries programs. So 
we support fisheries and we support fishermen, and that's a big 
priority for us. And that is very much in this program.
    It's the things that don't have those direct impacts that 
we've cut back some on, and that's not in the Gulf or anywhere 
else in a particular way. That's across the United States as a 
way to try to be the way businesses must be, and that is 
really, really effective, in the dollars that they have and 
prioritizing them.
    Senator Cochran. Thank you.
    Senator Mikulski. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Yes. I want to make a statement and then 
ask one question.
    Just to reinforce what my colleagues Senator Mikulski and 
Senator Cochran have just said: In NOAA's own National Marine 
Fisheries Service report, on its Web site, it says that there 
are 121 up-to-date stock assessments for the 528 stocks of fish 
or stock complexes under NOAA management. So 121 out of 528 is 
showing, I think, the concerns that we're raising.
    One of those that my constituents have been hoping for is 
the Red Drum. The Gulf of Mexico Fishery Management Council is 
struggling with so little data, because the Red Drum, for 
instance, hasn't had an assessment in 20 years, and remains 
closed as a result of outdated science, despite the fact that 
they believe the fishery may be rebounding.
    So, these are some of the additional facts that I would put 
on the table to show you why I think many of our fishermen and 
our industries throughout just don't have confidence in the 
science that's being done in NOAA on fishery data and 
information.
    So, I do think it's a priority that we need to address, 
because the commerce of our country can be enhanced if we can 
increase the export of marine life. So, that's my statement to 
add to theirs.

DEPARTMENT OF COMMERCE RESTRUCTURING: NATIONAL OCEANIC AND ATMOSPHERIC 
                             ADMINISTRATION

    My last question, though, is the one I mentioned in my 
opening statement about the President's plan, or looking at 
putting National Oceanic and Atmospheric Administration (NOAA) 
into the Department of the Interior, and I wanted your comments 
for the record before we finish this hearing.
    Secretary Bryson. Yes. I'd be happy to address that. So, 
the President's proposal for making a more efficient economic 
Department, creating a Department in a restructuring that would 
bring together all the entities in the Federal Government that 
are focused on economics, business, and data collection on how 
the economy works, all the things that are at the Commerce 
Department, and other places in the Federal Government, to me, 
that makes sense, but there has been no further work done on 
that, because in the President's eye and all of our eyes, the 
first question will be, is that a proposal that the Congress 
acts on. If the Congress were to act on that, then we'd go to 
work putting before you what we think the best way to manage 
these resources will be under that priority, and the President 
has thrown out the idea of NOAA transferring to the Department 
of the Interior. There's no further details on that, and 
there's no further work that's been done on it, but that is a 
possibility.
    But, the first question really will be, is the Congress 
ready to and will the Congress want to offer the President the 
opportunity to bring forth a plan that would, under this 
proposal, be an up or down vote in the Congress, as is true 
through the Depression, as you know, and all the way to 
President Reagan, but not since.
    Senator Hutchison. So, you're not saying you're against 
looking at it, if that makes sense for efficiencies.
    Secretary Bryson. Yes. I think that it--and again, I 
analogize almost everything. We're now speaking in the Commerce 
Department as an arm of the Federal Government that is seeking 
to operate at the speed of business, and we are trying to make 
decisions, and we're trying to preserve taxpayer dollars, and 
use them to the greatest result possible. And I regard that 
restructuring of the Department in this respect could enhance 
productivity. Yes.
    Senator Hutchison. Thank you.
    Senator Mikulski. We'll see what the authorizers do. It's a 
complicated topic.
    Secretary Bryson. It is.
    Senator Mikulski. You know, NOAA headquarters is in the 
State of Maryland, and some of its most significant assets are 
there--the NOAA satellite office, which does so much for the 
weather. And I invite colleagues to come with me to see this 
incredible operation. And then the NOAA weather office.
    We wonder where the NOAA agency will go, and will it stay 
in Commerce. Now, there's a whole rumor that it could become an 
independent agency, and people think, oh, gee, this will be 
swell. It's not going to be an independent agency. It's either 
going to stay here or it's going to go, through due diligence 
of the Congress working with the President's suggestion, or 
recommendation, to Interior, but it will not be an independent 
agency.
    Secretary Bryson. Yes. And if I could just make one 
comment.
    Senator Mikulski. Well, we don't want NOAA cut loose.
    Secretary Bryson. Yes.
    Senator Mikulski. We think NOAA really needs a lot of 
management, which is now going to go to my question.
    Secretary Bryson. Makes complete sense. Yes.

       NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION MANAGEMENT

    Senator Mikulski. Because, first of all, we know that the 
Commerce Department has--for the members of this subcommittee 
and the Congress, it is a major jobs agency.
    First of all, what you see here, we're coastal Senators, so 
we are NOAA focused, and within NOAA, it's everything from 
weather warnings, that you've heard, from Hawaii, to Alaska, to 
the Gulf, to the Bay, and the fisheries issues. So, many people 
come under the Commerce, Justice, Science, and Related Agencies 
Subcommittee, because of NOAA and the coastal significance.
    The coast is part of our heritage, part of our identity, 
but it's also a big part of our economy. What happens on a 
coast drives our economy. And for the great States that are 
surrounded by or so hard hit by water, like Alaska, it's 
important. So, we are looking at NOAA.
    What we're concerned about is the persistent problems at 
NOAA, and there are persistent management problems. Senator 
Hutchison raised the satellite issue and the other issues 
related to the weather department. She articulated, 
essentially, my questions, so I'm not going to duplicate them. 
But, we are concerned that satellites make up 37 percent of the 
overall NOAA budget. We are concerned that the satellite costs 
are starting to erode other activities at NOAA.
    Now, in the fiscal year 2012 bill, I directed NOAA to 
update the life-cycle cost for satellite programs. But, Mr. 
Secretary, you're a business man. You said you're operating at 
the speed of business. Well, we don't think that reform is 
operating at the speed of business. We need you, at the 
Secretary's level, to really use whoever you will designate to 
be a hands-on manager of these costs that are exploding at 
NOAA, because of the satellites. We need our satellites.
    This subcommittee went big time on-line to fund the JPSS. 
And we knew it was important. We were concerned about our 
colleagues in the most driven part of our Nation, that they 
need the JPSS for weather. It's part of our treaty obligation 
for weather. But, my God, when we're now at 37 percent, and 
every day we turn around, it's a new satellite cost, and gee, 
we hadn't thought of it.
    So, can I ask you, really, to make this one of your top 
management priorities? You are absolutely promoting our 
exports, working in international markets. We're glad you're 
going to India. It's a great democracy and a great sense of 
working together. But, we also need you to be looking at NOAA. 
So, what can I get from you to make sure that this doesn't 
continue, that NOAA doesn't seem to take this in the spirit 
that we do, and that then also goes to these airplanes that 
Senator Hutchison raised. I'm sure you are concerned about 
safety. We're concerned about safety and functionality as well. 
So, we need a hands-on sense of reform at the top management 
level at NOAA here in its satellites, in its planes, and its 
ships.
    Secretary Bryson. I commit to you that I will give it that 
priority. Yes.

                           CENSUS MANAGEMENT

    Senator Mikulski. Do I kind of represent the sentiments of 
the subcommittee here on this? So, know that we really respect 
the people who are working there at NOAA to be able to do this.
    This then also does go to the issues related at the Census 
Bureau. You know, the census happened, but barely. Now, I'm not 
faulting the people who work for the Census Bureau, but, again, 
I worked with Secretary Guttierez, then Secretary Locke, and 
now you, Sir, and once again, now, we're hearing, ``Oh. The 
census [cost] might double.'' Well, in the day of new 
technology, new ways of communicating with people, at the speed 
of business, we should be reducing costs on the census. And we 
need you, again, to assign a management person, because our 
problems with the census is everything comes in at the last 
minute, and if you don't fund it, we won't be able to do the 
census. It's 2012. We're working on the fiscal year 2013 
appropriations. We've got to really bring the Census Bureau 
into a discipline here.
    Secretary Bryson. Yes. Thank you, Senator. And I strongly 
commit to you that I will give that very high priority, and I 
do give it very high priority. And the key thing in this budget 
is they have the resources to do this work right now for 2013 
that will make it possible so that we can assuredly tell you 
that it will be lower cost per household and a complete census 
in 2020 than there has been in the 2010 census.
    Senator Mikulski. That's very good to hear, and we're 
really going to count on you.
    One of the areas where we know that there would be 
bipartisan consensus is we don't want a sequester either. Now, 
we might disagree on a line item or an agency here or there, 
but we know a sequester is not in the interest of the country 
over the long haul.
    The way that we're going be able to deal with that, and 
again, there's bipartisan consensuses, is how can we be more 
frugal now? And that means getting value for our dollar. So, 
where there are these persistent problems year after year, 
Secretary after Secretary, President after President, we need 
to really begin, we need to really now take a real steadfast 
attempt to bring these things that are always out of control, 
always coming over budget, under really a far greater fiscal 
discipline, so that we can approach this in a more frugal way, 
get value for our dollar. We need those satellites. We need our 
weather. We need our NOAA. We need our Census Bureau. But, we 
need them to take these issues very seriously, or we could end 
up into a situation where the Nation suffers and we suffer as 
well.
    So, let me conclude this hearing. Sorry, Senator. Did you 
have another question?
    Senator Murkowski. One very brief one, if I may.
    Senator Mikulski. Yes.
    Senator Murkowski. I will be very quick, but it is a very 
important issue.

                     ARCTIC OUTER CONTINENTAL SHELF

    Mr. Secretary, I don't know whether you were briefed by Dr. 
Lubchenco last week. I had an opportunity to meet with her 
about a Draft Environmental Impact Statement (DEIS) that has 
come out of her agency, and this relates to the Arctic Outer 
Continental Shelf (OCS). And as you probably know, there is a 
great deal of interagency coordination--you've got the National 
Ocean Policy, you've got Regional Ocean Partnerships, you've 
got David Hayes' interagency taskforce--and yet, National 
Marine Fisheries Service (NMFS) produced a DEIS this year that 
is in direct conflict with Department of the Interior's 
National Environmental Protection Act work. And this DEIS could 
significantly alter the framework of what is, hopefully, 
anticipated there in the Arctic, in terms of the numbers of 
operators that may be able to be in place, some of the 
geographic and time restraints. It is significant. And this was 
not the product of any interagency coordination.
    The team that produced it essentially said that it was done 
because the Department of the Interior didn't look the way that 
NMFS thought that it should look, even though it's Interior 
that has the authority over the OCS and the leases that have 
been sold with the expectation that their owners are going to 
be able to get some use out of them. So, I asked why this 
disconnect, and unfortunately, I did not receive an answer on 
that, certainly not a clear answer.
    But, this DEIS is simply too big a deal for your Department 
to not be able to answer some basic and pretty fundamental 
questions about its very existence. And until there's an 
understanding as to who is the lead here, and what the 
interagency process is supposed to be, I would ask you, Mr. 
Secretary, to pull that DEIS and go back to the drawing board. 
And if this is something that you can tell me that you have not 
been involved in, I would ask that you look into it and be 
engaged on that.
    Again, this could significantly impact the operation of 
this expansion that we are hoping to embark on this summer.
    Secretary Bryson. Senator, I have not been engaged in that. 
I will get back to you with respect to it. I will look into it 
promptly.
    [The information follows:]

 Draft Environmental Impact Statement on the Arctic--Outer Continental 
                                 Shelf

    The National Oceanic and Atmospheric Administration (NOAA) is 
responsible for implementing the provisions of the Marine Mammal 
Protection Act (MMPA). Under the MMPA, it is illegal to ``take'' \1\ a 
marine mammal without a permit or exception. One such exemption can be 
obtained by U.S. citizens conducting activities (other than commercial 
fishing) within a specified geographic region that may incidentally 
take marine mammals pursuant to section 101(a)(5) of the MMPA. Those 
exemptions are known as Incidental Take Authorizations.
---------------------------------------------------------------------------
    \1\ Under the MMPA, take means to harass, hunt, capture, or kill or 
to attempt to harass, hunt, capture or kill any marine mammal.
---------------------------------------------------------------------------
    The Department of the Interior (DOI) has jurisdiction over 
authorizing offshore oil and gas activities on the Outer Continental 
Shelf (OCS). If an oil and gas industry operator determines that their 
activity may ``take'' marine mammals, they need an MMPA Incidental Take 
Authorization from NOAA. Section 101(a)(5) of the MMPA directs the 
Secretary of Commerce (with authority delegated to NOAA National Marine 
Fisheries Service) to issue such authorizations if certain findings are 
made.
    Prior to issuance of an Incidental Take Authorization, NOAA must 
evaluate the potential impacts to the environment pursuant to the 
National Environmental Policy Act (NEPA). Although DOI has recently 
completed large-scale NEPA analyses regarding oil and gas activities on 
the Alaskan OCS, those documents did not fully address NOAA's action of 
issuing MMPA Incidental Take Authorizations for the take of marine 
mammals incidental to conducting oil and gas exploration activities in 
the Alaskan OCS. Therefore, in order to meet our statutory and 
regulatory requirements, NOAA determined it was appropriate to prepare 
an Environmental Impact Statement (EIS) evaluating issuance of MMPA 
Incidental Take Authorizations.
    NOAA has coordinated throughout this process with DOI's Bureau of 
Ocean Energy Management (BOEM). NOAA and BOEM signed a Memorandum of 
Understanding in February 2010 regarding the level of involvement and 
coordination that would occur throughout the development of the 
Environmental Impact Statement. The Federal Register Notice of Intent 
initiating this EIS process noted that BOEM would be a cooperating 
agency, as defined by NEPA. The two agencies have worked 
collaboratively throughout the development of the document, and BOEM 
staff prepared sections of the document where they had subject-matter 
expertise. The two agencies worked together to develop the numbers of 
anticipated activities that may reasonably occur over a 5-year period. 
The activity levels analyzed in the Draft EIS do not serve as a ``cap'' 
on industry activity. Rather, they were based on what the agencies 
predicted is reasonably likely to occur versus an outer bound of what 
one anticipates might occur.
    Since the March 22 hearing, Dr. Lubchenco has met with Deputy 
Secretary Hayes to discuss this EIS and the role of the Alaska 
Interagency Working Group in its development. Leadership from NOAA and 
BOEM met in early May to discuss the path forward, and BOEM agreed to 
re-evaluate the level of activity assessed in the EIS. The two agencies 
will continue to work collaboratively on this effort to ensure an 
accurate assessment of reasonably likely oil and gas exploration 
activity in the Alaskan OCS. Once finalized, this document will assist 
NOAA in making timely decisions regarding the issuance of MMPA 
Incidental Take Authorizations to the oil and gas industry in the U.S. 
Arctic Ocean.
    NOAA has also worked collaboratively with the Environmental 
Protection Agency regarding issues related to air and water quality and 
the potential impacts to those resources from the proposed actions of 
oil and gas exploration and the issuance of MMPA Incidental Take 
Authorizations when developing this EIS.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murkowski. Okay. I would appreciate a very prompt 
response and would look forward to that.
    Thank you, Madam Chairman, for the additional couple 
minutes.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted by Senator Barbara A. Mikulski

                             SEQUESTRATION

    Question. Under the Budget Control Act of 2011, funding for 
virtually all Federal programs will face a possible across-the-board 
cut in January 2013 if the Congress doesn't enact a plan before then to 
reduce the national debt by $1.2 trillion. According to Congressional 
Budget Office (CBO) estimates, this would result in a cut of 7.8 
percent to all nonsecurity programs.
    What impacts would an across-the-board cut of 7.8 percent have on 
the Commerce Department? What are the consequences, both in terms of 
dollars and people served? Can you give us specific examples? Is there 
anything else that the Commerce Department can cut beyond what is 
proposed in the fiscal year 2013 request? How would public safety be 
impacted by a cut to National Oceanic and Atmospheric Administration 
(NOAA), particularly the agency's ability to accurately forecast 
weather? Do you have a plan for the Commerce Department to implement 
these cuts if the Congress doesn't enact an alternative plan?
    Answer. The administration believes that a sequestration can and 
should be avoided. According to the CBO, the sequester could cut 
overall domestic spending by about 8 percent. The Department 
anticipates a negative impact on our mission to create the conditions 
for economic growth and opportunity by promoting innovation, 
entrepreneurship, competitiveness, and stewardship informed by world-
class scientific research and information. The Department would have to 
reduce its efforts to support regional innovation strategies that 
foster job creation. Fewer small- and medium-sized businesses, and 
minority enterprises would be assisted in their efforts to export 
products and services. Some investments in research and advanced 
manufacturing technologies would be eliminated. Research efforts to 
bring the 2020 Census in at a lower cost per household would be 
hindered. Also, the cut would curtail the Department's ability to 
address foreign trade barriers and ensure market access cases are 
resolved successfully.
    A cut of this magnitude would likely require furloughs or the 
elimination of positions and reduce NOAA's ability to fully meet its 
mission. This type of reduction would also diminish the Department's 
ability to make necessary information technology (IT) modernizations 
and improvements in our IT security posture to appropriately address 
the current cyber environment. The Department would have to eliminate 
some key statistical series and surveys that provide important 
information in the decisionmaking processes of businesses and Federal, 
State, and local governments. In addition, it would reduce funding to 
develop next-generation weather satellites which are critical to 
maintaining the Nation's weather forecasting capabilities.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

National Oceanic and Atmospheric Administration Satellites
    Question. Satellites acquisitions make up 37 percent of NOAA's 
budget in fiscal year 2013 and have started to erode funding for other 
operations at NOAA. That is why I directed NOAA in 2012 to provide 
updated life-cycle costs for all satellite programs.
    The fiscal year 2013 budget request for Joint Polar Satellite 
Systems (JPSS) is $916 million and includes an updated life-cycle cost 
for the program. The total cost increased by $1 billion from $11.9 
billion to $12.9 billion. NOAA is also cutting more weather sensors to 
keep costs down, going from 13 total sensors for both satellites to 
just 7. This new total cost estimate shows JPSS going in the wrong 
direction.
    Please explain the current gap in the weather coverage and how NOAA 
will keep it from growing?
    Answer. The methodology that NOAA has used to calculate the gap is 
based on a probabilistic methodology that is used for operational 
satellites. As such, the basis of the gap is focused on the ability to 
continue to provide data, without interruption, to support weather 
forecast models. It is difficult to say with absolute certainty when 
the projected gap may occur, and any estimates on the duration of the 
gap are based on probability analysis using assumptions about the 
lifespan of current satellites. Assuming that Suomi National Polar-
Orbiting Partnership (NPP) ceases to operate at the end of its 
projected life in 2016 and JPSS-1 becomes fully operational in 2018 
(after undergoing calibration and validation activities) following 
launch in the second quarter of fiscal year 2017, NOAA estimates that 
the potential data gap in the afternoon orbit could be up to 18 to 24 
months.
    In reality, Suomi NPP could last longer or shorter than what the 
current probability analysis suggests, which would impact the duration 
of the gap.
    Ultimately, NOAA's best chance to minimize any gap is to maintain 
the second quarter of fiscal year 2017 launch date of the JPSS-1 
satellite. Loss of data in the afternoon orbit will degrade NOAA's 
weather forecast skill at day 3 and beyond, providing the Nation less-
accurate information about significant weather events than would 
otherwise be available.
    Question. Funding for NOAA's core ocean and weather operations is 
suffering while procurement budgets balloon and satellite capabilities 
decrease. Why should NOAA remain the lead acquisition agency for these 
satellites?
    Answer. The administration is still developing a response to the 
Senate's proposal to move weather satellite acquisition from NOAA to 
National Aeronautics and Space Administration. As you know, this is a 
complicated issue which the Congress has been addressing for years. We 
are analyzing the possible impacts the organizational change could have 
on the satellite missions, as well as on satellite budgets and 
schedules.

               CUTS TO NATIONAL WEATHER SERVICE WORKFORCE

    NOAA's budget request reduces the National Weather Service's (NWS) 
IT staff by 80 percent, affecting 122 employees:
  --cuts 98 computer technician positions in local field offices; and
  --consolidates remaining 24 positions into six regional offices
    IT staff have proven to be valuable parts of the local weather 
forecast teams. Every local weather field office across America will be 
affected by these cuts.
    We experienced the most devastating weather on record in 2011. 2012 
is already shaping up to be just as bad. According to NWS, the recent 
February 28 to March 2 severe storm outbreak spawned 230 tornadoes 
across 14 States killing 54 people. Without NOAA's warnings, more lives 
would have been lost.
    Question. Dr. Lubchenco has stated that reducing computer tech 
staffing will not affect the quality of services, warnings, and 
forecasts. What does she mean by this?
    Answer. As a result of technological advances and efficiencies to 
remote communications, centralized Regional Information Technology 
Collaboration Units (RITCUs) would work in partnership with Weather 
Forecast Offices (WFOs) and the established Network Control Facility in 
Silver Spring to provide the same or an improved level of support as 
provided today to each WFO. WFOs would continue the same service 
delivery in the future as they do now, with no impact to mission or 
performance. RITCUs will be fully capable of addressing any software 
issue within their area of responsibility. The Advanced Weather 
Interactive Processing System (AWIPS) Network Control Facility (NCF) 
will continue as a secondary source of support capable of diagnosing 
and resolving most problems. Between the RITCU and AWIPS NCF, most 
problems will be resolved within an average of 5-10 minutes. In 
addition, robust, long-standing service backup capabilities allow an 
adjacent office to assume warning and forecast responsibility almost 
immediately. If the system goes down during severe weather and cannot 
be remedied remotely in short order, service backup would be 
implemented. To provide for continuity of operations in the field, 
long-standing and extensively tested service backup capabilities allow 
an adjacent WFO to assume the warning and forecast responsibility of a 
pre-determined, neighboring WFO almost immediately to ensure no service 
degradation to the public. Testing of backup plans is conducted at 
least annually in accordance with the NWS operations policy.
    Question. NOAA ramped up its weather computer workforce in 2000 to 
help with a new computer network. NOAA is currently updating that 
system and has requested $12 million in 2013 to prepare for more 
weather data from newer satellites. Why are these IT techs no longer 
valuable now?
    Answer. AWIPS is the backbone of forecast capabilities at WFOs. 
When AWIPS was first deployed, this technology was not well defined, 
nor was there technical expertise within local forecast offices to 
manage the additional IT requirements. To meet these challenges, the--
Information Technology Officer (ITO) position was created in 2001 to 
provide onsite configuration and upgrade support for AWIPS. Over the 
past decade, advances in NWS IT have allowed NWS to make significant 
technological advances and efficiencies into its remote support 
capabilities making these positions unnecessary. Currently, each WFO 
has one ITO, typically working day shifts on weekdays.

                                 CENSUS

2020 Census
    Question. Controlling costs for the 2020 Decennial Census remains a 
top oversight concern. Both the Commerce Inspector General and 
Government Accountability Office track the 2020 Census as a high-risk 
challenge for the Department.
    Cost overruns were a problem for the 2010 Decennial Census, 
totaling more than $12 billion. That is 20 percent more expensive than 
original estimate of $11 billion, and double the cost of 2000 Census of 
$6.5 billion. This subcommittee had to make tough choices each year to 
continue funding the 2010 Census.
    Last year, the projected cost of the 2020 Census ranged between $22 
billion and $30 billion--more than double the cost of the 2010 
Decennial Census. The fiscal year 2012 Commerce, Justice, Science, and 
Related Agencies bill included language calling for curbed costs.
    How is the Census Bureau changing the way the agency is planning 
for the 2020 Decennial Census--particularly with driving down 
``nonresponse followup'' costs which is the most expensive part of the 
Census process? How is the Census Bureau avoiding techno-boondoggles 
such as the 2010 Census hand-held computer debacle? Why do you 
anticipate the 2020 Census costing twice as much as the 2010 Census?
    Answer. The Census Bureau recognizes that the rising cost of the 
decennial census in recent decades cannot be sustained, and we must 
make changes to the design of the decennial census to increase 
efficiency and control costs while maintaining the quality of the data. 
Accordingly, we have embarked on a research and testing program focused 
on major innovations to the design of the census oriented around three 
major cost drivers of the 2010 Census:
  --substantial investments in major, national updating of the address 
        frame just prior to enumeration;
  --the lack of full public participation in the self-response phase of 
        the census, requiring the hiring of a large field staff for 
        nonresponse followup; and
  --the failure or challenges with linking major acquisitions, the 
        schedule, and the budget. Major innovations in three key areas 
        of the design of the 2020 Census can control costs relative to 
        the 2010 Census design.
    The first key area is conducting a Targeted Address Canvassing 
operation as a result of improving address coverage and map feature 
updates as part of the fiscal year 2011 Geographic Support System (GSS) 
Initiative. The possibilities for maintaining our address list and maps 
range from a full address canvassing operation (similar to what we did 
for the 2010 Census, where we walked almost every street in America to 
verify and capture information about every housing unit with the 
correct geography), to targeted address canvassing, to not having to do 
address canvassing at all. The 2020 Census research and test work in 
conjunction with the GSS Initiative will be critical to understanding 
the extent to which we can reduce the amount of address canvassing.
    The second key area is Multiple Mode Response Options, which allows 
for the public to respond to the census via multiple modes, such as 
mail, telephone, Internet, face-to-face interview, and other electronic 
response options that may emerge to ensure that diverse subgroups of 
the population, including those that speak languages other than 
English, have every opportunity to submit their information. This also 
includes redesigning the most expensive component of the census, the 
nonresponse followup operation, where we enumerate households that do 
not initially provide their information to us. The Census Bureau will 
explore using existing data sources like the American Community Survey 
and administrative records to obtain data about those households that 
do not otherwise respond to the census. Using administrative records 
for a substantial number of nonrespondents could result in 
substantially smaller field and labor infrastructure, thereby saving 
billions of dollars. We can also save money by modernizing the IT and 
field support infrastructure.
    The third key area is investment program management and systems 
engineering efforts early in the decade. Based on lessons learned, 
there were areas of program management that have potential for 
improvement. To achieve the goals of the 2020 Census, sufficient 
investments in planning and research are being made early. In addition, 
the program's budget, schedule, and scope are being integrated, and an 
iterative process is being put in place that will allow flexibility in 
planning and design. To the extent possible, we will make decisions 
based on the evidence from our research. The goal of this extensive up-
front effort is to hold down costs later in the decade without 
compromising quality.
    The bottom line is that the more we can innovate, the more we can 
contain costs without sacrificing the high-quality census that the 
country requires. The Census Bureau is tasked with producing the most 
accurate data possible in every census, including the 2020 Census. 
However, obtaining a complete and accurate census every 10 years 
becomes more complex and difficult with each successive cycle. For the 
2020 Census, a larger, more diverse population will be more difficult 
and expensive to count. While we can reduce costs per household 
considerably by utilizing advances in technology and innovations in the 
design of the decennial census as described in these documents, there 
is a point at which reducing costs could lead to a significant 
reduction in the quality of census data. The 2020 research and testing 
program will help us gain a better understanding of the extent to which 
we can contain costs without sacrificing coverage and data quality.

  NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION'S HURRICANE HUNTER 
                                 PLANES

    This year, NOAA's ability to fly into hurricanes for storm 
forecasts has been severely cut as one of the agency's three P-3 Orion 
planes used for hurricane reconnaissance will be grounded indefinitely:
  --NOAA has three P-3 Orion planes.
  --All planes need to be refurbished before 2016 to make them safe to 
        fly.
  --The cost to refurbish each plane is $20 million.
  --NOAA did not request funding to refurbish the grounded plane.
  --NOAA did not tell the Congress that all of the planes need 
        extensive work.
  --A second P-3 plane is due for scheduled maintenance this spring.
  --NOAA with just have one plane and no back-up.
    It is common for one plane to be grounded for maintenance, but to 
permanently lose a capability without any budget path forward is 
unacceptable.
    Question. Why is NOAA not requesting proper maintenance funds for 
NOAA's Hurricane Hunters and what is their plan forward?
    Answer. NOAA would like to clarify that the two P-3s (N42, N43) are 
hurricane reconnaissance and research platforms. One P-3 (N44) has 
reached its End of Service Life (EOSL) and will be grounded. However, 
this aircraft was not used for hurricane reconnaissance or research. In 
that regard, NOAA is not losing capability.
    NOAA's P-3 planes have adequate funding for routine maintenance. 
All standard maintenance for NOAA aircraft is included within the 
Aviation Operation's budget. One of the three planes, the N44, which 
has not previously been used for hurricane research or operational 
forecasting, has reached its EOSL due to existing conditions of the 
wings and NOAA will make no further investments in the aircraft. The 
Service Life Assessment Program (SLAPs) showed that the remaining P-3s, 
the N42 and N43, will reach EOSL in fiscal year 2020 and fiscal year 
2019 with Special Structural Inspections. Investment in new wing sets 
for the N42 and N43 is not covered under the standard maintenance 
program, and has not yet been decided, as this is related to NOAA's 
current effort to systematically look at all observing systems and 
NOAA's requirements.
    NOAA typically schedules maintenance to ensure aircraft are 
available for hurricane season, but the SLAP by Lockheed Martin, 
completed in June 2011, recommended new short-term maintenance and 
inspections for NOAA's P-3s that required NOAA to induct one aircraft 
into Special Structural Inspection during the 2012 hurricane season in 
order to remain airworthy.
    This means that during fiscal year 2012, only one of the two P-3s 
(N42, N43) currently used for hurricane reconnaissance and research 
will be operational at any specific time during the year due to 
scheduled maintenance. If unscheduled maintenance is required, that may 
leave no available P-3s, which would impact hurricane research, but 
would not significantly impact the current operational hurricane 
reconnaissance and forecasting capabilities of the National Hurricane 
Center.
    Question. NOAA partners with a U.S. Air Force reserve unit who also 
fly into hurricanes using more modern C-130 planes. NOAA's and USAF's 
important flight missions are different, but complementary. Has NOAA 
looked at procuring more modern planes like C-130 rather than re-
winging its older planes?
    Answer. NOAA's Observing System Council (NOSC) is systematically 
looking at all observing systems and NOAA's requirements. The NOSC is 
chaired by the Assistant Secretary for Environmental Observations and 
Predictions, with the Assistant Administrator of NWS and National 
Environmental Satellite, Data, and Information Service (NESDIS) as the 
vice-chairs. Each Line Office is represented by a Senior Executive. 
Under the NOSC, an observing system committee will propose the optimum 
observing systems configuration necessary to meet NOAA's missions. NOAA 
has also begun to evaluate individual systems against these observing 
requirements and determine the effective observing suite across NOAA's 
diverse missions. NOAA is now comparing the results of this initial 
effort with other information we have gathered on observing system 
priorities to come up with a robust, interactive, responsive decision 
support tool for observing system integrated portfolio management.

               UNITED STATES PATENT AND TRADEMARK OFFICE

Protecting Intellectual Property
    Question. The backlog of unreviewed patents has decreased 7 percent 
since last year, but more than 657,000 patents are still waiting 
approval. The average waiting time to for a patent has decreased too, 
but it still takes more than 30 months for United States Patent and 
Trademark Office (USPTO) to make a decision. USPTO's goal is 18 months 
by 2016.
    USPTO's budget is based on the amount of fees collected each year.
    USPTO's fiscal year 2013 estimated fees will be $3 billion, $273 
million more revenue than fiscal year 2012.
    I understand that USPTO plans to use this increased revenue to 
tackle the backlog by hiring 1,500 new examiners and opening three new 
satellite offices.
    But USPTO will also spend $521 million on its IT portfolio, 
including:
  --Creating an end-to-end electronic patent process where applications 
        are submitted, handled, and processed all electronically; and
  --Adding ``cloud'' computing to create a virtual patent system.
    Question. How will USPTO's new IT infrastructure decrease the 
backlog so that more American ideas are patent-protected quicker?
    Answer. The new IT infrastructure will improve the network, data 
center, and communication tools both for the patent applicant and 
patent examiners. This improved infrastructure will increase 
reliability, speed, and accuracy in communication and automation 
solutions, which will in turn increase efficiency and quality. The end-
to-end electronic patent processing will be text-based, which will 
allow for computer automation and increased quality. The system will 
analyze data from documents received or prepared, and validate that 
information against rules or existing data. Cloud implementation of the 
data center will allow the USPTO to scale and meet seasonal demands on 
the systems in a cost-effective manner. This will increase our capacity 
to meet patent applicant and patent examiner expectations of a highly 
available system.
    Question. USPTO is a repository of American ingenuity. What is 
USPTO doing to protect America's intellectual property? How confident 
are you in USPTO's cybersecurity plan, especially will cloud computing 
coming online?
    Answer. USPTO is in compliance with the e-Government Act of 2002, 
which included the Federal Information Security Management Act. 
Currently, all USPTO IT systems that are in production have been 
authorized to operate in accordance with all Federal and NIST 
guidelines (i.e., FIPS 199, FIPS 200, NIST 800-37, Rev 1, NIST 800-53, 
Rev 3, and NIST 800-53a, Rev 1). As part of the continuous monitoring 
process, all USPTO information systems are assessed and reviewed each 
year to ensure that security controls implemented in each are:
  --working as intended;
  --have been implemented correctly; and
  --are producing the desired outcome with respect to meeting the 
        confidentiality, integrity, and availability requirements for 
        the information system in its operational environment.
    Changes to information systems are monitored closely and assessed 
for their security impact to ensure that proposed changes do not 
adversely affect the security posture of the information system.
    The CIO Command Center (C3)-combined with both the Network 
Operations Center and the Security Operations Center-continuously 
monitors all USPTO systems. Compliance and vulnerability scans, 
including penetration tests, are performed to ensure that IT devices 
have been configured in accordance with secure baselines, and that 
systems patching is current. After the scans are analyzed, plans of 
action and milestones are created to manage any findings. USPTO 
conducts quarterly scans and maintenance scans on server and network 
infrastructure devices. Security scanning tools are utilized to scan 
databases and web URLs. Real time monitoring tools are put in place to 
monitor and collect security events and application logs of systems.
    USPTO has improved the security of its webmail by enhancing access 
requirements to a two-factor authentication to minimize the risk of 
identity theft. These factors are:
  --Something the user knows (e.g., password);
  --Something the user has (e.g., a security token); and
  --By providing this enhanced level of security, user authentication 
        will positively identify customers before they interact with 
        mission-critical data and applications.
    USPTO generally supports the use of commercially available cloud 
technology when appropriate. For instance, the USPTO leveraged a 
commercial cloud to host a copy of the publicly available trademark 
data and documents (http://tsdr.uspto.gov/). However, since commercial 
cloud providers cannot ensure security standards comparable to those 
maintained at USPTO, certain USPTO data, such as pre-publication patent 
applications, would present an unacceptable risk of compromise if 
hosted in a public cloud. In addition, USPTO must remain the 
authoritative source of agency data to ensure the accuracy and 
integrity of that data. Only the USPTO can provide those assurances at 
this time.
    USPTO supports the leveraging of cloud technologies and is 
implementing in-house cloud-based solutions to take advantage of the 
capabilities while ensuring the security of our data. USPTO has started 
implementing its Next Generation applications (Fee Processing Next 
Generation, Trademark Next Generation) using web services instead of 
traditional three-tier web technologies in an effort to make its core 
applications cloud ready. Additionally, USPTO physical infrastructure 
is currently being refreshed and replaced with devices with virtual 
technologies to ensure that these applications can be moved into a 
cloud environment when they are ready to be deployed. Before 
applications can move to cloud, they must undergo resiliency testing to 
ensure that they can fully utilize the benefits of cloud computing 
(i.e., throughput, reliability, and elasticity).
    To help make the USPTO more efficient and meet daily challenges in 
this area, the USPTO has aligned its organization into a streamlined 
cybersecurity division by combining security operations, C3, and 
security audit and compliance groups under one umbrella office.
    Question. As the patent review backlog decreases, the amount of 
patent appeal cases will likely grow. How does USPTO anticipate dealing 
with this potentially new backlog?
    Answer. The Board of Patent Appeals and Interferences (BPAI) 
backlog of ex parte appeals currently stands at greater than 26,000 
appeals and continues to grow. In order to address the backlog, while 
at the same time addressing new proceedings that come to the Board 
under the America Invents Act, the Board is working to hire 100 new 
Administrative Patent Judges (APJ) in fiscal year 2012, and is planning 
to hire another 61 APJs using fiscal year 2013 resources. The USPTO 
will continue to monitor BPAI's workload to determine if additional 
hiring is necessary in the out-years.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

Government Reorganization
    Question. Why do you wish to move National Oceanic and Atmospheric 
Administration (NOAA) to the Department of the Interior? What specific 
programmatic gain would be accomplished? What does the administration 
view as the risks associated with such a move?
    Answer. The Department of the Interior and NOAA manage most of the 
Federal Government's natural resources; a consolidation would 
strengthen the Federal Government's stewardship and conservation 
efforts. Merging the two would improve coordination of complementary 
programs for the conservation of natural resources, strengthen 
ecosystem-based management and science, enhance services to coastal 
communities, improve utilization of assets and facilities, and 
eliminate unnecessary administrative costs. NOAA would continue to 
provide critical weather, climate, marine, and coastal services to the 
Federal Government, States, businesses, and coastal communities within 
the Department of the Interior. There could be risks associated with 
the consolidation, for example, if programs are not well-integrated 
(leading to fewer efficiencies than expected) or there is uncertainty 
on the part of staff and other stakeholders who are not accustomed to 
the new organizational arrangement. However, because we view an 
effective transition as essential to the success of the reorganization, 
we would work hard to minimize these risks with careful transition 
planning, communications, and management. Exactly how they would be 
integrated will be the subject of considerable consultations with the 
Congress, agency staff and other stakeholders to ensure that the result 
is a stronger, more effective department that protects and enhances 
NOAA's core functions.
    Question. Why has the possibility of NOAA as an independent agency 
not been considered?
    Answer. The possibility of NOAA as an independent agency was one of 
the options that received serious consideration in the reorganization 
effort. However, the review concluded that merging NOAA with the 
Department of the Interior would be a better option as it would create 
the possibility for more synergies and efficiencies, thereby enhancing 
conservation and stewardship programs.
    Question. Does the administration believe that a NOAA organic act 
would be beneficial? If so why has there been no administration 
proposal in this regard?
    Answer. A NOAA organic act would provide a foundation of 
authorities to conduct the activities needed to meet the agency's 
missions. There are dozens of single laws authorizing NOAA's 
activities, but no central authority defines the mission and general 
functions of the agency. Having this authority in a single primary 
statute would codify NOAA's programs and activities in a consolidated 
manner which could be useful.

                   TSUNAMI HAZARD MITIGATION PROGRAM

    Question. Can you provide a specific description of the capacity 
that will be lost due to the cuts proposed to NOAA's Tsunami Hazard 
Mitigation Program (NTHMP)?
    Answer. NOAA places its ability to warn and advise the American 
public on the threat of tsunamis as its highest priority within the 
NTHMP. Tsunami Warning Centers' operations in Hawaii and Alaska are not 
compromised or degraded with the proposed reductions.
    The proposed reductions will eliminate grants to the NTHMP. The 
NTHMP is a consortium of State partners that use NOAA tsunami program 
funding to support local community education and mitigation activities. 
These activities include inundation mapping to develop evacuation 
plans, routes, and signage; education and awareness campaigns; 
provision of education materials; and training for the public and local 
officials.
    Despite the reduction in grants funding, NOAA would continue to 
support the NTHMP by:
  --setting standards of accuracy for NTHMP-developed inundation 
        models;
  --promoting community outreach and education networks to ensure 
        community tsunami readiness through funding from the 
        TsunamiReady<SUP>TM</SUP> program;
  --promoting the adoption of tsunami warning and mitigation measures 
        by Federal, State, tribal and local governments, and 
        nongovernment entities;
  --conducting tsunami research; and
  --operating the U.S. Tsunami Forecasting and Warning Program.
    Question. I understand that the proposed cuts are to be taken 
mostly from activities designed to support education and community 
capacity building. How does NOAA propose to replace these efforts, and 
if not, why is this considered to be a low-priority activity?
    Answer. NOAA places its ability to warn and advise the American 
public on the threat of tsunamis as its highest priority within the 
NTHMP. Tsunami Warning Center operations in Hawaii and Alaska are not 
compromised or degraded with the proposed reductions.
    Education and outreach activities continue to be a priority for 
NOAA. NOAA is committed to continuing support and funding for the 
TsunamiReady<SUP>TM</SUP> program. The TsunamiReady<SUP>TM</SUP> 
program promotes tsunami hazard preparedness as an active collaboration 
among Federal, State, and local emergency management agencies, the 
public, and the NOAA tsunami warning system. Warning Coordination 
Meteorologists in each NOAA National Weather Service (NWS) coastal 
office are dedicated to working closely with local emergency management 
to develop capabilities and assist in planning infrastructure that will 
allow communities to become TsunamiReady<SUP>TM</SUP>. NWS will 
prioritize efforts to concentrate on those coastal communities at 
highest-risk for destructive or life-threatening tsunamis.

                         MARINE DEBRIS PROGRAM

    Question. I understand that the Congress has previously provided a 
directive to NOAA regarding the consolidation of its various habitat 
programs but I do not believe that we ever considered NOAA's Marine 
Debris Program (MDP) to fall under this category. Can you explain why 
you have chosen to move it and include it with restoration programs 
when its primary mission is hazard response?
    Answer. NOAA is proposing to move the MDP to the NOAA Restoration 
Center to streamline grants programs. Since 2007, approximately $1 
million of the MDP's annual budget has been administered by the NOAA 
Restoration Center through the Community-based Restoration Marine 
Debris Removal Grants. The NOAA Restoration Center implements on-the-
ground habitat restoration projects for many different programs within 
NOAA.
    The Marine Debris Research, Prevention and Reduction Act of 2006 
established the NOAA MDP to focus on mapping, identification, impact 
assessment, prevention, and removal efforts, with a focus on marine 
debris posing a threat to living marine resources and navigation 
safety. Since the establishment of the program, NOAA has funded 
research as well as removal activities that threaten living marine 
resources or are in response to hazards.
    It is not expected that the consolidation of the MDP into NOAA 
fisheries would change the core functions, mission, or results of the 
program, as stated in the mandate referenced above. The program would 
still advance the act's goals, and NOAA would capitalize on this shared 
priority to create efficiencies through the streamlining of grants 
operations resulting in improved services for our stakeholders and 
greater impact on the ground.
    Question. Can you provide me with a comparison of the efficiencies 
provided by the MDP's current location in the Office of Response and 
Restoration as to those that might be gained with its proposed move to 
the Office of Habitat Management and Restoration?
    Answer. Since 2007, approximately $1 million of the MDP's annual 
budget has been administered by the NOAA Restoration Center through the 
Community-based Restoration Marine Debris Removal Grants. NOAA 
anticipates savings by streamlining grants administration and technical 
services provided with the goal of maximizing extramural funding 
provided. With this proposed move, the MDP will still be able to 
leverage the scientific expertise and capacity of the Office of 
Response and Restoration from within the Office of Habitat Management 
and Restoration, while achieving administrative cost savings as 
described above.
    Question. How does NOAA plan to spend the additional $1 million 
which the Congress appropriated to the MDP in fiscal year 2012? Will 
the funds be available for grants to State and local entities?
    Answer. In the fiscal year 2012 congressionally approved spend 
plan, the NOAA MDP was funded at $4,618,000, an increase of $718,000 
more than fiscal year 2011. NOAA is undertaking the following actions 
using these additional funds, as well as a portion of its base funds:
      Debris Survey and Removal at Midway Island.--The NOAA MDP 
        provided funding for survey and removal teams of NOAA's 
        National Marine Fisheries Service (NMFS) Coral Reef Ecosystem 
        Division to conduct marine debris surveys and debris removal at 
        Midway Island. There have been no confirmed reports of debris 
        from the 2011 tsunami arriving at Midway to date, but initial 
        ocean modeling indicated that the Northwestern Hawaiian 
        Islands, particularly at Midway Island and Kure Atoll, were one 
        of the first United States locations where a significant amount 
        of marine debris from the Japan tsunami may have made landfall. 
        Even though debris linked directly to the tsunami was not 
        detected at Midway, the effort removed 26 tons of accumulated 
        debris in this ecologically important and fragile area. Debris 
        removal, whether from the tsunami or other sources, reduces 
        risk of entanglement, ingestion, and other impacts to 
        endangered and other species of concern.
      Drifter Buoys.--NOAA is working with partners transiting the 
        North Pacific to deploy drifter buoys either in concentrations 
        of marine debris or other strategic areas of interest to help 
        NOAA better understand how the debris is moving.
      At-Sea Detection.--NOAA is conducting field trials and surveys 
        using unmanned aircraft systems (UAS) to help detect Japan 
        tsunami marine debris at-sea in open North Pacific waters in 
        areas of potential marine debris concentrations that have been 
        identified through modeling. Data from the UAS surveys will 
        improve marine debris modeling efforts and will be part of a 
        larger NOAA UAS program.
      Shoreline Monitoring in Alaska, California, Hawaii, Oregon, and 
        Washington.--NOAA, working with State and local partners from 
        government agencies, nongovernmental organizations, and 
        academia are acquiring baseline shoreline debris information at 
        more than 101 sites in the five affected States. Most of the 
        marine debris generated by the Japan tsunami is 
        indistinguishable from the normal marine debris that washes 
        ashore every day in Hawaii, Alaska, and on the west coast. 
        Results of the monitoring will help indicate when and where 
        Japan tsunami marine debris is making landfall. NOAA will also 
        use part of the additional funds to enter information on 
        tsunami debris into an online database that will both store the 
        data and disseminate them to response agencies at all levels of 
        government and to the public.
      Alaska Monitoring.--Prior to the March 2011 Japan tsunami, NOAA's 
        NMFS established shoreline monitoring sites within the Gulf of 
        Alaska to collect data on marine debris that poses entanglement 
        risks. These data have been providing a baseline to help detect 
        the landfall of Japan tsunami marine debris in Alaska. The 
        additional funds extend the existing time-series of monitoring 
        data and help gather vital information from more than 60 sites 
        in the Gulf of Alaska using the existing methodology and spot 
        application of NOAA MDP shoreline monitoring protocols.
      Contingency Planning.--Contingency planning to ensure there are 
        rapid response protocols in place requires significant 
        coordination at local, State, and Federal levels. NOAA has been 
        conducting workshops on the Japan tsunami marine debris issue 
        with partner agencies and organizations to provide a common 
        foundation of understanding about the debris and to facilitate 
        development of response contingency plans. Plans developed will 
        be particularly valuable for response to any large or hazardous 
        items that might make landfall on U.S. coastlines. The 
        workshops facilitated further engagement of State and local 
        resource management and response agencies, as well as 
        nongovernmental organizations concerned about marine debris 
        issues.
      Japan Tsunami Marine Debris Data Visualization.--NOAA's MDP 
        expects a significant increase of tsunami marine debris 
        sighting data to be reported and collected over the next 
        several months as a result of increased monitoring efforts. 
        This project makes these data available to our response agency 
        partners and the public through maps, graphics, and other 
        visualizations of debris in the water and on shorelines. NOAA 
        is cataloguing all debris sightings on NOAA's Environmental 
        Response Management Application (ERMA) and is sharing ERMA-
        derived products with the public and response agency partners. 
        ERMA was a successful vehicle for making data available to the 
        public during the Deepwater Horizon oil spill response.
    In July 2012, NOAA initiated action, using its authorities under 
the Marine Debris Research, Prevention, and Reduction Act, to provide 
$50,000 to each of the five Pacific States to aid in their marine 
debris removal activities. NOAA expects to award the funds in mid-
August.

                            HABITAT PROGRAMS

    Question. Can you explain what the funding in the new ``Habitat 
Management and Restoration'' line will go toward?
    Answer. Funding in the new Habitat Management and Restoration line 
will support:
      Sustainable Habitat Management.--Habitat management and 
        protection activities for sustaining and enhancing commercial 
        and recreational fisheries to:
      -- Conduct consultations with Federal agencies and constituents 
            nationwide to protect essential fish habitat in order to 
            support commercial and recreational fisheries and vibrant 
            coastal communities.
      -- Ensure fish passage at federally licensed hydroelectric dams 
            that block access to valuable spawning habitat.
      -- Advance research on the role of different habitats in 
            supporting sustainable fisheries and recovering listed 
            species, with benefits to the communities and economies 
            that depend on them.
      -- Implement the Deep Sea Coral Research and Technology Program 
            to identify and map locations of deep sea coral, analyze 
            new scientific information, and apply that knowledge in 
            fishery management plans.
      Fisheries Habitat Restoration.--Habitat restoration activities 
        to:
      -- Plan and construct habitat restoration projects for restoring 
            coastal and marine resources injured by oil spills, 
            releases of hazardous substances, or vessel groundings.
      -- Implement and support targeted restoration projects for 
            sustaining managed fisheries and recovering listed species 
            through technical expertise (planning, engineering, design, 
            monitoring, etc.) with limited financial resources for 
            project construction.
      -- Implement the Marine Debris and Estuary Restoration Programs, 
            including activities to research, prevent, and reduce the 
            impacts of marine debris.
    Question. Given that habitat restoration creates jobs and supports 
fisheries, why have you proposed to severely cut the Community-based 
Restoration Program in fiscal year 2013?
    Answer. Within the fiscal year 2013 President's budget, NOAA has 
prioritized the support of restoration activities for the Natural 
Resource Damage Assessment process, as mandated by the Oil Pollution 
Act and the Comprehensive Environmental Response, Compensation and 
Liability Act, over grants. Restoration activities compensate the 
public for lost trust resources that result from oil and other 
hazardous waste spills. Under these statutes, NOAA is responsible for 
addressing injury to natural resources, and acts on behalf of the 
public to protect and restore coastal and marine resources and their 
services. Jobs are also supported with this type of restoration work. 
This effort will take place in addition to consultative work and 
efforts to work with communities.
    Question. Why was the Coastal and Estuarine Land Conservation 
Program (CELCP) eliminated?
    Answer. Funding for the CELCP was eliminated due to the fact that 
the base level of funding severely limits the size and number of 
conservation projects that could be approved and the existence of other 
Federal agencies with existing land conservation programs.

                       NAVIGATION RESPONSE TEAMS

    Question. How will the proposed elimination of NOAA's Navigation 
Response Teams (NRT) affect NOAA's ability to fulfill its legal 
nautical charting mandate and respond to man-made and natural 
disasters?
    Answer. NOAA will pursue an agreement with Federal Emergency 
Management Agency to ensure that technical assistance to assess 
navigational hazards is available during Presidentially declared 
disasters. In 2011, the six NRTs spent a total of 25 days responding to 
emergencies. However, NRTs also currently work to identify local survey 
requirements, and as these efforts benefit the ports and surrounding 
communities, they can be conducted using non-Federal funding. Finally, 
NOAA would need to perform inshore validation of its nautical charting 
products and other navigation tools through contracted surveys and user 
feedback.
    Question. How will the absence of these NRTs extend response times 
and increase economic losses of the closed ports?
    Answer. Because the response to this question requires a comparison 
of unknowns to an existing program, NOAA cannot speak to whether this 
proposal would lead to extended response times and increased economic 
losses of closed ports.

                         NOAA SHIP KA'IMIMOANA

    The fiscal year 2012 President's budget included a request for 
$11.6 million for major repair periods (MRPs) for the NOAA ships 
Ka'imimoana and Miller Freeman. Recognizing the valuable nature of the 
missions served by these two vessels, the Congress acceded to this 
request and provided $11.1 million in the fiscal year 2012 
appropriation for these purposes under the Fleet Capital Improvements 
budget line. Subsequently, however, the Department of Commerce cut all 
but $1 million of these funds in the fiscal year 2012 NOAA spend plan 
to provide savings for undistributed cuts made elsewhere in the budget. 
NOAA has since indicated that the lack of available MRP funds in fiscal 
year 2012 will require that both the Ka'imimoana and the Miller Freeman 
be decommissioned for safety's sake.
    Question. Why did the Department decide that the Ka'imimoana refit, 
and thus the Ka'imimoana itself, was not needed?
    Answer. In the fiscal year 2012 President's budget, NOAA requested 
a one-time $11.6 million increase to support the highest-priority 
repairs aboard the NOAA ships Ka'imimoana and Miller Freeman. The final 
negotiated fiscal year 2012 Spend Plan resulted in $1 million for fleet 
repairs, due to competing mission needs within the total appropriation. 
As a result, the Miller Freeman will be decommissioned. On June 18, the 
NOAA Fleet Council met and voted to place the NOAA ship Ka'imimoana in 
warm layup status at the conclusion of the current field season (which 
just ended), as the vessel can no longer operate without required 
extensive repairs to ensure safe operations and extend the service life 
of the vessel. The MRP funding for fiscal year 2012 was not included in 
the final, approved spend plan, and instead of decommissioning the 
vessel at this time, the Council's directive to place it in warm layup 
status will allow us to maintain the vessel until the MRP funds may be 
allocated, or other actions taken.
    Question. Was there a change in the physical status of the 
Ka'imimoana between the time of the President's fiscal year 2012 budget 
submission to the Congress and the submission of the fiscal year 2012 
spend plan that led to the elimination of the MRP?
    Answer. No, there was not a change in the physical status of 
Ka'imimoana during that time. The Ka'imimoana will continue to operate 
during fiscal year 2012 as outline in the Fleet Allocation Plan. The 
ship would not have entered the MRP until early fiscal year 2013 as 
outlined in the President's fiscal year 2012 budget submission.
    Question. The Ka'imimoana's primary mission is to service the 
Tropical Atmosphere Ocean (TAO) buoy array which provides the Nation 
invaluable information regarding the status of the El Nino Southern 
Oscillation and its potential for impacts on our weather. How does NOAA 
plan to conduct fulfill the service needs of the TAO Array without the 
Ka'imimoana?
    Answer. The NOAA Fleet Council is examining the best means to 
ensure continuity of the TAO Array and will develop a fiscal year 2013 
Fleet Allocation Plan by September 2012 that meets TAO mission 
requirements. Currently, 12 of the 67 TAO/TRITON buoys are maintained 
by Japan and NOAA is evaluating the feasibility of conducting the 
Ka'imimoana mission supporting the TAO project with either in house 
support (potentially the NOAA ship Ronald H. Brown), the use of outside 
charter in collaborations with our partners in South Korea, or a 
combination of both.
    Question. If contract services are proposed, were necessary funds 
requested in the fiscal year 2013 budget? Please provide a detailed 
explanation of the short- and long-term budget effects, and any change 
in operational capacity, which may accrue from using contract services 
as opposed to a NOAA vessel as part of your answer.
    Answer. Yes, the fiscal year 2013 Operations, Research, and 
Facilities budget includes funding to support TAO continuity 
operations, through either NOAA vessel or charter. The Fleet Council is 
examining the best means to ensure continuity of the TAO Array and will 
develop a fiscal year 2013 Fleet Allocation Plan that meets TAO mission 
requirements. Long-term budget effects will be determined by the Fleet 
Plan and NOAA Observing System Council (NOSC) observing systems review. 
NOAA is currently identifying and prioritizing existing requirements 
and observing systems capabilities for the Fleet for a Fleet Plan that 
will determine the optimum configurations for meeting priority mission 
requirements and utilization of all observing platforms.
    Question. If savings were needed in fiscal year 2012 but no net 
long-term benefit would accrue from decommissioning the Ka'imimoana, 
why not defer its MRP to fiscal year 2013 and move the proposed MRP for 
the Thomas Jefferson to fiscal year 2014?
    Answer. NOAA will place the Ka'imimoana in an inactive status 
beginning in July 2012 due to concerns over the material condition of 
critical mission and ship board systems including deck machinery, 
tanks, and piping. Deferring the MRP to fiscal year 2013 would have 
required NOAA to idle the ship for more than 12 months until early 
fiscal year 2014 during which time further deterioration would occur 
increasing medium-term risks.
    Question. What other missions were served by the Ka'imimoana and 
how will their needs be met?
    Answer. The Ka'imimoana's primary mission is support of TAO. Other 
ocean observation and research missions are completed concurrently. 
Like TAO mission support, these requirements would need to be 
chartered.

                   INTERNATIONAL TRADE ADMINISTRATION

Task Force on Travel and Competitiveness
    Question. On January 19, 2012, President Obama issued Executive 
Order 13597, which is meant to, ``. . . to improve visa and foreign 
visitor processing and travel promotion in order to create jobs and 
spur economic growth in the United States.'' Among other things, the 
Executive order calls for the establishment of the Task Force on Travel 
and Competitiveness, co-chaired by the Secretaries of Commerce and the 
Interior, and including heads of the Departments of State, the 
Treasury, Agriculture, Labor, Transportation, and Homeland Security; 
Army Corps of Engineers; Office of the United States Trade 
Representative; Export-Import Bank; and other agencies invited to 
participate by the Task Force Co-Chairs. The Task Force is supposed to 
work on developing a National Travel and Tourism Strategy with 
recommendations for new policies and initiatives to promote domestic 
and international travel opportunities throughout the United States 
with the goal of increasing the United States market share of worldwide 
travel.
    Question. Can you please give an update on what the Task Force has 
done, and is working on?
    Answer. The Task Force on Travel and Competitiveness has been 
actively working to implement the Executive order. To date, the Task 
Force has met with the Tourism Policy Council to discuss the 
development of the National Travel and Tourism Strategy called for in 
the Executive order. Subsequent to that discussion, the Task Force has 
met three times to hone the Strategy in light of inputs from numerous 
Federal agencies and substantial public comments received from the 
travel and tourism industry and other stakeholders in response to a 
Federal Register notice. In addition, the Secretary of Commerce 
requested, and received, input from the U.S. Travel and Tourism 
Advisory Board that has also been considered in the development of the 
Strategy. The Task Force is on schedule to deliver its recommendations 
to the President within the 90-day timeframe called for in the 
Executive order.
    In March 2010, the Congress passed, and President Obama signed into 
law, the Travel Promotion Act (Public Law 111-145), creating a 
nonprofit corporation, Brand USA, to market the United States as an 
international travel destination.
    Question. In March 2010, the Congress passed, and President Obama 
signed into law, the Travel Promotion Act (Public Law 111-145), 
creating a nonprofit corporation, BrandUSA, to market the United States 
as an international travel destination. Does the Task Force work with 
BrandUSA, if so, how? Also, how do you ensure that the efforts of the 
Task Force and BrandUSA are not duplicative?
    Answer. Under the Executive order, the Task Force shall coordinate 
with the Corporation for Travel Promotion (dba Brand USA) through the 
Secretary of Commerce. The Department of Commerce works closely with 
Brand USA and has taken Brand USA's plans into account in the 
development of the National Travel and Tourism Strategy. In addition, 
representatives of Brand USA met with Secretary Bryson and Secretary 
Salazar, the Chairs of the Task Force on Travel and Competitiveness.
    The Task Force on Travel and Competitiveness and Brand USA perform 
separate functions that are not duplicative. The Task Force was formed 
for the sole purpose of developing a National Travel and Tourism 
Strategy. The strategy is focused on what the government can and should 
do to increase travel and tourism to and within the United States. 
Brand USA is a private sector organization charged with marketing the 
United States as a travel destination to international audiences. These 
efforts are complementary and avoid duplication. It is the intention of 
the Task Force that the National Travel and Tourism Strategy provide 
for the effective coordination of Federal agencies with Brand USA to 
support Brand USA's mission to increase international travel to the 
United States and communicate relevant U.S. policy.

                  REGIONAL FISHERY MANAGEMENT COUNCILS

    Question. How will the proposed cuts to funding for Regional 
Fishery Management Councils (RFMCs) and Commissions affect these 
organizations?
    Answer. NOAA greatly values the work of the RFMCs and Commissions. 
These bodies--which include commercial and recreational industry, 
Federal agencies, the conservation community, and State fishery 
managers--are critical for making sound fishery management decisions. 
Between fiscal year 2008 and fiscal year 2010, the Councils received a 
significant increase to ensure Annual Catch Limits were implemented in 
accordance with the 2006 reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act. Now that Annual Catch Limits 
have been implemented, NMFS does not expect that the Councils will 
require the same amount of resources.
    NOAA's focus for fiscal year 2013 is maintaining and improving our 
science programs as the basis for sound, science-based management 
actions taken by these bodies. The Councils and Commissions will 
distribute funds to ensure the implementation of adaptive management 
measures in the highest-priority fisheries, building on the 2011 
milestone of implementing Annual Catch Limits in federally managed 
fisheries.
    A reduction in funding for the Councils in fiscal year 2013 will 
not reduce the transparency of the fishery management process nor limit 
public involvement. Further, Council activity will still be open to the 
public. While there may be changes in the frequency of the meetings 
held, there will be no change to the transparency of Council decisions.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
               United States Patent and Trademark Office

    Question. The United States Patent and Trademark Office (USPTO) has 
made great progress in the last few years to reduce the backlog of 
patent applications and issue higher-quality patents. While USPTO is 
working through this backlog, it is also in the process of implementing 
the Leahy-Smith America Invents Act, Public Law 112-29, which was 
signed by President Obama on September 16, 2011. USPTO needs full 
access to the fees it collects to continue its progress and reward 
inventors of true inventions with high-quality patents.
    Do you agree that ensuring the USPTO has full access to its fees is 
essential to the effective functioning of the USPTO?
    Answer. Yes, full access to fees is critical to help the USPTO 
achieve strategic goals and performance objectives, and to manage 
resources effectively. USPTO is committed to effective resource and 
performance planning linked carefully to operations. Planning and 
operations can be undermined significantly without full access to the 
revenue the USPTO collects.
    Question. How does an effective functioning USPTO, and patent and 
trademark system in general, benefit the United States economy?
    Answer. Innovation continues to be a principal driver of economic 
growth and job creation in the United States, and a strong patent and 
trademark system helps deliver that innovation to the marketplace. 
USPTO plays a critical role in serving America's innovators, and 
granting the patents and registering the trademarks they need to secure 
investment capital, build companies, and bring new products and 
services to the marketplace. Adequate funding allows the USPTO to 
ensure that innovators are getting high-quality examination in a timely 
manner. Economic evidence shows that patent applications that take too 
long to be examined and patents that are issued with overly broad 
claims, introduce unnecessary uncertainty into the marketplace. USPTO's 
patent grants and registration of trademarks directly contribute to 
strengthening our economy, create jobs, and help move us toward the 
President's goal of winning the future by out-innovating our 
competitors.
    Question. Will the proposed appropriations language for the USPTO 
ensure that USPTO can access its fees through the Patent and Trademark 
Fee Reserve Fund if the USPTO collects more than what the budget 
currently anticipates?
    Answer. Existing and proposed appropriations language is beneficial 
in enabling USPTO to access all fees through the Patent and Trademark 
Reserve Fund. USPTO would be required to submit a spend plan the Senate 
and House appropriation committees prior to accessing resources from 
the Fund.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

Salmon Biological Opinion
    Question. The Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA) issued a biological opinion on the 
salmon in 2009 which required the State of California to restrict water 
flows in California's Sacramento River Delta in order to protect the 
salmon. Since then, the biological opinion has been criticized by the 
National Academy of Sciences, and U.S. District Court Judge Wanger 
issued a ruling that the National Marine Fisheries Service (NMFS) had 
not provided adequate justifications to support the biological opinion.
    Protecting endangered and threatened species is important, but so 
too are the farms and the communities in California's Central Valley 
that depend upon reliable water deliveries to produce the billions of 
dollars of crops that feed the Nation. It is my understanding that the 
revised biological opinion will not be completed until February 2016. 
The uncertainty this creates for agricultural and urban communities 
south of the Delta is a real concern.
    It has been 6 months since Judge Wanger issued his decision on the 
biological opinion. What has NOAA done since then to meet the Court's 
mandates?
    Answer. After Judge Wanger issued his decision on NOAA's 2009 
biological opinion, NMFS worked with the U.S. Bureau of Reclamation 
(BOR), the California Department of Water Resources, public water 
agencies, and nongovernmental organizations to develop a timeline 
toward the completion of a new biological opinion. All involved parties 
agreed that NMFS will deliver the final biological opinion by February 
2016, and the schedule was submitted and accepted by the Court. The 
Court rendered its final decision on the schedule in December 2011, 
agreeing with the submitted timeline, giving NOAA until October 2014 to 
complete a draft opinion and until February 2016 to complete a final 
opinion.
    NMFS has made the completion of the biological opinion project a 
high priority and has already begun analyzing the remand issues and 
integrating new science into the new biological opinion. We are 
gathering and analyzing new data and information that has become 
available since the issuance of the 2009 biological opinion. We have 
coordinated with BOR, U.S. Fish and Wildlife Service, California 
Department of Water Resources, California Department of Fish and Game, 
and University of California at Davis on data collection.
    Question. Can you explain why it will take NOAA 4 years to complete 
a new biological opinion and what is entailed in the process?
    Answer. This is one of the most complex and challenging Endangered 
Species Act consultations that NMFS has ever conducted. The geographic 
scope is very broad, the number of species affected is large, and the 
planning horizon is long (21 years). The judge recognized this 
complexity and ordered the new biological opinion to be completed by 
early 2016, with a draft issued by October 2014. NMFS has begun work on 
the new opinion and continues to await completion of the salmon life-
cycle analyses and will analyze 4 years of new data on salmon and the 
operating system to incorporate into the new biological opinion.
    The various tasks that must be completed by 2016 include effects 
analysis, integration and synthesis of effects, development of new or 
revised reasonable and prudent alternative actions, four-factor 
analysis, the NOAA Fisheries Southwest Fisheries Science Center's 
(SWFSC) life-cycle model, development of an incidental take statement, 
issuance of a draft biological opinion and reasonable and prudent 
alternative, external and peer review, incorporation of review 
comments, and issuance of final biological opinion by February 2016.
    Question. What, if anything, can be done to reduce the amount of 
time it will take to complete the new biological opinions?
    Answer. NMFS is working diligently to complete the new biological 
opinion. We continue to adapt the existing opinion in the interim, 
where possible by looking for ways to maximize both water reliability 
and species protections. For example, in January 2012, the Department 
of Justice filed with the court a stipulated agreement among NOAA, the 
Department of the Interior (DOI), the State of California, and several 
water contractors for spring 2012 water operations to enable increased 
water supply reliability, while upholding species protections. 
Furthermore, there are numerous tasks that must be completed by other 
agencies for NMFS to complete the biological opinion.
    Question. What new scientific research does NOAA intend to conduct 
or rely upon to develop the new biological opinion and does the 
President's budget fully fund these efforts?
    Answer. A salmon life-cycle model will be a central scientific 
component underlying the new biological opinion. This relies on 
completing new acoustic tag studies in the Sacramento and San Joaquin 
Rivers. NMFS intends to apply the model to evaluate how water 
operations or proposed reasonable and prudent alternatives might affect 
listed species and/or water supply under various scenarios. NMFS 
continues to use and incorporate the best available science in the 
development of the biological opinion.
    Central Valley salmon continue to be a high priority in the fiscal 
year 2013 budget request. To complete all the necessary work on this 
complex endeavor, we need to leverage both internal and external 
expertise and resources. We are currently in discussions with BOR about 
potential avenues for funding aspects of the life-cycle model. NMFS has 
already begun work on this key component of the new opinion.
    I understand that NOAA has recently begun implementing an adaptive 
management strategy that sets pumping permissions and restrictions 
based off of real-time data on salmon movements at the confluence of 
the San Joaquin and Old Rivers correlated with Old & Middle River 
flows.
    Question. In terms of water deliveries to south of Delta farmers, 
what benefits do you anticipate this strategy may provide?
    Answer. In January 2012, NMFS worked with the State of California, 
several water contractors, and DOI to develop a joint stipulation for 
spring 2012 water operations in the Central Valley, available at http:/
/swr.nmfs.noaa.gov/ocap/2012_stipulation.htm. The agreement allowed us 
to refine some of the more controversial aspects of the biological 
opinion for spring 2012 that we believe will benefit both recovering 
salmon and water users, and enable us to keep working on the new 
opinion. The agreement will provide greater flexibility and 
predictability to management of Central Valley water operations by 
enabling us to exercise real-time management where possible, thereby 
potentially having less of an impact to water supply.
    Question. Does the fiscal year 2013 budget request allow you to 
continue funding this project and other adaptive management strategies 
elsewhere on the system?
    Answer. Central Valley salmon continue to be a high priority in the 
fiscal year 2013 budget request. To complete all the necessary work on 
this complex endeavor, we need to leverage both internal and external 
expertise and resources. We are currently in discussions with BOR about 
potential avenues for funding aspects of the life-cycle model. NMFS has 
already begun work on this key component of the new opinion.
    While we will continue to operate within limited resources, we will 
prioritize implementation of this agreement. We will continue to 
explore new science that would enable greater reliability with respect 
to water supply, while ensuring the risk of extinction does not 
increase, and the potential for recovery is not impeded.
    Question. While the new biological opinion is being developed, are 
there any other additional projects or administrative steps NOAA 
believes could be taken that could provide salmon and water supply 
benefits?
    Answer. NOAA's opinion includes an annual adaptive management 
mechanism devoted to exploring new science and analyzing lessons 
learned from the previous year's implementation of the opinion. We are 
always exploring new data and alternative strategies to increase water 
supply reliability while ensuring the risk of extinction does not 
increase and the potential for recovery is not impeded.
    pacific salmon protected species research and management funding
    Question. It is my understanding that one project that is critical 
to developing a new salmon biological opinion is a new life-cycle 
modeling research program. This research is expected to take 3 years to 
complete at an annual cost of $2 million which would need to be funded 
by NOAA's Pacific Salmon Endangered Species Act account. However, the 
President's budget for this account is essentially the same as last 
year (approximately $58 million, with a $300,000 decrease).
    Does the President's budget proposal provide sufficient funding for 
NOAA's proposed salmon life-cycle modeling project and any other 
research necessary to complete the new biological opinion?
    Answer. Central Valley salmon continue to be a high priority in the 
fiscal year 2013 budget request. To complete all the necessary work on 
this complex endeavor, we need to leverage both internal and external 
expertise and resources. NOAA has already begun work on this key 
component of the new opinion.
    NMFS is working on a pilot life-cycle model leveraging our Pacific 
Salmon funding with a grant from BOR. We continue to work with them to 
identify the required funds in the BOR budget for full implementation.
    The pilot life-cycle model work has made clear that additional 
field studies would be useful. NMFS, in collaboration with the 
University of California at Davis, has done some pilot work on this 
issue, and has obtained extramural support for additional studies over 
the next 3 years. Additional areas of research for the longer term 
include telemetry studies that can quantify patterns of salmon movement 
and survival in relation to operation of the water project facilities, 
studies of predators (their distribution, abundance, and activity) and 
the movement and survival of very young salmon that are too small to 
tag with existing technology.
    NOAA has prepared a research plan that would fully address the 
questions surrounding management of water and salmon in the Central 
Valley.

                  PACIFIC COASTAL SALMON RECOVERY FUND

    Question. Funding for the Pacific Coastal Salmon Recovery Fund 
continues to decline. In fiscal year 2011 it was funded at $80 million. 
In fiscal year 2012 it received $65 million. The President's budget 
request for fiscal year 2013 is $50 million.
    Given that salmon populations along the Pacific coast are still 
recovering from the 2006-2008 fisheries collapse, do you think that 
continued decreases in funding for the Salmon Recovery Fund is 
justified?
    Answer. The long-term stability of the Pacific Coastal Salmon 
Recovery Fund since fiscal year 2000 has been a huge asset to NOAA's 
State and tribal salmon recovery efforts. The average annual 
appropriation level since the program's inception has been 
approximately $78 million. While the fiscal year 2012 funding level and 
the fiscal year 2013 President's budget do represent a relative 
decline, the Pacific Coastal Salmon Recovery Fund will continue to be 
an indispensable resource in support of salmon recovery and sustainable 
fisheries. The declining funding levels reflect the current fiscal 
climate rather than program performance. In response to declining 
funding levels, NOAA is increasing the program's focus on those 
projects identified in Endangered Species Act (ESA) recovery plans that 
are most likely to provide the greatest biological benefit to the 
species and their habitat.
    Question. Is there any concrete data you can offer in terms of 
recovery of the salmon fishing industry along the Pacific coast that 
can give us assurance that the Salmon Recovery Fund is working as 
intended to help restore the health of that industry?
    Answer. The abundance of Sacramento and Klamath Rivers Chinook 
salmon stocks has increased dramatically in 2012, providing much 
improved harvest opportunities over recent years. These stock 
improvements and the resulting benefits to the Pacific coast fishing 
industry are most likely attributable to favorable ocean conditions. 
Pacific Coastal Salmon Recovery Fund investments are focused on the 
protection and restoration of the freshwater habitats that are 
necessary to sustain salmon populations through future downturns in 
marine survival conditions. A significant portion of the Fund is 
directed at recovery of ESA-listed salmon and steelhead which are not 
the direct target of commercial fisheries. Since the inception of the 
Fund in fiscal year 2000, more than 10,200 projects have been 
completed, protecting and restoring nearly 880,000 acres of habitat and 
restoring access to more than 5,300 miles of habitat program-wide.
    The management of coastal Chinook salmon fisheries off southern 
Oregon and California is currently constrained by the availability of 
stock-specific monitoring information. For example, data on the 
nonlisted Klamath River Chinook salmon population is used as a 
surrogate for the California Coastal Chinook salmon stock (which is 
listed as threatened under ESA) to inform limitations on ocean 
fisheries. Focused resources, such as the Pacific Coastal Salmon 
Recovery Fund, are critical to improving the monitoring information 
available to guide fisheries management and to allow for increased 
utilization of nonlisted salmon runs when sufficiently abundant.

                        CONSOLIDATION OF OFFICES

    Question. On January 13 of this year, the White House proposed a 
plan to shrink the size of the Federal Government by, in part, merging 
existing agencies. For the Department of Commerce, the administration 
proposed, among other things, to consolidate NOAA into DOI.
    How do you think this proposed merger would affect the retention of 
qualified personnel and their expertise?
    Answer. The President's first priority is first to obtain 
reorganization authority. If the Congress grants him that authority, 
the administration would consult with Members of Congress, the relevant 
congressional committees, agencies, and stakeholders as it prepares a 
detailed reorganization proposal to submit to the Congress. Retaining 
qualified personnel with expertise will be a priority in the 
development and implementation of that proposal. Given that the core 
missions of NOAA would continue in any event, we believe we would 
retain our highly qualified staff.
    Question. Do you think that this proposed merger would result in 
the loss of senior management and create confusion and delays in making 
decisions?
    Answer. The goal of the proposed reorganization is to streamline 
and enhance decisionmaking and operations. We would plan carefully for 
the transitions associated with organizational changes in order to 
ensure that there be no delays in making decisions. Among other things, 
we would establish a senior team with strong leadership and agency 
representation that would establish a detailed action plan for 
integrating the agencies and programs to ensure a thoughtful process 
and no loss of functionality. No decisions have been made about 
organizational details, as we intend to seek the views of the Congress, 
agency staff, and other stakeholders on how a merger of NOAA and DOI 
could best improve communication and coordination of natural resource 
management programs.
    Question. How do you think NOAA's operational and research focus--
climate, oceans, fisheries, and weather--will be affected if they are 
folded into DOI, which has been traditionally focused on land 
management, nonmarine species, and oil and gas?
    Answer. DOI and NOAA manage most of the Federal Government's 
natural resources; a consolidation would strengthen the Federal 
Government's stewardship and conservation efforts. Merging the two 
would improve coordination of complementary programs for the 
conservation of natural resources, strengthen ecosystem-based 
management and science, enhance services to coastal communities, 
improve utilization of assets and facilities, and eliminate unnecessary 
administrative costs. NOAA would continue to provide critical weather, 
climate, marine, and coastal services to the Federal Government, 
States, businesses, and coastal communities within DOI. Exactly how 
they would be integrated will be the subject of considerable discussion 
with the Congress, agency staff, and other stakeholders to ensure that 
the result is a stronger, more effective department that protects and 
enhances NOAA's core functions.
    It is my understanding that in addition to the proposed 
consolidation of NOAA into DOI, the administration is also proposing to 
consolidate NMFS' southwest and northwest offices into a single west 
coast regional office. While I understand the need to reduce spending, 
I am concerned that these changes may impact NOAA's ability to address 
fishery issues critical to the delivery of water supplies in California 
and our fishing industry.
    Question. What assurances can you provide me that the proposed 
regional office consolidation will not result in a reduction in senior 
program staff that would diminish services or the timely execution of 
regulatory reviews or scientific support?
    Answer. The fiscal year 2013 budget request includes a reduction of 
$3.109 million and 20 full-time equivalents (FTE) for the 
reconfiguration of NMFS' southwest and northwest regional offices into 
a single west coast regional office. The regional offices are being 
proposed for reconfiguration because of the narrow range of functions 
between the two, the higher degree of overlap in the work conducted, 
and the fact that the both support one Fishery Management Council. This 
reconfiguration would prioritize mission-critical work to protect the 
west coast's living marine resources, and core work on protected 
species consultations would be maintained; however, NMFS's ability to 
work in a proactive fashion with constituents could be constrained.
    Additional action being taken within the west coast consolidation 
include, closing the Pacific Grove Laboratory; that staff would be co-
located with the main science divisions in Santa Cruz and La Jolla, 
California, resulting in a $0.641 million reduction and three FTE. This 
closure reduces facility operating costs of the SWFSC reducing the 
facilities footprint. This relocation would allow for greater 
integration of SWFSC's oceanographic expertise with its biological 
missions in fisheries, marine mammal, and turtle science. As an 
organizational unit, the Environmental Research Division that is 
leaving the Pacific Grove Lab would remain intact after the closure.

                          COASTAL PROTECTIONS

    Question. Coastal protection and restoration programs are vital for 
coastal communities and States. These programs help protect natural 
coastal resources, sustain commercial and recreational fishing 
activities, support habitat protection and restoration, augment 
tourism, and sustain and create jobs. Local communities depend on these 
activities for their personal, educational, and economic well-being. 
They are also cost-effective because they leverage cooperative 
agreements with non-Federal partners to complete projects. However, a 
number of coastal protection programs are facing cuts in the proposed 
fiscal year 2013 budget. For example, community-based restoration will 
decrease by $10 million; marine debris and estuary restoration programs 
will decrease by $1.2 million.
    With decreased funding, how do you propose to sustain protections 
for our coastal communities and economies?
    Answer. Although NOAA has made difficult choices in fiscal year 
2013 in the face of top line budgetary pressures, NOAA continues to 
make targeted investments in key coastal programs. NOAA is requesting a 
program increase of $1.2 million for the Tides and Current Data 
program, which will allow the program to fully maintain and inspect its 
network of National Water Level Observation Network (NWLON) stations. 
Data from these stations are critical to safe navigation and maritime 
commerce activities which are essential to coastal communities and 
economies. NOAA is also requesting an additional $500,000 for Regional 
Ocean Partnership Grants, which supports a targeted competitive grant 
program to advance regional approaches to addressing changes to ocean 
and coastal natural resources. In addition NOAA is requesting a program 
increase of $2 million to enhance its forecasts of harmful algal 
blooms, which can have profound effects on public health, fisheries, 
tourism, and other coastal economic activity.
    In areas where NOAA is requesting program decreases, NOAA is 
seeking new ways to prioritize essential programs, increase efficiency, 
and leverage partnerships with other Federal agencies, State and local 
governments, the private sector, and the nonprofit community. The 
fiscal year 2013 request includes a $10.1 million decrease for the 
Community-based Restoration Program. At the reduced level of funding, 
the Restoration Center will maintain its core operations and 
restoration capabilities to support mandated restoration activities 
related to Natural Resource Damage Assessment, Oil Pollution Act, and 
Comprehensive Environmental Response, Compensation, and Liability Act. 
Under these statutes, NOAA is responsible for addressing injury to 
natural resources, and acts on behalf of the public to protect and 
restore coastal and marine resources and their services.
    Funding for Community-based restoration partnership grants will be 
used for targeted projects, and NOAA will continue to provide technical 
expertise and leadership to States, tribes, and local communities 
implementing fishery and coastal habitat restoration projects, within 
the guiding principles of NOAA's Habitat Blueprint. For example, NOAA 
experts will provide support for cooperative programs including NOAA's 
Gulf Coast Recovery, Coral Reef Conservation, and Protected Species 
Programs; EPA's Great Lakes Restoration Initiative and other large 
ecosystem partnerships; and the U.S. Army Corps of Engineers' 
interagency coordination of coastal wetland protection, restoration, 
and research in Louisiana.
    Question. NOAA's modeling shows that marine debris from Japan's 
devastating 2011 tsunami may reach the Pacific coast in 2013. With 
decreased funding, will NOAA be able to properly mitigate the effects 
of that debris on coastal communities?
    Answer. In fiscal year 2012, NOAA is leading efforts to respond to 
debris from the Japan tsunami. Working with international, Federal, 
State, and local partners, the NOAA Marine Debris Program is collecting 
data on debris quantity, modeling debris movement, assessing potential 
impacts, and planning for efforts to mitigate potential harm to coastal 
communities and natural resources. NOAA has been able to leverage its 
emergency response expertise to coordinate interagency monitoring 
efforts, enhance modeling, develop decision-support tools, and conduct 
response planning.
    In fiscal year 2012 NOAA is directly supporting specially trained 
and highly skilled debris survey teams in their efforts to conduct 
marine debris monitoring surveys. These operations serve as an early 
assessment of the nature and quantity of debris making landfall from 
the Japan tsunami. These activities are also critical to establishing 
baselines for debris observations in Alaska, California, Hawaii, 
Oregon, and Washington so that specific effects attributable the 
tsunami can be documented. NOAA is also developing a marine debris 
response contingency plan and providing support for developing 
graphical representations of scientific forecasts of debris movement to 
better inform responders and improve public understanding of the 
problem. NOAA is not requesting dedicated funding for these activities 
related to the Japan tsunami in 2013. NOAA will continue to evaluate 
whether additional funds are required in the outyears.
    Question. What is NOAA doing to prepare the Pacific coast for the 
possibility of a damaging tsunami? What is still needed to be done in 
order to protect our coastal communities, industries, and 
infrastructures?
    Answer. Since 2005, in the wake of the Indian Ocean tsunami that 
took 240,000 lives, NOAA has continuously implemented a multi-year 
effort to strengthen the Nation's capacity to provide early warnings of 
tsunamis and to enhance coastal communities' preparedness. Both types 
of activities are necessary to mitigate the risks to coastal 
communities and economies from tsunami events.
    The first step toward tsunami preparedness is the ability to 
provide early warning upon a tsunamigenic event. In fiscal year 2006, 
NOAA expanded staffing at the Pacific Tsunami Warning and West Coast/
Alaska Tsunami Warning Centers to ensure 24-hour operations. Warnings 
are delivered to communities at potential risk within 5 minutes of 
detection of a seismic event with potential to generate a tsunami. To 
monitor tsunamic events and further refine its advisories and warnings, 
NOAA has deployed and operates a network of 39 Deep-ocean Assessment 
and Reporting of Tsunamis (DART) stations, 32 of which are stations in 
the Pacific, 4 of which are stations in the Caribbean, and 3 of which 
are in other areas of the Atlantic Ocean.
    To further enhance warning guidance, NOAA Tsunami Warning Centers 
receive real-time, high-frequency water data from NOAA's network of 210 
long-term coastal tide gauges on all U.S. coasts. With this 
information, Warning Centers are able to confirm the nearshore contact 
of a tsunami, quantify its impact, and validate models used for 
improving future warnings. The real-time data are also used by other 
emergency responders to validate the accuracy of the tsunami warnings 
arrival time and to make subsequent safety of life and property 
decisions. Real-time water level data from all NOAA National Ocean 
Service tide stations, known as NWLON, are made accessible for users by 
request.
    NOAA supports many training, education, and public awareness 
activities for tsunami preparedness. Through an ongoing partnership 
with the Federal Emergency Management Agency (FEMA) National Disaster 
Preparedness Training Center, NOAA is engaged in delivering FEMA-
certified training on Tsunami Awareness. In addition, NOAA has 
developed an education and outreach program in conjunction with the 
National Tsunami Hazard Mitigation Program (NTHMP). This education and 
outreach program includes NOAA's TsunamiReady<SUP>TM</SUP> program, 
which thus far has recognized 71 of 272 at-risk communities on the 
Pacific (west) coast. NOAA continues tsunami inundation mapping, 
modeling, and forecast efforts for communities at risk, advancing next-
generation models for currents, and transition these research efforts 
into operations.
    In addition, NOAA supports development of decision support tools 
related to tsunami preparedness. For example, through the Coastal 
Geospatial Services Contract, NOAA works with the private sector to 
acquire and process high-resolution elevation data for coastlines. 
These data provide the foundation for accurate estimates of tsunami 
inundation and are the basis for local evacuation zones and tsunami 
response and mitigation activities. NOAA distributes this data, along 
with other technical resources, through the NOAA Coastal Service 
Center's Digital Coast Web site (www.csc.noaa.gov/DigitalCoast). NOAA 
also partners with state and local jurisdictions to assist in the 
distribution of tsunami evacuation maps through the Internet and mobile 
devices. For example, the online Hawaii Tsunami Information Service and 
its companion application for mobile phones reached more than 100,000 
residents and visitors in Hawaii during the hours following the March 
11, 2011 Japan earthquake and tsunami.

                          TSUNAMI PREPAREDNESS

    Question. Secretary Bryson, on March 14, 2012 NOAA posted a page to 
its Web site entitled, ``Japan's `harbor wave': The tsunami 1 year 
later''. The page makes an unequivocal statement: ``NOAA predictions 
saved U.S. lives and property''. I share this belief because on March 
11, 2011, NOAA's DART program transmitted timely information to 
California and the rest of the Pacific coast. And local emergency 
responders used this information and their NOAA-funded training to 
quickly and efficiently evacuate low-lying coastal areas.
    The system worked well, but next time we may only have minutes, not 
hours, to respond to a tsunami threat. That's why I question the 
proposed cut of more than $4.5 million to the NOAA tsunami preparedness 
and early warning system. The reduction to the buoy network is 
particularly concerning--it will mean decreased data availability a 
system that only operates at 72-percent efficiency.
    Secretary Bryson, if the proposed cut for the DART program is 
approved, how will it impact NOAA's ability to pinpoint the location of 
approaching tidal surges? What impact would the cut have on determining 
the precise time a surge would come ashore?
    Answer. Initial tsunami warnings are based on seismic data alone, 
which determines the magnitude and location of an earthquake. 
Therefore, data availability from a DART station will not impact the 
issuance of tsunami warnings.
    After seismic data is used to issue a warning, data is then 
received from DART stations as a tsunami affects the buoys. Data from 
affected stations are used to confirm the existence or absence of a 
tsunami in a specific area, determine the potential size of the 
tsunami, and further refine the area and temporal extent of any 
warnings. The redundancy built into the DART network and alternative 
sources of data (such as foreign buoys and sea-level gauge data) 
mitigate the impacts of reduced availability of DART data. In 
addition, National Weather Service (NWS) has recently signed an 
agreement in principle with Australia in which they will share 
operations and maintenance responsibility for some NOAA-operated DART. 
While the details of the agreement are still being worked out, we 
anticipate this sharing will mitigate the impact of lower funding 
levels for DART operations and maintenance.
    Question. The budget also proposes reducing funding for NTHMP. Will 
this result in fewer cities receiving mitigation grants? Or will the 
program simply provide less funding to each eligible entity?
    Answer. NOAA places its ability to warn and advise the American 
public on the threat of tsunamis as its highest priority within the 
NTHMP. The Tsunami Warning Centers' operations in Hawaii and Alaska are 
not compromised or degraded with the proposed reductions.
    The proposed reductions will eliminate grants to the NTHMP. The 
NTHMP is a consortium of State partners that use NOAA tsunami program 
funding to support local community education and mitigation activities. 
These activities include inundation mapping to develop evacuation 
plans, routes, and signage; education and awareness campaigns; 
provision of education materials; and training for the public and local 
officials.
    Despite the reduction in grants funding, NOAA would continue to 
support the NTHMP by: setting standards of accuracy for NTHMP-developed 
inundation models; promoting community outreach and education networks 
to ensure community tsunami readiness through funding from the 
TsunamiReady<SUP>TM</SUP> program; promoting the adoption of tsunami 
warning and mitigation measures by Federal, State, tribal, and local 
governments and non-Government entities; conducting tsunami research; 
and operating the U.S. Tsunami Forecasting and Warning Program.
    Question. The United States Geological Survey estimates that there 
is a 99.7-percent chance that a magnitude 6.7 or greater earthquake 
will strike in California in the next 30 years. What is the likelihood 
that this event would trigger a tsunami on the west coast?
    Answer. Most California earthquakes are onshore, and therefore 
unlikely to generate a tsunami. However, without knowing the earthquake 
type, location and magnitude, NOAA is not able to estimate the 
probability of a tsunami.
    Question. If a seismic event occurs near-shore and it triggers a 
tidal surge, will your data be more or less reliable than tidal events 
that are triggered across the pacific ocean (such as the March 11, 2011 
tidal wave)?
    Answer. Regardless of location of the tsunamigenic earthquake, the 
NOAA Tsunami Warning Centers assess the threat and issue a tsunami 
warning within 5 minutes. The reliability of data from any seismic 
event is dependent upon the density of the seismic sensors in the area 
of the earthquake. For example, if an earthquake occurred in the middle 
of the Pacific Ocean, it would take longer to assess the 
characteristics of that event due to the low density of seismic 
sensors. The west coast, on the other hand, has a very dense system of 
seismic networks that would allow for a more rapid assessment of any 
earthquake.

                   INTERNATIONAL TRADE ADMINISTRATION

Solar Panel Trade Dispute With China
    Question. The Department of Commerce just released a preliminary 
determination that the Chinese Government is illegally subsidizing 
Chinese solar manufacturers, and recommended tariffs ranging from 2.9 
to 4.7 percent. Soon, the Department will release another preliminary 
determination about alleged dumping of those solar panels on U.S. 
shores, which may raise tariffs further. Unfair and illegal trade 
practices are clearly harmful to the U.S. solar industry, but I have 
also heard concerns from some solar companies that retaliatory tariffs 
could start a trade war, drive up prices, discourage customer demand, 
and stifle a growing industry here at home.
    What are you going to do to ensure that in the process of enforcing 
fair trade practices, the domestic U.S. solar industry would not be 
adversely affected by the Commerce Department's decisions?
    Answer. The U.S. antidumping and countervailing duty laws, as 
enacted by the Congress, provide very detailed rules and procedures for 
the investigation of these unfair trade complaints. In administering 
the laws, the Department follows these rules and procedures to the 
letter. The laws do not permit the Department to take into account the 
impact on other industries in determining whether and the extent to 
which the imports under investigation may be dumped or subsidized.
    The Obama administration is fully committed to enforcing our trade 
laws and to addressing unfair trade practices in accordance with our 
statutes, regulations, and obligations in order to help ensure that 
U.S. firms and workers have the opportunity to compete on a level 
playing field.

       NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

Internet Corporation for Assigned Names and Numbers
    Question. Secretary Bryson, as we have discussed before, there is 
great concern about Internet Corporation for Assigned Names and 
Number's (ICANN) proposal to open wide top-level domain names, 
expanding them from the present well-known .com, .org, and the others, 
to virtually anything. I was pleased that Commerce wrote to ICANN 
raising a number of specific concerns and suggestions about this 
proposal. I was also pleased with ICANN's response to this letter, 
where they showed a commitment to addressing these concerns. However, 
the rubber has not yet hit the road on this. ICANN is in the middle of 
accepting applications for new top-level domain names, so it has yet to 
put many of its commitments into practice.
    It is important, therefore, that the Commerce Department maintain 
strong oversight over ICANN. The principal leverage that Commerce has 
with ICANN is the ``IANA'', or Internet Assigned Numbers Authority, 
agreement which Commerce has with ICANN to run the system for 
associating domain names with Internet Protocol numbers, and which 
expires at the end of this month. Therefore, I was very pleased to see 
that Commerce last week did not renew this contract, but instead 
granted a temporary 6-month extension of the existing contract, while 
ICANN addresses certain issues.
    Can you elaborate on the reasons why Commerce only granted a short-
term, temporary extension?
    Answer. In anticipation of the impending expiration of the IANA 
functions contract, National Telecommunications and Information 
Administration (NTIA), via two public notices in February and June 
2011, consulted on how best to enhance the performance of the IANA 
functions. Based on the input received from stakeholders around the 
world, NTIA added new requirements to the IANA functions' statement of 
work, including the need for structural separation of policymaking from 
implementation, a robust companywide conflict of interest policy, 
provisions reflecting heightened respect for local country laws, and a 
series of consultation and reporting requirements to increase 
transparency and accountability to the international community.
    On November 10, 2011, the Department of Commerce issued a Request 
for Proposal (RFP) for a new IANA functions contract. The Department 
received no proposals that met the requirements requested by the global 
community, and, therefore, it cancelled the RFP. The Department intends 
to reissue the RFP in the coming weeks so that the requirements of the 
global Internet community can be served. To ensure the continued 
stability and security of the domain name system (DNS) during this 
period, NTIA issued a short-term extension of the contract.
    Question. I would suggest to you that continuing to limit the 
duration of this contract is an excellent way to ensure that ICANN 
follows through on its commitments to address the concerns of law 
enforcement, trademark holders, and others with the new ``generic Top 
Level Domain'' program and other ICANN operations.
    Answer. Thank you very much for your input. I share your interest 
in ensuring that ICANN follows through on its commitments.

                 FEDERAL BUREAU OF INVESTIGATION INPUT

    Question. Along these lines, I understand that the Federal Bureau 
of Investigation (FBI) made a number of recommendations to Commerce for 
provisions to include in the IANA agreement to help them in their 
efforts to combat child pornography, fraud, and other types of 
cybercrime--but Commerce did not include most or all of these 
recommendations.
    Why didn't you include the FBI's recommendations?
    Answer. The statement of work for the IANA functions contract was 
developed through a deliberative and iterative interagency process 
informed by two public notices in February and June 2011 about how best 
to enhance the performance of the IANA functions.
    Question. Can I have your commitment that you will work with the 
FBI to include as many of their recommendations as possible?
    Answer. NTIA has a long history of collaborating with all U.S. law 
enforcement agencies and continues to actively work with all Federal 
Government agencies through an interagency DNS Issues working group, 
which includes the FBI, to ensure that law enforcement concerns are 
being addressed. NTIA continues to take steps to address law 
enforcement concerns by working to strengthen the Registry and 
Registrar Accreditation Agreements, supporting enhancing ICANN's 
contract compliance, and encouraging implementation of the 
recommendations of the WHOIS Review team.
                                 ______
                                 
                Question Submitted by Senator Jack Reed

                       HENRY B. BIGELOW HOMEPORT

    Question. At a time of tight funding and rising fuel costs, the 
National Oceanic and Atmospheric Administration (NOAA) fleet faces 
major funding challenges. Amid these challenges, NOAA is attempting to 
determine the permanent homeport for Fisheries Survey Vessel Henry B. 
Bigelow, which has been located at Naval Station Newport in Rhode 
Island on a ``temporary'' basis since it was commissioned in 2006.
    For more than 6 years, NOAA has been wrestling with the decision on 
the Henry B. Bigelow's permanent homeport because of the costs of 
relocating to Woods Hole, which would require major dredging and 
infrastructure work to accommodate the Henry B. Bigelow. Those costs 
would be in excess of $20 million, according to NOAA's 2008 Facility 
Modernization Plan.
    More than a year ago, I wrote to Under Secretary Jane Lubchenco to 
suggest potential cost-saving options for permanently homeporting the 
Henry B. Bigelow in Rhode Island. Indeed, an independent evaluation 
conducted for NOAA by SRI International in 2006 evaluated Naval Station 
Newport and the Port of Davisville (Quonset). That analysis rated 
Newport higher than Woods Hole, and it was completed before 
improvements were made at the Port of Davisville to accommodate the 
Okeanos Explorer. Those improvements would have improved the Port of 
Davisville's already competitive score.
    Although I have discussed this issue with Dr. Lubchenco on several 
occasions, my letter has not been answered, and I fear less-costly 
alternatives to Woods Hole are being overlooked. While I understand 
that NOAA and the Department are still evaluating options, I would like 
to know when I can expect a reply to my letter. Given the impacts on 
the NOAA fleet, I would also appreciate an explanation of the potential 
costs.
    Answer. We appreciate the Senator's interest in this issue and the 
letter to Dr. Lubchenco expressing his views about the Henry B. Bigelow 
homeport. NOAA's response to the Senator's letter is in the final 
stages of clearance within the agency and we expect to transmit it to 
the Senator's office as soon as possible. Furthermore, we have 
completed an analysis of the options for the Henry B. Bigelow's 
homeport. Our analysis has been transmitted to the Department for 
further review. We will share the content of the analysis as soon as we 
are able.
    NOAA's fleet plays an essential role in supporting NOAA mission 
accomplishment. The stationing of NOAA's vessels is based on mission 
and operational requirements to support the science mission. In the 
past, when a vessel is replaced, NOAA has stationed the new vessel at 
the same station as the one being replaced. In the case of Henry B. 
Bigelow, the previous vessel was stationed at the Woods Hole Northeast 
Fisheries Science Center in Woods Hole, Massachusetts. In this 
instance, the Henry B. Bigelow is larger than the vessel it replaced, 
which would require additional investment in improvements to the Woods 
Hole pier and harbor. Since the Henry B. Bigelow was commissioned, it 
has been stationed at the Naval Station Newport, with the option of 
tying up at the commercial Port of Davisville when necessary for 
loading.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. As part of this year's budget, National Oceanic and 
Atmospheric Administration (NOAA) has proposed closing its laboratory 
at Sandy Hook, New Jersey. This lab is unique--it is located near major 
urban areas, helping scientists develop approaches to managing 
fisheries in impaired water bodies. It has lasting partnerships with 
local universities and fishermen. And it has a 50-year record of 
scientific achievement.
    Can any other single NOAA location provide this combination of 
qualities?
    Answer. The NOAA laboratory at Sandy Hook is an excellent research 
facility with unique capabilities. The laboratory's flow-through 
seawater system, large-capacity experimental tanks, and ocean 
acidification research facility provide an exceptional environment for 
behavioral ecology, habitat, and early life history research.
    However, it has one of the highest costs per square foot for high-
density occupied spaces within the continental United States--at 
$36.30/sq ft. Additionally, the 20-year lease for the Sandy Hook 
Facility expires in December 2013. While NOAA recognizes and 
understands that the Sandy Hook lab conducts important research on 
recreational fish species and serves as an outreach lab to recreational 
fishermen it must balance this with the need to reduce costs.
    Question. Regulators help keep our food safe, and ensure we have 
clean air to breathe. They also make sure that businesses that break 
the rules don't get an unfair advantage. The Office of Management and 
Budget (OMB) reports that regulations over the last decade produced as 
much as $700 billion in benefits at a cost of less than $70 billion.
    Do you agree with OMB finding that regulations yield benefits well 
in excess of their costs?
    Answer. Although NOAA has not done comprehensive analysis such as 
that done by the OMB, our experience is that the benefits to coastal 
communities and the environment resulting from collaborative work 
through the regional fishery management councils and the dedication of 
resources to managing and sustaining fisheries, for instance, exceed 
the costs to the Government.
    Question. The United States Patent and Trademark Office (USPTO) is 
evaluating locations for at least two new satellite offices. U.S. 
patent activity is an important factor in the USPTO's selection 
process. In 2010, the New Jersey/New York region was second in patent 
applications. New Jersey by itself was sixth, and New Jersey excels in 
many other categories the USPTO is considering.
    How does New Jersey compare to other locations as a candidate for a 
satellite office?
    Answer. In assessing potential satellite office locations, USPTO 
assessed more than 50 metropolitan areas against a variety of criteria. 
As mandated by the Leahy-Smith America Invents Act (AIA), cities were 
evaluated according to the ability of the USPTO to perform applicant 
outreach in the area; the ability to both recruit and retain qualified 
employees within the regional labor market; and, the potential economic 
impact of establishing a USPTO satellite office in the region. The AIA 
also required that the USPTO consider geographic diversity among its 
satellite office locations when selecting future sites. In addition, 
each location was evaluated on the basis of operating cost and other 
factors.
    Given the considered factors, data for the New Jersey/New York 
region did not at this time present the best comparative case as a 
whole despite high performance within some factor categories.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

New England Groundfish Monitoring
    Question. Maine's groundfish industry is facing a great deal of 
uncertainty as it continues to move to a new management system and in 
the face of new reports showing that the Gulf of Maine and Georges Bank 
cod stocks may not be as healthy as previously thought, a position at 
odds with the assessments of many working fishermen.
    National Oceanic and Atmospheric Administration (NOAA) announcement 
late last year that it would fund the full cost of observers in fishing 
year 2012 for the New England groundfish fishery was welcome news. 
Looking ahead to next year, I am concerned that the industry will still 
not be in the financial position to pay for the high cost of monitoring 
on the east coast. I understand that these monitoring programs not only 
provide assurance that catch limits are not exceeded, but also provide 
accurate catch data that is essential to good stock assessments. The 
budget requests $28 million for the National Catch Share Program. How 
much does NOAA estimate the total cost of monitoring coverage will be 
for the New England groundfish fishery in fiscal year 2013? How much 
has NOAA budgeted for in fiscal year 2013 to cover those costs? Given 
all of the uncertainty facing the New England groundfish industry, has 
NOAA looked at whether the fleet will be in an economic position to 
begin shouldering the costs of monitoring in 2013 and 2014? And given 
that NOAA uses this monitoring data to feed into its stock assessments, 
which is appropriately a Federal function, is it fair to ask the fleet 
to cover the entire cost of at-sea monitoring in future years?
    Answer. NOAA agrees that at-sea monitoring data is critical to 
accurate stock assessments and the effective functioning of the Sector 
program. NOAA will continue to work with the New England groundfish 
fishery on the appropriate mix of industry and Federal funds to support 
this function. NOAA works similarly with other federally managed 
fisheries where industry is or will be paying all of the at-sea 
monitoring costs, including several Alaska fisheries, Pacific 
Groundfish, and Atlantic scallops.
    National Marine Fisheries Service (NMFS) collects two types of data 
on the New England groundfish fishery through at-sea monitors and 
observers. At-sea monitors count fish and collect less detailed data on 
catch and bycatch (discards) and are utilized to monitor the fishery to 
track quota. Observers collect more detailed data related to catch such 
as age and length of targeted and discarded species, bycatch, and 
additional data such as, biological samples. All information collected 
is used in stock assessments and to understand the fisheries 
interaction with protected resources.
    At-sea monitors are funded primarily through the National Catch 
Share Program budget line, with additional funds from the Observer/
Training budget line. Observers are solely supported through the 
Observer/Training budget line.
    NOAA estimates that the total 2013 cost of observer/at-sea monitor 
coverage in the Northeast to be $17.9 million. The fiscal year 2013 
President's request for NOAA includes approximately 50 percent of the 
costs for at-sea monitors, or $2.2 million, and the total cost for 
observers, $13.9 million, which provides a total of $16.1 million of 
the estimated $17.9 million for observer and at-sea monitor coverage 
required (Table 1). This request takes into consideration recent 
developments, in particular the Gulf of Maine cod stock assessment. The 
remaining costs of at-sea monitors, approximately $2.2 million, are 
expected to be paid by the industry beginning in May 2013.
    NOAA recognizes the potential economic implications, in particular 
for small operators, of transitioning the costs of at-sea monitors to 
industry. Therefore, we continue to analyze the fishery, including 
economic information, and if circumstances warrant we will adjust as 
needed. NOAA continues to work with the New England Fishery Management 
Council and industry to consider alternative effective monitoring 
techniques, such as electronic monitoring (including an ongoing 
electronic monitoring pilot project) that could also be more cost-
effective.

      TABLE 1. FISCAL YEAR 2013 FUNDING REQUEST FOR OBSERVER/AT-SEA MONITOR COVERAGE IN NORTHEAST FISHERIES
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                          Region/fishery                               Fiscal year  2013 PPA       2013 request
----------------------------------------------------------------------------------------------------------------
NE Multi-species fishery (at-sea monitors and observers).........  National Catch Share Program              2.2
                                                                              (at-sea monitors)
                                                                             Observers/training             13.9
                                                                  ----------------------------------------------
      TOTAL......................................................  .............................            16.1
----------------------------------------------------------------------------------------------------------------

 POTENTIAL LISTING OF RIVER HERRING AS THREATENED UNDER THE ENDANGERED 
                              SPECIES ACT

    Question. Late last year, NOAA fisheries announced that it had 
determined that a petition to list alewife and blueback herring, 
collectively known as river herring, under the Endangered Species Act 
(ESA) merited further review and the agency would consider whether 
listing these species would be appropriate. Given the potential impacts 
that even a threatened listing could have on our nation's fishing 
communities, I hope you will urge NOAA fisheries to carefully consider 
effective management plans already in place, such as the programs in my 
home State of Maine.
    River herring are an important source of bait for Maine fishermen 
who already adhere to restrictions mandated by the Maine Department of 
Marine Resources (DMR). The Maine DMR's river herring management plan 
has proven effective in increasing river herring populations through 
habitat restoration and improvements, fish passage construction, 
stocking and transfer programs, and catch limits.
    My question is twofold: in your status review of the species, how 
are you working with State agencies that have a greater familiarity 
with the species than the Federal Government? And, what can be done by 
working proactively with States, particularly States that already have 
successful management programs in place, to avoid a listing under the 
ESA?
    Answer. The Atlantic States Marine Fisheries Commission has been 
working with representatives from each of the east coast States on a 
stock assessment for river herring for approximately the last 3 years. 
This stock assessment is a thorough compilation of the best available 
data on river herring and therefore, will be extremely useful in making 
a listing decision. In order to identify any gaps between the 
information contained within the stock assessment report and 
information that is needed to make a listing determination under the 
ESA, NMFS staff attended the stock assessment committee meeting in 
January 2012, at which the group finalized the data inputs for the 
report. The following are topics that must be addressed in an ESA 
listing decision that were not fully addressed in the stock assessment:
  --stock structure/identification of distinct population segments;
  --impacts of climate change on the continued existence of both 
        species;
  --status of Canadian stocks; and
  --extinction risk.
    Based on these existing gaps, NMFS has been working with Atlantic 
States Marine Fisheries Commission to plan individual workshops to 
address three of these data gaps (we are working with the Canadian 
Department of Fisheries and Oceans to obtain data on the status of 
these species in Canada). With the Atlantic States Marine Fisheries 
Commission's input and assistance, NMFS has identified experts for each 
of these topic areas, and we will be convening these workshops during 
this summer to help inform the status review and subsequent listing 
determination. Announcements of these workshops will be posted on our 
Web site. Reports from the stock structure and extinction risk analysis 
workshops will be peer reviewed by experts from the Center for 
Independent Experts and we will be seeking nominations for qualified 
peer reviewers for the climate change workshop report later this 
spring.
    NMFS has solicited information from the State agencies and the 
public that is relevant to the listing decision and the status review 
team is considering this information in the ongoing status review. We 
are also seeking input from State-recognized experts on the species and 
the management issues surrounding their status and recovery and will be 
inviting the States to send representatives to each of the workshops. 
The information from the workshops will be posted on our Web site 
providing the States and the general public with an additional 
opportunity to see the materials that are in the record, which will 
form the basis of a listing or no listing decision. The States and the 
public will also be provided with the opportunity to supplement the 
record with data and materials from people whom they recognize as 
experts during the peer review process of the workshop reports.
    NMFS has also been working with representatives from the State of 
Maine on restoring access to important spawning areas for both species 
in the State as part of our efforts to restore and recover Atlantic 
salmon and other members of the anadromous species complex. This 
includes focusing on restoration of access to important alewife 
spawning habitats in the St. Croix River. NMFS has also been working on 
restoring access in many other rivers in other States along the east 
coast, and has provided input and guidance for fish passage in many 
river systems under the Fish and Wildlife Coordination Act. All of 
these proactive measures to restore and recover these species will be 
considered in the Policy for the Evaluation of Conservation Efforts 
analysis in the listing determination.

                       STATE-FEDERAL PARTNERSHIPS

    Question. NOAA's fiscal year 2013 budget proposes to cut or 
eliminate some key programs that support important State and Federal 
partnerships. In particular, the proposals to eliminate funding for 
Interjurisdictional Fisheries Grants and reduce by 14 percent funding 
for the Atlantic Coastal Act are particularly worrisome to States. This 
funding helps support State efforts to restore and sustainably manage 
their marine fisheries, and reducing this funding could have severe 
ramifications for monitoring of the Nation's fisheries by the States. 
In Maine, we are particularly concerned about the potential impacts to 
monitoring of our lobster, Atlantic herring, and Northern shrimp 
stocks. How does NOAA propose to maintain and improve the basic 
scientific data collection programs needed for stock assessments of 
these stocks while at the same time cutting funding for these programs?
    Answer. NMFS agrees that the role of the Interstate Commissions in 
fostering partnerships and incorporating the needs of fishing 
communities and industry, recreational, Federal, and State interests 
into fishery management decisions is critical.
    Appropriated funding for the Interjurisdictional Fisheries Act 
grants has declined over the past 2 years. As a result, the benefits of 
the program relative to the administrative costs on both NOAA and the 
States to apply for, manage and report on the awards are no longer 
effective. The Interjurisdictional Fisheries Act grant funding is 
specified by statutory formula and would require a legislative fix. In 
applying the statutory formula to the amount of appropriations 
supporting Interjurisdictional Fisheries Act grants under the fiscal 
year 2012 conference mark, 18 of the 38 grants would have been for less 
than $6,000. NMFS determined that this funding was insufficient to 
justify the grant program, and therefore decided to zero out the grant 
program as part of the undistributed reduction included in the 
conference agreement. This reduction was included in the fiscal year 
2012 spend plan approved by the Congress in January 2012. The fiscal 
year 2013 President's budget maintained this decision. NMFS does not 
expect its fiscal year 2013 appropriation to increase to a level at 
which this program could be effectively managed.
    NOAA continues to work with its partners to find efficiencies to 
maintain the quality and effectiveness of our data quality and 
monitoring. NMFS will continue its current level of effort to collect 
data from its surveys, sampling, and dealer data collection that 
support the Atlantic States Marine Fisheries Commission's technical 
committees. NMFS' scientists serve on the Atlantic States Marine 
Fisheries Commission's committees that develop and apply population 
modeling for the assessment. As an example, for the NMFS Northeast 
bottom trawl, survey data, at-sea and in-port biological sampling data, 
and landings from federally permitted dealers are routinely used by the 
Atlantic States Marine Fisheries Commission.
    Also, in 2012-2013, NMFS is piloting a project to collect more 
samples from observed commercial lobster trips in Statistical Areas 515 
and 513, in the Gulf of Maine. The focus is on characterizing 
groundfish discards and reasons for lobster discard. There are about 10 
vessels that operate in this component of the fishery. This is intended 
to augment data on offshore lobsters for both lobster and groundfish 
management and assessment purposes. NOAA will continue to work with our 
partners to find other efficiencies to maintain the high level of 
quality data and analysis despite reductions in Federal and State 
budgets.

                   INTERNATIONAL TRADE ADMINISTRATION

Softwood Lumber Agreement--Monitoring
    Question. Recently, the United States and Canada agreed to extend 
the softwood lumber agreement to October 2015. The agreement has 
generally benefited Maine's forestry industry, but it has not been an 
easy path due to Canada's numerous violations under the trade 
agreement. The delicate balance of realizing adequate value of the 
agreement for U.S. industry has only been achieved due to the 
monitoring and enforcement work of the last two administrations. The 
Commerce Department plays an important role in the U.S. Government's 
efforts to monitor Canada's compliance with the agreement. This work 
must continue. Failure to adequately monitor and enforce this trade 
agreement places at risk jobs in communities that can least afford to 
lose them. Do you believe that you have the adequate resources to 
continue the Department's critical role in monitoring the Softwood 
Lumber Agreement? Will you commit to continue to make this monitoring a 
priority for the Department?
    Answer. The U.S. trade relationship with our neighbors is an 
absolute priority and Canada is our number one trading partner.
    The Softwood Lumber Agreement (SLA) is evidence of the United 
States and Canada's commitment to working together to resolve long-
standing trade disputes. As you know, the SLA was recently extended for 
2 more years and is now effective until October 12, 2015.
    The administration is committed to strong enforcement of its rights 
under these agreements. To date, in concert with the Office of the 
United States Trade Representative (USTR) and the Department of Justice 
(DOJ), we have been involved in three arbitrations under the SLA. The 
arbitration panel found in favor of the United States on many of the 
issues raised in the first two disputes, and just recently completed 
the third arbitration hearing.
    Commerce's International Trade Administration has targeted $99.6 
million to enforcement in the fiscal year 2012 budget, and the 
Administration has requested a significant increase in the fiscal year 
2013 budget for trade enforcement activities, including the Interagency 
Trade Enforcement Center (ITEC).\1\ Commerce will continue to work 
closely with USTR to ensure that U.S. rights under the SLA are 
vigorously enforced and defended.
---------------------------------------------------------------------------
    \1\ FY 2012 figure from ITA FY2013 Budget in Brief, Objective 12.
---------------------------------------------------------------------------
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham

                   INTERNATIONAL TRADE ADMINISTRATION

    Question. I wrote to your Department earlier this year regarding 
the International Trade Administration's (ITA) U.S. Commercial Service 
(CS). While I look forward to your response, I understand the 
Department of Commerce intends to eliminate CS staff in developing 
economies. While I fully understand the budgetary constraints all U.S. 
Government agencies currently face, I worry such action is premature 
and would weaken opportunities for U.S. companies.
    Under the President's fiscal year 2013 budget, which commercial 
service professionals would be eliminated? How much would it cost to 
ensure no current CS professionals are eliminated? How much would it 
cost for the CS to operate at full capacity?
    Answer. Over the last decade ITA U.S. and Foreign Commercial 
Service (US&FCS) has been reshaped by tight budgets, which have 
resulted in hiring freezes and other ad hoc measures to reduce costs. 
US&FCS responded by undertaking a strategic review of its resources 
using expected budget levels and looking at where and how those 
resources were deployed. These calculations were based on deploying 
approximately 169 officers and 742 locally engaged staff (LES) in 70 
countries worldwide, representing 94 percent of the worldwide market 
for U.S. exports. Based on this information and coupled with 
administration priorities such as the National Export Initiative, 
US&FCS placed each country in Tier I, II, or III categories. Tier I 
represents countries such as China, India, and Brazil with the greatest 
current opportunity to maximize United States exports and the greatest 
demand for our services.
    In order to reposition resources to top tier countries US&FCS 
sought and received approval from the Office of Management and Budget 
and our Congressional Appropriations Committees to close 17 offices 
internationally in fiscal year 2012. The list included closing the sole 
US&FCS offices in seven countries (Algeria, Ecuador, Kazakhstan, Libya, 
Senegal, Switzerland, and Venezuela); nine constituent posts 
(Melbourne, Australia; Vancouver, Canada; Wuhan, China; Alexandria, 
Egypt; Florence, Italy; Sapporo, Japan; Nagoya, Japan; Tijuana, Mexico; 
and Vladivostok, Russia), and the African Development Bank (ADB) 
office. We are also reducing staff in some markets where we are not 
closing offices, mostly in mature, developed markets. Essentially, we 
are under-resourced in priority markets and must therefore address 
those needs before we can consider resourcing third tier markets.
    It is important to recall two elements of our history. First, 
US&FCS was created in 1980 to service U.S. business needs in our most 
commercially important export markets. This represented slightly more 
than 60 markets at that time. The intent was for US&FCS to focus on 
those markets judged to be the most important for expanding exports and 
advancing U.S. commercial interests. However, over time the US&FCS grew 
to have offices in 80 countries. A continuous review of our footprint 
and a common understanding and agreement on the identification of these 
priority markets for U.S. business remains fundamental to offering a 
successful US&FCS program. Given that we cannot be in every market, our 
partnership with the trade promotion program that the State Department 
offers in foreign markets in which US&FCS does not have a physical 
presence is of vital importance if we are to remain at the center of a 
whole-of-government effort to deliver a seamless global program. At 
present, we have partnership post arrangements with 57 State Department 
posts.
    The President's fiscal year 2013 budget proposes an increase of 
$30.3 million to place additional Foreign Commercial Service Officers 
and LES in high-growth, priority markets, including those developing 
economies that offer the greatest opportunity. US&FCS is working to 
determine the best placement of additional staff should increased 
funding materialize, and will evaluate its overseas presence and make 
appropriate adjustments to its footprint as markets and the demand for 
services require. On the contrary, should funding remain flat, US&FCS 
will look to further reposition resources from third and possibly 
second tier countries into the top tier. Absent the closing of 
additional posts due to market conditions or budget constraints, any 
decrease in staff would be accomplished through attrition.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                MARINE MAMMAL STRANDING--GULF OF MEXICO

    Question. When marine mammals strand themselves in the northern 
Gulf of Mexico and cannot be returned to the ocean, the National Marine 
Fisheries Service (NMFS) decides where to place these animals for their 
long-term care. Despite the fact that several dolphins have stranded 
themselves in the northern gulf, NMFS has chosen to send these animals 
to facilities that are not involved or participate in the stranding 
response in the area. Organizations such as Institute for Marine Mammal 
Studies (IMMS) assisting National Oceanic and Atmospheric 
Administration (NOAA) in the stranding response should be preferred in 
the allocation of these nonreleasable stranded animals as these 
facilities spend a lot of time, effort, and resources in assisting 
NOAA. Why is that the case?
    Answer. One of the primary goals of NMFS is the successful 
rehabilitation of stranded marine mammals and their release back to the 
wild. On occasion, we (along with the attending veterinarian) determine 
that rehabilitated animals should not be released for medical or 
behavioral reasons and they must be placed in permanent captivity. We 
place nonreleasable dolphins in public display facilities through an 
equitable and transparent consideration of the capabilities of 
interested facilities in meeting the specific animal's needs.
    Participation in the Marine Mammal Health and Stranding Response 
Program is not a criterion considered in the placement of animals. 
Nonreleasable animals are often placed with entities that do not 
participate in the rescue and rehabilitation of that species. For 
example, IMMS is on the national placement list to receive 
nonreleasable California sea lions, which is not a species found in the 
Gulf of Mexico.
    We have routinely alerted IMMS about each nonreleasable dolphin 
since it received its public display license in December 2009. In 2011, 
four young bottlenose dolphins were determined to be nonreleasable to 
the wild. One of these animals was placed at the facility where it was 
being rehabilitated because they could provide for the social and 
developmental needs of this animal. The IMMS expressed an interest in 
possessing each of the three remaining animals. We determined that they 
did not have the appropriate number and social composition of dolphins 
in its custody to integrate these young individuals, compared to other 
facilities where they were ultimately placed.
    We strive to ensure that nonreleasable dolphins are placed in 
appropriate social groups based on the animal's age and sex, and its 
social, health, and behavioral condition. This is especially critical 
for young animals in need of foster care from adult females with 
maternal experience. A copy of our detailed policy for placing 
nonreleasable marine mammals into permanent captivity is available 
through the following web link: https://reefshark.nmfs.noaa.gov/f/pds/
publicsite/documents/procedures/02-308-02.pdf.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. Mr. Secretary, this concludes our 
hearing. We thank you for your testimony. We look forward to 
your ongoing cooperation. We, too, want to do business in the 
subcommittee at the speed of business.
    We also, while we've been insistent about certain 
performance standards and expectations, we really do want to 
let the people who work at Commerce know, whether they're doing 
trade agreements, enforcing trade, working on those incredible 
standards that take ideas into products that we need to thank 
the 40,000-plus people who work hard every day to create jobs, 
and sustain jobs, and keep our country safe. So, let's all work 
together, so that we can be a more frugal Government, and have 
some smart funding initiatives.
    This subcommittee stands in recess until next Wednesday, at 
2 p.m., when we're going to take the hearing of the NASA 
administrator.
    [Whereupon, at 11:25 a.m., Thursday, March 22, the hearing 
was concluded, and the subcommittee recessed, to reconvene at 2 
p.m. on Wednesday, March 28.]

</pre></body></html>
